<html>
<title> - NASA'S FUTURE SPACE MISSION</title>
<body><pre>[Senate Hearing 108-1006]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 108-1006

                      NASA'S FUTURE SPACE MISSION

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 28, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                   U.S. GOVERNMENT PUBLISHING OFFICE
20-706 PDF                WASHINGTON : 2016
_______________________________________________________________________________________

For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>  

                      


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 28, 2004.................................     1
Statement of Senator Allen.......................................     5
    Prepared statement...........................................     6
Statement of Senator Breaux......................................     5
Statement of Senator Brownback...................................     3
Statement of Senator Dorgan......................................    31
Statement of Senator Ensign......................................    34
Statement of Senator Hutchison...................................     4
Statement of Senator Lautenberg..................................     7
    Prepared statement...........................................     7
Statement of Senator McCain......................................     1
Statement of Senator Nelson......................................     3
Statement of Senator Smith.......................................    36
Statement of Senator Sununu......................................     9
Statement of Senator Wyden.......................................     2

                               Witnesses

Friedman, Louis D., Executive Director, The Planetary Society....    39
    Prepared statement...........................................    41
Lane, Neal, University Professor, Department of Physics and 
  Astronomy, James A. Baker III Institute for Public Policy, Rice 
  University.....................................................    43
    Prepared statement...........................................    45
McCurdy, Dr. Howard E., Professor of Public Affairs, American 
  University.....................................................    51
    Prepared statement...........................................    53
O'Keefe, Hon. Sean, Administrator, National Aeronautics and Space 
  Administration.................................................     9
    Prepared statement...........................................    13
Tumlinson, Rick N., Founder, Space Frontier Foundation...........    57
    Prepared statement...........................................    60

                                Appendix

Article dated January 2004 entitled ``A Renewed Spirit of 
  Discovery'' by President George W. Bush........................    83
Mars Society Statement on Bush Space Initiative..................    78
Remarks by the President on U.S. Space Policy....................    95
Response to written questions submitted to Hon. Sean O'Keefe by:
    Hon. Frank R. Lautenberg.....................................   108
    Hon. John McCain.............................................   101
Response to written questions submitted by Hon. John McCain to:
    Dr. Louis D. Friedman........................................   108
    Neal Lane....................................................   111
Response to written questions submitted to Dr. Howard E. McCurdy 
  by:
    Hon. Frank R. Lautenberg.....................................   115
    Hon. John McCain.............................................   113
Schmitt, Hon. Harrison H., Chairman, Interlune-Intermars 
  Initiative, Inc., prepared statement...........................    75
Slides accompanying letter entitled ``Strategy Based on Long-Term 
  Affordability''................................................    98
Statement dated January 27, 2004 entitled ``Don't Desert Hubble'' 
  by Robert Zubrin...............................................   101

 
                      NASA'S FUTURE SPACE MISSION

                              ----------                              


                      WEDNESDAY, JANUARY 28, 2004

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. On January 14, 2004, the 
President announced a new vision for the Nation's space 
exploration program, a vision that gives NASA a new focus and 
clear objectives, which the Columbia Accident Investigation 
Board concluded were sorely lacking. The man tasked with 
implementing this new vision is NASA Administrator Sean 
O'Keefe. I can think of few people more qualified to try to do 
this.
    I welcome Administrator O'Keefe, and congratulate him on 
NASA's recent accomplishments, including the success of the 
robotic rovers on Mars, the collection of comet dust from Comet 
Wild 2 that will be returned to Earth for analysis, and the 
receipt of new images of deep space from the Spitzer Space 
Telescope.
    While he's more qualified than most any that I've ever 
known, particularly considering his experience as Deputy 
Director of the Office of Management and Budget, I'm very 
curious to hear how Administrator O'Keefe thinks we can 
implement the President's proposal with the very limited 
resources that have been proposed.
    Two days ago, the Congressional Budget Office estimated 
that the deficit in Fiscal Year 2004 would reach $477 billion. 
It's been reported that the President's new proposal could cost 
between $170 billion and $600 billion. Needless to say, the $12 
billion that the Administration has suggested to be spent over 
the next 5 years falls far, far short of what might be required 
to actually return to the Moon and reach for Mars and beyond.
    We must acknowledge that space exploration, particularly 
manned exploration, is costly. We have existing obligations 
relating to the safe operation of the shuttles and the 
International Space Station. I think the American public is 
justifiably apprehensive about starting another major space 
initiative, for fear that they will learn later that it will 
require far more sacrifice or taxpayer dollars than originally 
discussed or estimated.
    As I mentioned during Administrator O'Keefe's confirmation 
hearing, a vision without a strategy is just an illusion. The 
country is not interested in, nor can it afford, another space 
illusion. Therefore, I look forward to hearing from 
Administration O'Keefe, along with our other witnesses today, 
about the strategy that they believe will make the 
Administration's vision a reality.
    Senator Wyden?

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman.
    I want to welcome the Administrator, as well, today and 
thank him for his service.
    I'd just like to make two points, very briefly, Mr. 
Chairman. The last time the Administrator was here, I asked 
that the agency initiate a cost-benefit analysis to look at the 
matter of manned spaceflight. And, if anything, the 
developments of the last few weeks have, I think, increased the 
need for just such an analysis. If anything, if you look at the 
plans that have been announced recently by the President, it is 
clear that they focus even more extensively on human 
spaceflight. And so, Mr. Administrator, the first question that 
I'll ask you is to get into this question, the cost 
effectiveness of manned spaceflight. Because it's very clear 
that, given the ambitions of the President and the budgetary 
realities, it's important that we get a sharper and more 
focused sense of what can be done through manned spaceflight 
and what can be done through other operations.
    The other area that I'm going to ask you about, Mr. 
Administrator, is, I have to tell you, I was extremely 
disappointed to learn that the agency collected personal data 
on more than ten million Northwest Airline passengers in 2001, 
and retained that data for years, without informing the 
passengers that the agency had this personal information. In 
2003, Northwest had more than 500,000 passengers travel in and 
out of Portland International Airport, so I can only imagine 
how many of my constituents had their personal information 
simply handed over to the agency.
    I have legislation right now, the Citizens Protection and 
Federal Data bases Act, which aims to correct the careless 
collection and dissemination of private personal information by 
Federal agencies. My understanding is that the agency has now 
asked Northwest to hand over the information. The airline has 
agreed. But I'd like to know, prior to that, what steps were 
taken to protect the more than ten million individuals that 
were caught up in that data base.
    So those two areas, I'll be exploring with you specifically 
this morning.
    Mr. Chairman, again, I thank you for the hearing. And this 
is an important time for the agency. Mr. O'Keefe has always 
been extremely responsive to our inquiries, and I look forward 
to discussing these issues with him this morning.
    The Chairman. Thank you, Senator Wyden.
    I'd like to remind my colleagues that we have votes 
starting at 11:40, and we have another panel, as well as 
questions for Administrator O'Keefe.
    Senator Brownback?

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thanks, Mr. Chairman, and thanks for 
holding the hearing.
    And congratulations, Mr. Administrator. We've had you up 
here for a number of hearings over the past year, and they 
haven't generally been a very joyous occasion. I just came from 
the office, and they're shooting back pictures from your second 
rover that's on Mars now, and it's just amazing photography. 
Going two for two in a place that's difficult to get one to 
land is an extraordinary feat, so congratulations to you and 
the agency.
    And I want to thank you for listening to Congress, 
particularly Members in the Senate, about articulating a vision 
and getting us out of low-space orbit and a manned program. A 
number of us have met with you over a period of time. And I 
remember a particular meeting, with the Vice President, where a 
number of us were saying we need a vision, and we need it 
articulated by the Administration. And you've put that forward, 
and I appreciate you laying that out. I think it's a bold 
vision, I think it's aggressive.
    What I also like is your pay-for strategy that you put--
where it's basically redirecting current funds with some 
additional, but not a great deal of additional, funds. I think 
it does both break us out of low-space orbit, where we've been 
stuck for the last 20-plus years in the manned program, and 
sets a bold, yet achievable, vision. And it causes us, as a 
society, to lean forward and lean into it and not say, we're 
going to wait on the Europeans to go to the Moon, or, we're 
going to wait on the Chinese to go to the Moon, we're going to 
let somebody else lead in this, because it's too dangerous, 
it's too expensive. No, it's none of that.
    You're saying, we're going to lead forth. And if others 
want to join us, we want them there. But that's the right way, 
and that's the place for this country to be. And it's that kind 
of vision that encourages a 13-year-old in Pittsburg, Kansas, 
to dream great dreams important to the future of this society. 
So I'm glad you've put it forward.
    I want to ask you some specific questions about making sure 
we stay on target with this one, and not sliding off like we 
have sometimes in the past when these have been articulated.
    Welcome back.
    Mr. O'Keefe. Thank you, sir.
    The Chairman. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Senator Breaux just said he really thinks 
that rover is wandering around in the Mohave Desert. Like those 
who said we never went to the Moon.
    [Laughter.]
    Senator Nelson. Mr. Chairman, you can't do spaceflight on 
the cheap. And I just don't think that a billion-dollar 
increase over 5 years--that's $200 million a year--is going to 
do it. And I would love for you to explain, on the 
reprogramming of the $11 billion over that 5 years, how you can 
do that.
    I think my other concern is that I would not like to see 
repeated the period of time between 1975 and 1981, when we were 
down and not flying with humans. When Apollo-Soyuz last flew, 
and the space shuttle was supposed to fly 3 years later, it 
wasn't until 1981, a total of 6 years that we were down. And my 
concern, in what you've outlined and what the President 
outlined in the speech over at NASA Headquarters, is that you 
phase out the space shuttle by 2010, and then if we don't fly 
this new vehicle until four, five, 6 years later, that means 
that our only human access to space is that we've got to rely 
on Russian rockets and European rockets. I don't think that's 
good for the country. So rather than having a hiatus, I would 
love to have you comment as to how we might have an overlap, 
where we would keep the space shuttle flying until such time as 
the other vehicle is already tested and ready to fly.
    And then the other thing that I would say, Mr. Chairman, 
is, a project of this magnitude, it can only be led by the 
President or the Vice President. And I was one of the 
cheerleaders that was there when the President made his 
announcement. But 6 days later, when he had the opportunity to 
put some juice behind it, and the prestige of his office, he 
did not mention it in the State of the Union speech. And so if 
we do not have the full weight of the President behind it, I'm 
afraid it's going to fizzle, and it's going to make it very 
difficult for us, up here, to get the votes to sustain a 
program such as this.
    And thank you, Mr. Chairman.
    The Chairman. Thank you.
    Again, I would request that my colleagues keep your opening 
statements brief, as we have another panel, and votes beginning 
at 11:40, as I understand.
    Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman, for holding 
this hearing.
    I just want to say thank you, Administrator O'Keefe. I have 
been one that has pressed you about a vision for NASA since you 
took office, from the day you had your nomination hearing to 
become the NASA Administrator, I have felt that we have drifted 
since our early successes in space. Our successes in space 
cannot be refuted. We dominate the skies, we have received 
tremendous benefits for our defense and our national security, 
and the benefits for quality of life and the industries that 
have been spurred are unquestionable.
    I love the vision of the President. Many of us encouraged 
him, the Vice President, and yourself to do. I do think that 
follow-through and follow-up is going to be important.
    In closing, the only thing that I would say, because I want 
to be brief, and I certainly want to look at the details of the 
budget. We want to make sure we do this right, not only for 
safety, but for making sure that we don't waste the effort and 
the money. So I hope that we will go forward, realistically 
have a budget that will do the job right. I will be very 
anxious to see where you're going to take money from, $11 
billion will be taken away from other programs, because, of 
course, I hope that we would make sure that the programs that 
are going to support man on the Moon, and getting there, that 
the programs themselves would be kept and solidified as we are 
making this major commitment.
    So I thank you for forcing the vision. Now let's work 
together to implement that vision in the right way.
    Thank you, Mr. Chairman.
    The Chairman. Senator Breaux?

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Would you like me to be brief, Mr. 
Chairman?
    [Laughter.]
    Senator Hutchison. He only says that before I speak, Mr. 
Breaux.
    [Laughter.]
    Senator Breaux. Well, thank you very much, and thank you 
for having the hearing.
    I think that it's an indication of the interest this 
Committee has and the Senate has in the subject matter that Mr. 
O'Keefe brings to the table that we have a good turnout of 
Members, and it shows a real interest in the program.
    I'm concerned, Administrator O'Keefe, about what I would 
term the uncertainty of where we are. And I think you're 
hearing that from many of the opening comments.
    The last time you and I visited, we were talking about an 
OSP, which was the orbital space plane. Since that time, I 
understand that that is no longer there; we're now talking 
about the CEV, or the crew exploration vehicle. So we've made 
some changes in direction. We're now talking about going back 
to the Moon. We've already been there, but we're going back. 
And we now have two unmanned vehicles on the planet Mars. We're 
talking about reprogramming $11 billion. There's a lot of 
uncertainty as what's going to be cut and where the money's 
going to come from to raise the necessary funds to do these 
very adventurous programs.
    I supported, very strongly, the concept of increasing and 
expanding space exploration. I think we, down on Earth, get a 
great deal of benefit from those activities, and they're 
extremely important. But what I think we're looking for today 
is a clearer path as to how we get from here to there. There's 
been a lot of changes, a lot of personnel changes, a lot of 
project changes. And I think what Congress wants to know, that 
we, indeed, not only are on the right path to get to the Mars, 
but we're, indeed--here on Earth, we are on the right path to 
be able to accomplish those goals. And that's what we're 
looking for.
    Thank you.
    The Chairman. Senator Allen?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman.
    And thank you, Administrator O'Keefe, for being here. It's 
always a pleasure to have you here, and I commend you and your 
entire team for the historic achievements on the Mars 
exploration. It's fascinating to me and to all here on Earth.
    On this day in history, January 28, 1986, it may have been 
mentioned, about an hour or so from now, we had the tragic 
explosion of the Challenger. And NASA is beginning more 
journeys. Obviously, the Columbia tragedy is one that propels 
you all. And this has lifted the spirits of everyone, the Mars 
exploration.
    The President has proposed to go forward with his space 
exploration program, which is a very unique national asset. I 
think after listening to Senators Breaux and Hutchison and 
others, the key to the strategic plan is that it is executed 
with proper preparation, with constraints on spending, making 
sure that there's not just a logic, but obviously your 
essential leadership is needed in the first, let's say, 5 years 
of this new strategic plan.
    I do think space exploration makes good sense for us in a 
variety of ways--in knowledge, in innovation, in discovery.
    I want to make sure--and you've heard me say this before, 
Mr. Chairman, and this whole Committee--that you remember the 
aeronautics aspect of NASA. As you move forward, I want to be 
assured that this new initiative does not have a negative 
impact on the aeronautics research and development budget.
    The vision, as I understand it, calls for a billion-dollar 
increase over the next 5 years. It also calls for reprogramming 
of the existing $11 billion within NASA to cover these costs. I 
do see, from this budget here, though, the strategy based on 
long-term affordability, and I would like to see the numbers 
behind it. But it appears that, for at least the next three, 
maybe four, years, the aeronautics and other science activities 
would actually decrease until FY, maybe, 2008.
    Now, aeronautical advancements are absolutely essential for 
our national security. You see it in every military action. We 
saw it in Iraq, on how important that is. The research and 
development budgets have been cut from $920 million, in 1998, 
to just over $500 million, in 2003. At the same time, our 
friends in Europe are, of course, developing a long-term plan 
to achieve global leadership in civil aviation. So for the sake 
of civil aviation, also our national security, I want to make 
sure, as you go forward with this new strategic plan, as we go 
through the details of it, that we do not forget aeronautics, 
which are so essential to our country through our security. I 
look forward to your remarks.
    And I'd like to put my statement into the record, Mr. 
Chairman.
    Thank you.
    The Chairman. Without objection.
    [The prepared statement of Senator Allen follows:]

  Prepared Statement of Hon. George Allen, U.S. Senator from Virginia
    Thank you Mr. Chairman.
    Administrator O'Keefe, I want to thank you for appearing before the 
Committee today and congratulate you and the rest of the men and women 
at NASA for the recent historic achievements in the Mars exploration 
mission. The work taking place on both rover missions--``Spirit'' and 
``Opportunity''--is truly fascinating.
    As NASA begins to journey forward after the Columbia tragedy, I 
believe a new focus and vision on Space Exploration is a salutary goal 
for the Columbia crew and their legacy.
    Everyone can agree that NASA's Space Exploration program is a 
unique and treasured national asset. It is far and away one of the best 
examples of American ingenuity and innovation holding tremendous 
promise for future generations. The President's Exploration Vision 
outlined earlier this month--I believe--is a step in the right 
direction as virtually every aspect of NASA depends on the success of 
the Space Flight Program.
    As it has in the past, I am confident that the success of the Space 
program will continue to expand our knowledge base, revolutionize our 
understanding of the universe and produce technological advances that 
benefit all mankind.
    I generally view the space program as a means to a greater end. 
That end being the research, innovation, exploration, and the discovery 
that occurs in space. As we examine NASA and the President's new vision 
we ought to ensure the Exploration Vision includes a continued focus on 
aeronautic related research.
    I am concerned as NASA moves forward implementing this new 
initiative that it may have a negative impact on NASA's aeronautics 
research and development budget. I understand the Vision calls for a $1 
billion increase over 5 years for NASA's overall budget; however it 
also calls for $11 billion to be ``reprogrammed'' within NASA to cover 
these costs.
    In addition, I see from the projected budget provided by NASA that 
aeronautics and other science related funding will be decreasing over 
the next five years.
    The aeronautics industry contributes $343 billion to our economy 
and employs 4.2 million Americans. Yet NASA's aeronautics R&D program 
has steadily declined in the last decade from $920 million in 1998 to 
just over $500 million in 2003. During this time our European friends 
are developing a long-term plan to achieve global leadership in civil 
aviation.
    I have previously raised similar concerns about aeronautics and 
using other advancements in technology (specifically in the areas of 
robotics) that could potentially minimize risks associated with Human 
Space flight and overall spending.
    I do not disagree that we must strive towards new discoveries and 
explore our galaxy, but we should pay due attention and consideration 
to the technology and innovation that provides for our unrivaled 
military and civil aviation success.
    Administrator O'Keefe, I appreciate you appearance before the 
Committee today and I am hopeful you can comment on NASA's plans to 
stay focused on aeronautics related R&D and how that may be 
incorporated into the new Exploration Vision.
    Thank you Mr. Chairman. I look forward to the testimony.

    The Chairman. Senator Lautenberg?
    Congratulations, on behalf of all of us, on your recent 
marriage.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Hear, hear. I've been to the Moon.
    [Laughter.]
    Senator Lautenberg. Thank you very much, Mr. Chairman. And 
thanks for the good wishes. I hope that my marriage lasts as 
long as this trip is going to take to get us to Mars.
    [Laughter.]
    Senator Lautenberg. I hope that I last that long.
    [Laughter.]
    Senator Lautenberg. Mr. Chairman, thank you for holding 
this hearing this morning. And I'll try to be brief. I'd ask 
the consent that my full statement be included in the record.
    The Chairman. Without objection.
    Senator Lautenberg. I thank you.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman,

    Thank you for holding this hearing on President Bush's proposal to 
reinvigorate the space program by sending astronauts to the Moon and to 
Mars.
    The administration estimates that such a mission would cost 170 
billion dollars. The proposal is so sketchy on details, I doubt that 
estimate is anywhere near accurate.
    But even if it is, and we go to Mars, we better hope there's gold 
there to pay for the trip; we're not going to find the money to pay for 
it here. Not when this administration's tax cuts have helped turn a 
ten-year surplus projected at 5.6 trillion dollars into a 3.5 trillion 
dollar deficit--right as the first cohort of Baby Boomers gets ready to 
retire.
    The President has a habit of announcing grandiose programs and 
reaping the positive publicity but then not following through with the 
necessary funding. Maybe we should call the mission to Mars ``No Planet 
Left Behind.''
    I wonder if the President wants to send former Treasury Secretary 
Paul O'Neill on the manned mission to Mars. I say this because one of 
the very real obstacles we face is that while it may be feasible to get 
people to Mars, we don't have the propulsion technology to bring them 
back.
    I hate to sound completely cynical but it's hard to avoid thinking 
that announcing this ``mission'' is nothing more than a ploy to divert 
the public's attention away from the administration's failed economic 
policies.
    Last month, the economy created 1,000 jobs. At that rate, it would 
take nearly 249 years just to get back the private sector jobs that 
have disappeared under President Bush's ``stewardship'' of the economy. 
Meanwhile, 43 million Americans don't have health insurance.
    Having said all that, I am not unalterably opposed to all space 
exploration. I am as excited as the next person about the images and 
data we are receiving from our Rovers ``Spirit' and ``Opportunity,'' 
which underscores the point I would like to make: there is much we can 
continue to learn from the unmanned exploration of space.
    We don't need to incur the extraordinary risks and costs associated 
with manned exploration of space to learn more about the universe and 
our place in it.
    Whatever we decide to do, we can't be for it and for tax cuts, 
too--not on the heels of the Space Shuttle Columbia accident.
    When taxes are cut too much, and revenue streams dry up, and budget 
deficits spiral out of control--which is what's happening now--the 
government becomes constrained in what it can do. Frankly, the 
President's proposal strikes me as frivolous at best.
    I look forward to hearing from our witnesses about how we could 
possible reconcile our current budget woes with the astronomical cost--
pardon the pun--of sending humans back to the Moon and then on to Mars.
    Thank you, Mr. Chairman.

    Senator Lautenberg. There's an estimate out there, by the 
Administration, that this mission might cost $170 billion. And 
the talk about a human presence on Mars, I find interesting; 
but, frankly, I also find it to be challenging, and challenging 
because we're seeing so much by the way of technological 
development that surprises us all. And talking to some friends 
in medicine, talking about how much more accurate, how much 
more reliable it is do brain surgery with instruments going 
into the head and the scalp and--I have that interest because I 
had a ski accident last year, and thank goodness the guy 
didn't--wasn't nervous, who did this thing--I don't think, 
anyway; you'll have to make that judgment.
    [Laughter.]
    Senator Lautenberg. But the fact of the matter is that 
we've found that areas around the heart are better tended to 
electronically and mechanically than human intervention, and I 
really wonder, Mr. O'Keefe--and I salute you and all the people 
there who tried so hard. And I know the heartbreak that the 
agency's been through, and that they have done the best that 
they could. And perhaps we could even do better, was it 
financed at a higher level. But right now we're looking at a 
$5.6 trillion reduction in surplus into a $3.5 trillion 
deficit, and on the eve of the baby-boomers getting ready to 
retire. And I wonder what the President's mission is here, when 
we talk about the kind of expense that it would take to move 
people back up into space, to get them to Mars, a stop along 
the way on the Moon, and when there's so much by way of current 
domestic need. Last month, the economy created a thousand jobs. 
At that rate, it would take nearly 250 years just to get back 
to the private sector job level that we had before. Forty-three 
million Americans without health insurance.
    So I'm not unalterably opposed to space exploration. I'm 
excited as the next person about the images that we're getting 
back from the Moon. And I salute, again, the agency for the 
work that it did with the rovers up there.
    But the question is, can we afford to do this, and is it 
really necessary? I don't know whether the question about 
whether a human presence is really essential to get the 
information we want, or whether it can be done electronically 
and scientifically.
    So, Mr. Chairman, I look forward to hearing, from our 
witnesses, how we can possibly reconcile our current budget 
woes with the costs that it's going to require of sending 
humans back to the Moon and then on to Mars. And I thank you, 
Mr. Chairman.
    And I thank you, Mr. O'Keefe, for being here and the work 
that you do.
    The Chairman. Thank you, sir.
    Senator Sununu?

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you, Mr. Chairman.
    Welcome, Administrator O'Keefe. You've had a lot of quality 
face time on TV lately. You and your staff are to be 
congratulated. And I certainly join others in wishing you luck 
in the coming weeks for the science expeditions on Mars.
    Thank you.
    The Chairman. Thank you.
    The Chairman. Senator Stevens?
    Senator Stevens. I have no formal statement. I'm glad to 
see our friend, Sean O'Keefe here. We swore in, the other day, 
the new comptroller of NASA, and we discussed the President's 
program at that time, Mr. Chairman.
    The Chairman. Thank you.
    Welcome, Mr. O'Keefe.

    STATEMENT OF HON. SEAN O'KEEFE, ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. O'Keefe. Mr. Chairman, thank you very much. I 
appreciate the opportunity to be here. I'll submit the 
statement, for the record, and quickly summarize. As I 
understand, the Committee has indulged to permit a showing of a 
short video here.
    Excuse me, is my microphone not on?
    The Chairman. A little closer, I think.
    Mr. O'Keefe. A little closer? Does that work?
    The Chairman. That's better.
    Mr. O'Keefe. Excuse me.
    If I could, I'll submit the statement for the record, 
briefly summarize.
    The Chairman. Without objection.
    Mr. O'Keefe. And I understand the Committee's indulgence is 
to have a video here, we've got available here in just a 
moment.
    First and foremost, the Columbia Accident Investigation 
Board has, as all the Members recall, very specifically called 
out the requirement, that there be established a statement and 
a clear understanding of a vision, a strategy and a direction 
for the space exploration endeavor. And that was one of the 
very fundamental aspects of their findings of what they 
believed was not only necessary, but also its absence in the 
recent past as being a fundamental factor that led to the 
conditions under which the accident occurred--that, having been 
produced on August 26. A few months before that, we began an 
interagency process that we have discussed at this Committee on 
several occasions, as well as others around the Congress; have 
requested the input, and have received it from several Members; 
and very much appreciate the time and effort and energy that 
has been taken to help shape this objective. The administrative 
work of pulling together all those internal interagency efforts 
was conducted over the course of that time, and the President 
announced, on January 14, the vision that has been called for 
by the Accident Investigation Board, by several Members of 
Congress, by any other external commentary that could be 
offered.
    The vision forms the basis of a new space exploration 
policy. It is a Presidential directive. It is established as 
the direction that vitiates all prior effort that would have 
governed the space policy direction. ``A Renewed Spirit of 
Discovery'' is its title.
    The policy is the product, again, of that extensive 
interagency process, as well as solicitation and view of 
various Members and others in the community. The fundamental 
goals of the exploration policy is to advance U.S. scientific 
and economic interest through a robust space exploration 
program; to implement and sustain an affordable human and 
robotic program--it is a very carefully crafted combination of 
both; a return to the Moon by the end of the next decade, in 
preparation for human exploration beyond; promotion of 
international and commercial participation and exploration to 
further that scientific, security, and economic interest, as 
well.
    The fundamental elements of that, that the President 
described in great detail on January 14, and I will quickly 
summarize here, is, first and foremost, the direction from him 
to return the space shuttle to flight. Our objectives are to 
follow the recommendations of the Accident Investigation 
Board--we have embraced that report; we will comply with it in 
its entirety--and assure that, when we return to flight, we 
have determined that we are fit to fly in accordance with those 
recommendations. And so as soon as practical, that event will 
occur.
    The purpose of that return to flight and the necessity to 
continue operating the space shuttle for the foreseeable future 
in this decade is to complete the International Space Station. 
It is the only research platform for the purpose of fully 
understanding the effects on long-duration human spaceflight. 
And so understanding what those physiological and human effects 
are, and how to conquer them properly for future exploration 
objectives that are called for in the President's vision and 
strategy statement, are a necessity that we will continue to 
perform on the International Space Station.
    We've agreed, with our other 15 partners from around the 
globe, and have consulted with them extensively, on the means 
by which we will complete that assembly sequence over the 
course of the next several years, with the objective of 
retiring the shuttle after the assembly of the station is 
complete, at the end of the decade.
    Next is a movement and a direction very specifically toward 
a crew exploration vehicle. And, again--Senator Breaux referred 
specifically to this point--this is an objective of building on 
the capacity of the orbital space plane and the capabilities 
that we investigated over the course of the past year, and 
developing, then, instead, a capability that takes it the next 
step beyond that, beyond low-Earth orbit; whereas, the orbital 
space plane was specifically an objective of taxi between here 
and station, not designed to go beyond that objective. So, in 
that context, what the President's called for is an exploration 
vehicle that can progress beyond low-Earth orbit, return to the 
Moon, Mars, and beyond, for the purpose of those objectives.
    Under the name and title of ``Project Constellation,'' we 
will proceed ahead with the development of that exploration 
vehicle, provide crew transport for exploration missions beyond 
low-Earth orbit.
    In addition, lunar exploration objectives are underway. 
We'll be pursuing, in a robotic form for the balance of this 
decade, to begin those efforts; and, again, with the objective 
of looking toward the middle of the next decade for a return to 
the Moon, as well.
    Exploration of Mars, I believe we've seen that illustrated 
in grand fashion here in recent days; and so to build and 
develop more on the basis of that particular success, and to 
inform the investigation necessary, based on the science, to 
pursue those destinations in the future, is what he has called 
for in his vision statement, as well.
    To help derive the view of what other efforts are necessary 
to implement this strategy--because, again, this was an 
interagency process of public servants within the 
Administration who developed the options for the President's 
consideration--he chose the strategy he announced on January 
14, but it was primarily derived from the work of this 
interagency process, internal to the Administration, in 
addition to the inputs that we've received from Members of 
Congress and elsewhere.
    But to formalize that a bit more and fully understand what 
other implementation strategies we may pursue, other factors, 
from a more broader, external basis, the President asked former 
Secretary of the Air Force, Pete Aldridge, to chair a 
Commission to look at implementation strategies of this vision. 
This is a specific set of objectives that is articulated in the 
President's directive. In turn, how do we go about implementing 
it best? And his task, over the course of the next 4 months, 
will be to gather those thoughts from a broader external set of 
inputs in order to factor, as we move ahead with the 
President's program--it will be announced and laid out on 
February 3, as part of the President's budget submission--the 
approaches that we need to take in the years ahead in order to 
achieve this particular objective.
    In the immediate time after the President's speech, the 
next day, we announced a reorganization of the agency to 
establish an Exploration Systems Enterprise to look at the task 
of accomplishing the President's objectives as a system of 
systems. It is not a singular program, it is not a singular set 
of objectives; it is a range of capabilities that can be 
employed, informed by what we receive, I think, from the 
continuing efforts of the various program engagements that 
we'll see in the President's budget, as well as that which is 
offered to us by this external panel, in order to move ahead on 
a broader range. And, as a consequence, the Exploration Systems 
Enterprise will have the primary responsibility for the 
development of the crew exploration vehicle, under the term 
Project Constellation, and, in turn, also coordinate the 
Project Prometheus efforts for power generation and propulsion 
capabilities beyond low-Earth orbit.
    We've also established an aeronautics enterprise, very 
specifically titled as ``An Aeronautics Enterprise,'' with the 
objective of assuring that it not get lost in the equation, 
because it's an essential piece of what we do and how we're 
organized. And so, as a consequence, there is a very clear 
focus on that objective, as well.
    The vision, as you'll see, I think, when the President's 
budget comes out next week--and I would hope that Members would 
examine that budget before making determinations of its overall 
efficacy or utility; it will be out next week, and the full 
detail will be available--is, in our judgment, an affordable 
effort, both short term, as well as long term. The request, to 
be released on the 2nd, is fiscally responsible, it fits in the 
context of the overall statement the President has made on what 
drove his budget considerations for the 2005 submission, to 
achieve half of the deficit projection within the next 5 years, 
as well as to maintain spending in the coming year to less than 
4 percent. We are within that amount, and, over the course of 
the 5 years, are also projected, within the overall budget 
projection, to be in that context, as well. And more on that, 
again, after next week, as you see the detail that's relayed 
very specifically.
    As an immediate example of the illustration of how this 
strategy will be carried out, I would submit that the Spirit 
and Opportunity experiences we've had here in the last 3 weeks 
are an illustration of how that robotic capability can be a 
precursor to future exploration agenda. And it is about 
exploration. That is the primary focus of what the President's 
guidance and directive has stated to us, in terms of what the 
focus needs to be and its context needs to be considered in.
    And with that, Mr. Chairman, I'd like to, if you would 
indulge, play a short video that gives you a sense of the--a 
combination of things. This is an animation of what occurs as 
the Mars exploration rovers are approaching the planet, as well 
as the splicing in of real scenes of the landing sequence, as 
well as some images from both the Spirit and Opportunity 
landing sites that were established.
    And, if you will, Mr. Chairman, I'll play that at this 
time.
    [Video presentation.]
    Mr. O'Keefe. Mr. Chairman, these are precisely the kinds of 
precursor robotic missions we will continue with a lot in the 
future in order to advance, before the human exploration 
endeavor is engaged in. But it is an integral interrelated kind 
of activity.
    We are, as Senator Allen referred to, extremely mindful of 
the risks that are attendant to this exploration endeavor. 
Today is the 18th anniversary of the loss of Challenger. And, 
too, we'll announce, this afternoon, the naming of the site 
that Opportunity landed at as the Challenger Memorial Station.
    Yesterday, the anniversary of the Apollo 1 fire, mindful, 
again, of the risks of exploration that we continue to pursue, 
the plains and the number of ridge lines at the Spirit site, 
the three highest peaks are named for Grissom, Chaffee, and 
White, those who we lost on that fateful day.
    And as we continue on, through this very, very difficult 
weekend ahead of us, to recognize and to commemorate the lives, 
and celebrate the lives, of seven extraordinary people aboard 
Columbia, I think more will be recognized on precisely their 
contributions, as well. But that is part of what helped 
motivate this change in the vision. The Columbia Accident 
Investigation Board's call for exactly this kind of a 
statement, I think, is the legacy of Columbia and those who 
followed--or those who preceded, and we intend to honor that 
legacy with the best of our ability.
    Thank you, Mr. Chairman.
    [The prepared statement of Administrator O'Keefe follows:]

   Prepared Statement of Hon. Sean O'Keefe, Administrator, National 
              Aeronautics and Space Administration (NASA)
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear today to discuss the President's vision for U.S. 
Space Exploration and NASA's plans for implementing this vision. On 
January 14, the President visited NASA Headquarters and announced his 
vision for U.S. Space Exploration. In his address, the President 
presented a vision that is bold and forward-thinking yet practical and 
responsible--one that explores answers to longstanding questions of 
importance to science and society, and will develop revolutionary 
technologies and capabilities for the future, while maintaining good 
stewardship of taxpayer dollars.
    The vision forms the basis of the new U.S. space exploration 
policy, ``A Renewed Spirit of Discovery,'' a copy of which is appended 
to this testimony. This policy is the product of months of extensive 
and careful deliberations. The importance of these deliberations 
increased with the findings of the Columbia Accident Investigation 
Board, which emphasized the importance of setting clear, long-term 
goals for the Nation's human space flight program. Inputs from Members 
of this Committee and other Members of Congress informed the 
Administration's deliberations. Many others contributed their ideas for 
the future of the space program. These deliberations also formed the 
basis for formulating the President's FY 2005 Budget request for NASA, 
which will be released on February 2. A commission will advise on 
specific issues for implementation of the policy's goals within four 
months of its first meeting.
    Today, I will walk you through the goals set forth in the policy, 
the major steps to implementing the new policy, the implications of 
this directive for NASA's programs and resources, and what the Nation's 
future in exploration and discovery will look like in the coming years.
Vision Goals
    The fundamental goal of the new U.S. space exploration policy is to 
advance U.S. scientific, security, and economic interests through a 
robust space exploration program. In support of this goal, NASA will:

  <bullet> Implement a sustained and affordable human and robotic 
        program to explore the solar system and beyond;

  <bullet> Extend human presence across the solar system, starting with 
        a human return to the Moon by the year 2020, in preparation for 
        human exploration of Mars and other destinations;

  <bullet> Develop the innovative technologies, knowledge, and 
        infrastructures both to explore and to support decisions about 
        the destinations for human exploration; and

  <bullet> Promote international and commercial participation in 
        exploration to further U.S. scientific, security, and economic 
        interests.
Implementation
    To achieve these goals, NASA will plan and implement an integrated, 
long-term robotic and human exploration program structured with 
measurable milestones and executed on the basis of available resources, 
accumulated experience, and technology readiness. The policy envisions 
the following major implementation elements:

        SpaceShuttle--NASA will return the Space Shuttle to flight as 
        soon as practical, according to the recommendations of the 
        Columbia Accident Investigation Board. The focus of the Space 
        Shuttle will be finishing assembly of the International Space 
        Station (ISS). With its job done, the Space Shuttle will be 
        retired when assembly of the ISS is complete, planned for the 
        end of the decade.

        International Space Station--NASA plans to complete assembly of 
        the ISS, including those U.S. components that support U.S. 
        space exploration goals and those planned by foreign partners, 
        by the end of the decade. U.S. research activities aboard the 
        ISS will be focused to support the new exploration goals, with 
        the emphasis on understanding how the space environment affects 
        astronaut health and capabilities and developing 
        countermeasures.

        New Space Transportation Capabilities--NASA will initiate 
        Project Constellation to develop a new Crew Exploration Vehicle 
        (CEV) to provide crew transport for exploration missions beyond 
        low Earth orbit. NASA plans to develop the CEV in a step-by-
        step approach, with an initial unpiloted test flight as early 
        as 2008, followed by tests of progressively more capable 
        designs that provide an operational human-rated capability no 
        later than 2014.

        As we begin the process of retiring the Space Shuttle from 
        service, NASA will separate to the maximum practical extent 
        crew and cargo transportation for both ISS and exploration 
        missions. NASA will acquire ISS crew transport as required and 
        cargo transportation as soon as practical and affordable. NASA 
        envisions that commercial and/or foreign capabilities will 
        provide these services. The CEV may supplement these ISS 
        capabilities, but its design will be driven by exploration 
        requirements.

        Lunar Exploration--NASA will undertake lunar exploration and 
        demonstration activities to enable sustained human and robotic 
        exploration of Mars and other destinations in the solar system. 
        Starting no later than 2008, NASA plans to launch the first in 
        a series of robotic missions to the Moon to prepare for and 
        support human exploration activities. The policy envisions the 
        first human expedition to the lunar surface as early as 2015 
        but no later than 2020. These robotic and human missions will 
        further science and demonstrate new approaches, technologies, 
        and systems, including the use of space resources, to support 
        sustained human exploration to Mars and other destinations.

        Exploration of Mars--NASA will enhance the ongoing search for 
        water and evidence of life on Mars by pursuing technologies 
        this decade for advanced science missions to Mars in the next 
        decade. Also starting next decade, NASA will launch the first 
        in a dedicated series of robotic missions to Mars to 
        demonstrate capabilities that will greatly enhance robotic 
        capabilities and enable future human exploration of Mars. NASA 
        will conduct human expeditions to Mars and other destinations 
        beyond Earth orbit on the basis of available resources, 
        accumulated experience, and technology readiness.

        And Destinations Beyond--Over the next two decades, NASA will 
        conduct an increasingly capable campaign of robotic exploration 
        across the solar system. The stunning images we have received 
        from Mars are just the beginning. NASA will launch advanced 
        space telescope searches for Earth-like planets and habitable 
        environments around other stars. NASA will explore Jupiter's 
        moons, the asteroids, and other solar system bodies to search 
        for evidence of life, understand the history of the solar 
        system, and search for resources.

    To advise on issues for achieving these goals, the President will 
form a commission of private and public sector experts. Former 
Undersecretary of Defense and Secretary of the Air Force, Pete 
Aldridge, will be the Chair of the Commission. This commission will 
issue its report within four months of its first meeting.
NASA Program Changes
    To successfully execute the exploration vision, NASA will focus its 
organization, create new offices, align ongoing programs, experiment 
with new ways of doing business, and tap the great innovative and 
creative talents of our Nation.
    Immediately following the President's speech, I announced the 
creation of the Exploration Systems Enterprise, which will have 
responsibility for developing the Crew Exploration Vehicle and other 
exploration systems and technologies. Retired U.S. Navy Rear Admiral 
Craig Steidle, former manager of the Defense Department's Joint Strike 
Fighter Program, is heading this new organization. Relevant programs of 
the Aerospace Technology, Space Science, and Space Flight enterprises 
are being transferred to the Exploration Systems Enterprise. The 
Aerospace Technology Enterprise has been renamed the Aeronautics 
Enterprise to reflect its new focus.
    As human explorers prepare to join their robotic counterparts, 
coordination and integration will increase. The Exploration Systems 
Enterprise will work closely with the Space Science Enterprise to use 
the Moon to demonstrate new approaches, technologies, and systems to 
support sustained human exploration. NASA's Space Science Enterprise 
will have responsibility for implementing robotic testbeds on the Moon 
and Mars and will also demonstrate other key exploration technologies--
such as advanced power, propulsion, and communications-in missions to 
Mars and Jupiter's moons. NASA's Space Science Enterprise will 
eventually integrate human capabilities into the exploration of Mars 
and other destinations.
    Many other elements of the NASA organization will be focused to 
support this new direction. NASA's Biological and Physical Research 
Enterprise will put much greater emphasis on bioastronautics research 
to enable human exploration of other worlds. NASA's Office of the Space 
Architect will be responsible for integrating the exploration 
activities of NASA's different Enterprises and for maintaining 
exploration roadmaps and coordinating high-level requirements.
    As we move outward into the solar system, NASA will look for 
innovative ideas from the private sector and academia to support 
activities in Earth orbit and future exploration activities. Many of 
the technical challenges that NASA will face in the coming years will 
require innovative solutions. In addition to tapping creative thinking 
within the NASA organization, NASA will leverage the ideas and 
expertise resident in the Nation's universities and industry.
    In his speech, the President directed NASA to invite other nations 
to share in the challenges and opportunities of this new era of 
exploration and discovery. Building on NASA's long history and 
extensive and close ties with the space and research agencies of other 
nations, we will actively seek international partners in executing 
future exploration activities.
    NASA will also invigorate its workforce, focus its facilities, and 
revitalize its field centers. As exploration activities get underway, 
NASA anticipates planning, reviews, and changes to align and improve 
its infrastructure. In order to achieve the exploration vision, we will 
be making decisions on how to best implement new programs. While some 
of these necessary actions will not be easy, they are essential to the 
overall effort before us. I urge you to consider the full context of 
what we will be proposing rather than any isolated, specific action. 
Such a perspective will allow us to move forward in implementing the 
vision.
Budget Resources
    The exploration vision for solar system exploration is affordable 
in both the short-term and the long-term. The President's FY 2005 
Budget request for NASA, to be released on February 2nd, will be 
fiscally responsible and consistent with the Administration's goal of 
cutting the budget deficit in half within the next five years. NASA's 
FY 2005 Budget will increase by $1 billion over five years when 
compared with the President's 2004 plan, an increase of around five 
percent per year over the next three years and approximately one 
percent for the following two years. Although the budget increases are 
modest, NASA will be able to carry out a robust exploration program. In 
addition to the new funding, the vision will be supported by $11 
billion in reprogrammed funds over the next five years, the majority of 
which will come from human space flight related programs. In the next 
decade, retiring the Space Shuttle will free up over $4 billion per 
year, enabling full-scale development and operation of human missions 
to the Moon.
    The budget strategy supporting the vision will not require large 
balloon payments by future Congresses and Administrations. Unlike prior 
major civil space initiatives, the approach is intentionally flexible, 
with investments in sustainable exploration approaches to maintain 
affordability.
The Nation's Future in Exploration and Discovery
    As we embark on this new chapter of exploration, we are mindful of 
the risk attendant on that quest. And as we gather today, on this the 
18th anniversary of the Challenger tragedy, it serves as a stark 
reminder of the price we pay for human exploration. It has been the 
case through human history. This painful reminder serves as a clarion 
call to redouble our efforts to undertake this new chapter in 
exploration in the safest manner humanly possible. As a testament to 
the courage of the Challenger crew, and their contribution to human 
exploration, we will designate the landing site of the Opportunity 
rover on Mars as the Challenger Memorial Station.
    As the President stated in his. speech, we are embarking on a 
journey, not a race. We begin this journey knowing that many years of 
hard work and sustained effort will be required, yet we can look 
forward to achieving concrete results in the near term. The vision 
makes the needed decisions to secure long-term U.S. space leadership. 
It provides an exciting set of major milestones with human and robotic 
missions. It pursues compelling science and cutting edge technologies. 
It invites new ideas and innovations for accomplishing the vision. And 
it will provide the opportunity for new generations of Americans to 
explore, innovate, discover and enrich our Nation in ways unimaginable 
today. The President's challenging vision provides unique opportunities 
for engaging students across the country, ''as only NASA can,'' to 
enter careers in science, engineering, technology and math. I sincerely 
appreciate the forum that the Committee provided today, and I look 
forward to responding to your questions.

    The Chairman. Well, thank you very much. It's good to have 
you back again, Mr. O'Keefe.
    In your written testimony, you stated that NASA will be 
making decisions on how to best implement new programs, some of 
which, quote, ``will not be easy,'' unquote. Tell us the ones 
that are not going to be easy.
    Mr. O'Keefe. First and foremost, the crew exploration 
vehicle, under Project Constellation, that we will establish--
an advancement or an evolution, if you will, of the orbital 
space plane approach--its objectives will require the capacity 
to carry humans beyond low-Earth orbit. It's been awhile since 
we've done that properly, and the technology has changed 
dramatically. That's going to take an awful lot of work. And, 
again, the Exploration Systems Enterprise is being focused upon 
that very objective.
    Similarly, the approach that we've talked about in the 
past, Project Prometheus, of developing power generation and 
propulsion capabilities, is not something we've done before. We 
have to find a breakthrough for that in order to inform these 
missions in a way that would be more contemporary, faster than 
what we typically do now. It takes 7 months to get to Mars. 
That's not a tolerable period of time for continuing those 
kinds of exploration missions.
    Finally, I think the one that's going to be extremely 
difficult to work through, and is going to augur in favor of 
continuing operations of International Space Station for the 
foreseeable future, is to understand the human effects, human 
endurance challenges of long-duration spaceflight. It will be a 
primary vehicle and platform for the United States in order to 
focus on that research and scientific inquiry. Our partners 
will continue to look at a range of scientific endeavors, but 
ours will be focused primarily on that which it takes to 
proceed with expeditionary long-endurance spaceflight missions. 
Those are the ones that I believe are the near-term immediate 
kinds of challenges, and we'll continue along on others, as 
well.
    The Chairman. The underlying question that all of us have 
is the cost estimates and the budgetary plans. When we look 
back at the past cost of NASA programs, there has been one 
constant, and that is the costs have exceeded the initial 
estimates. What assurance do we have that these budgetary 
projections, in light of a very ambitious schedule and goals, 
can be met? What's different?
    Mr. O'Keefe. Sure. Well, I think you put your finger on a 
point that we spent a lot of time working through.
    First and foremost, it is the nature of development 
programs that cost estimating is extremely vague. It's very 
difficult to do when you're developing something that's never 
been done before, or hasn't been tried or tested elsewhere, 
and, as a consequence, it means we really have to build in, a 
very prudent level of reserves and accommodation of what those 
costs will entail. And the Committee has done a very important 
effort, for the International Space Station. For example, 
really forcing the kind of fiscal discipline that's in evidence 
now as a cost estimate for the completion of the International 
Space Station that, over the course of the last 2 years, is 
very much a major systems integration effort that is an 
illustration of the kinds of things we have to do consistently 
in the future. We now have that experience of doing it 
properly. The Committee has really contributed heavily to the 
task of forcing that fiscal discipline, and I think we've 
arrived at that point.
    In addition, I think the future is--if I could take issue 
just a bit with one element of your commentary--it is not an 
aggressive schedule. It is one that is very prudently laid out 
that intends to transition, transform, the objectives over 
time. And the reason it is fiscally prudent, in the judgment of 
the Administration--and what you'll see next week is the 
evidence, in detail, of it--is, again, the completion of the 
individual steps--return to flight, bring the shuttle back into 
operational service, complete the International Space Station, 
retire the shuttle, and then move on more aggressively, at that 
point, toward the continued effort of the rest of the 
components of the vision.
    Meanwhile, there are a number of factors that are built 
into this, over the course of this next 5 years, which will 
incrementally, and step by step, move our way through that set 
of exploration goals the President's outlined, and establish 
the baseline for its pursuit.
    The Chairman. Senator Nelson?
    Thank you.
    Senator Nelson. Thank you, Mr. Chairman.
    The President made a terrific proposal that I had the 
privilege of being there and supporting, publicly and 
privately. This program is not going anywhere unless it has the 
full support of the White House. Why didn't the President 
mention it, 6 days later, in his State of the Union speech?
    Mr. O'Keefe. This program has the complete and full, 100 
percent support of the President, the Vice President, the 
Administration, all the way through. He made an extensive 
speech that--again, I was just delighted you were there for, 
Senator--it was a very extended discussion of exactly his 
objectives. The Presidential directive that follows this, 
that's posted on everybody's website, is the most comprehensive 
in space policy in anyone's memory. I've only been around here 
a couple of years associated with this agenda, but those who 
have been following it longer would attest to the fact, this is 
the most comprehensive space policy statement in a long, long 
time.
    The State of the Union Address is not a tick-list of things 
that have been discussed previously, it is not a inventory of 
all other matters. And so, as a consequence, I would not have 
expected, given the mere 5 days before the delivery of that 
address, that he would have reiterated it, given the 
comprehensive nature of that speech.
    There is not a question in my mind that the President's 
fully behind this, and what you'll see, on Monday, when the 
President's budget arrives, is a endorsement of this directive, 
with the resources necessary to carry it out.
    Senator Nelson. I accept your answer, and I certainly hope 
you're right.
    Tell us about--there was a lot of anticipation that there 
was going to be suggested 5 percent increases in the NASA 
budget. That was the talk for some 2 weeks prior to the 
President's announcement. And yet what was announced, a billion 
dollars over 5 years, that's $200 million a year, that's just a 
little over a 1 percent increase per year. How do you reconcile 
the two?
    Mr. O'Keefe. Again, when the budget comes out next week, 
what you'll see in evidence is a very clear expression of the 
resources necessary to carry out this statement, the 
Presidential directive, this strategy. And the percentage 
increases, year by year, are from the baseline of what the 
Congress enacted in Fiscal Year 2004, just a few days ago. And 
so what's contained in that is a specific endorsement of the 
specific programs necessary to carry out this directive, that--
the percentages are what they are based on--once you see the 
detail, make a determination, as to whether you think they're 
adequate or not, at that time.
    Senator Nelson. Well, for those of us who are going to have 
to carry the water for you up here, I'm certainly looking 
forward to seeing that.
    Tell me about the hiatus. 2010, stop the shuttle, and then 
the new vehicle isn't ready for some number of years. As I 
expressed in my opening comments, isn't that a very vulnerable 
position for the country, to have to rely on Russian and 
European rockets? And isn't that a dismantling of this 
experienced core of NASA employees that would, of necessity, be 
dismantled? And isn't that bring up the fearful refrains from 
what we experienced 20 years ago?
    Mr. O'Keefe. Sure. Well, two points, Senator. I appreciate 
the point, because it is a--it's an issue of timing and 
sequencing that's far out in the future, but one we really need 
to be mindful of what its implications could be.
    First and foremost, today we are engaged in spaceflight 
activities with our Russian partners. Right now. Over the 
course of this past year, we have not flown a human in space, 
other than on a Russian capability. The depth of this 
partnership, if there was any doubt about it, has been 
demonstrated very impressively over the course of this last 
year. Our Russian, European, Canadians, and Japanese partners 
have done a absolutely astonishing job of stepping up at 
exactly when we needed it most, at a time of crisis and 
challenge in which we could not have maintained the 
International Space Station or a human presence in space. And 
now we see the third year of a continuous human presence, as a 
consequence of a collaborative partner arrangement that is 
working, and working very impressively.
    That said, your point is well taken. I mean, the objective 
is to complete the International Space Station in the assembly 
complete configuration that the international partners will 
help configure and determine exactly what that will look like 
by the end of this decade. At the time in which the shuttle's 
cargo lift capacity is completed for that important mission, 
that's the stage in which the shuttle will retire.
    Concurrently, developing the--under Project Constellation--
a exploration vehicle system, the approach will be to, as soon 
as we can deliver that capability, to have that capable of 
beyond-low-Earth orbit exploration, as well as potentially that 
which is required for taxi between here and International Space 
Station well on the way. This shouldn't be a huge lift in that 
regard.
    That said, we don't want to develop a success-oriented 
strategy. So there's a Catch 22 here to the extent that we end 
up with a capability that--what we explored and evolved under 
the orbital space plane approach was that a very aggressive 
program would yield that capability by the end of the decade. 
This is going to be a requirement beyond low-Earth orbit, and 
we want to get it right. We're going to use a page from plenty 
of successful acquisition experiences of a spiral development 
approach to launch different components in sequence as early as 
2008, to begin the first of those spiral development component 
launches, unmanned, to test that capability to assure that we 
can get to a Project Constellation exploration vehicle 
capability. And, in doing so, that will drive the date, as 
opposed to any artificial date we may put on the wall.
    We're trying to be as realistic as possible, to say that 
we're trying to drive in technology that hasn't been used for 
this kind of a mission, ever, to go beyond low-Earth orbit, and 
to not develop a success-driven strategy that is doomed to 
requiring a success at every spiral development phase. So, to 
the extent there's a gap, that will occur after the next 
decade, and we'll have to work out what those challenges are at 
that time. But it is one that we are currently managing. We'll 
have to work our way through whatever else may materialize, but 
that's not something we're anticipating, at this moment, as 
being a challenge in the next 7 years.
    Senator Nelson. You see my concerns.
    Mr. O'Keefe. Yes, sir.
    Senator Nelson. And the reprogramming concerns, as well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Brownback?
    Senator Brownback. Thanks, Mr. Chairman.
    Administrator, I want to follow this series of questions 
about the retirement of the shuttle program and your relying on 
reprogramming of that money, much of it, to launch into the 
next phase, next initiative. And I think that's wise to do.
    Do you have to use the shuttle to finish the International 
Space Station? Or could you, because there has been such a 
successful partnership with the Russians and the European space 
agencies, or--I've had a number of commercial sector people 
come up here, saying, ``You know, we'd like more of this 
action, ourselves''--could you feasibly take more missions up, 
with lower payload, and be able to complete the ISS in an 
earlier fashion, and retire shuttle sooner?
    Mr. O'Keefe. We've looked at every permutation of this, 
and, again, the station was designed, and the components and 
modules developed, in order to fit in the cargo bay. It becomes 
the optimum vehicle for completion of International Space 
Station. So this is the most efficient cost-effective way to do 
that.
    The components and modules are stacking up at the Kennedy 
Space Center right now. It's quite a display. And the testing 
and integration work that's necessary in order to load, into 
cargo bay, those capabilities for the next, roughly 25 to 30 
flights, will be required in order to complete station. That's 
been optimally configured for shuttle flights to the ISS. And 
any other combination would be a very inefficient, extremely 
difficult way to redesign that whole effort now, and would take 
more time. Our objective is to get to the completion of station 
as soon as we can, and have it fully operational for the 
purposes for which it was originally designed, in addition to 
the refocused research agenda we're now on.
    So the determination is, that is the best way to conclude, 
and that's the direction that the President has instructed us 
to proceed in.
    Senator Brownback. I understand that, and I appreciate it. 
I just wonder if there is a way to do this with the partners 
because of the growing costs of the shuttle, the costs of 
running the shuttle fleet, and the projection of retiring it. I 
may pursue that some more with you.
    On a second area----
    Mr. O'Keefe. I'd really enjoy the opportunity to do that, 
because the lift capacity they have is nowhere near what we can 
do on shuttle, but we can pursue that much further with you, 
yes, sir.
    Senator Brownback. You indicated, in your comments, that 
you were going to engage the commercial sector, as well, in 
going to the Moon. Would you elaborate a little bit more on 
that?
    Mr. O'Keefe. Well, it's the objective again, we haven't 
done this in 35 years, and a lot of technology development has 
occurred in that time. So one thing we're certain of is, the 
notion of resurrecting the way we did it 35 years ago is not an 
option, that's not something we're planning to do. We know how 
to do that, and it required brute force to leave the Earth and 
go that route.
    So, instead, the approach will be to look at, again, a 
range of alternatives, some of which may be commercially 
driven, that, again--and I think the illumination on those 
options will come from the Aldridge Commission, in terms of 
implementation strategies and the best way they may view for us 
to do that, the combination of members on that Commission. To 
solicit the range of different commercial alternatives, as well 
as international partnering arrangements, a set of options on a 
wide range of fronts of how to implement this best is what 
we're looking to them to help us understand a little better.
    Meanwhile, we're also going to be looking at all the 
commercial ideas that have been introduced and discussed, and 
trying to bring those together to see how that may meet the 
goals and objectives we'll look into over the next few years.
    Senator Brownback. I certainly want to encourage that, 
because, to the degree that we can tap into the commercial 
sector, and the financing through the commercial sector, or 
even military issues, as well, we get into a lot bigger pots of 
funds to be able to do this, and other impetus to move us on 
forward. And it strikes me that those are out there, they're 
very interested, they are intrigued. They're, in some cases, 
pretty well financed; in other cases, could be. And I think 
it's going to be a key way we develop, because that's typically 
how we have developed. If government will open the pathway, you 
get Lewis & Clark out there, but not far behind are just waves 
of settlers coming through on their own dime to do this, and 
that's going to be key for us to do.
    I want to say, in a final comment here, in your showing 
your video--I hope you show that a lot--I could feel the energy 
and the excitement of that, not only just what happened there, 
but that I'm a part of a nation that does something like this 
and that's willing to venture forth and to do it. And I say 
that selfishly, because, as a Member in this body, to encourage 
and to yearn people forward is an extraordinarily valuable 
intangible.
    And I had a conversation on Sunday, with a guy I served, as 
a White House fellow who was a commander on a aircraft carrier, 
recently near Afghanistan. The reason he went to the Naval 
Academy was because of astronauts on the Moon. And he remembers 
saying, as a 12-year-old, to his dad, ``I want to go--I want to 
be an astronaut.'' And his dad said, ``Well, most of these guys 
went to the Naval Academy; that's where you have to go.'' And 
he said, ``OK.'' He went to the Naval Academy.
    Now, he hasn't gotten to the Moon, and he's not going to 
make it in the public sector; maybe in the private sector 
someday. But he's served his country as a commander of an 
aircraft carrier and as a dedicated American. And here was a 
vision sown that was harvested in a great way by this Nation.
    And that's what this is. It is expensive. It does take 
funds from some other areas. But what value is that intangible 
vision by us sowing that into young kids that are 13, 14 years 
old, that you say, ``Well, if you want to do that, you're going 
to have to study a lot harder.'' Or we sow it around the world, 
and how much more do we attract brainpower into the United 
States by sowing that into the finest minds around the world?
    These are intangibles that are of extraordinary value, and 
I commend you for them.
    Thank you.
    Mr. O'Keefe. Thank you, Senator.
    The Chairman. Senator Wyden?
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Administrator, for me, other than the safety issues, 
the single biggest issue is the question of what you can 
accomplish, manned versus unmanned, in terms of the agency's 
work. That's why I thought you all deserved a lot of credit 
last fall when you committed to this comprehensive cost-benefit 
analysis with respect to manned spaceflight.
    Now we're in the situation where the President is going 
forward with a program that involves even more human 
spaceflight, and yet we don't have that cost-benefit analysis 
in our hand. When can we expect to get that so that we can give 
this project the thoughtful analysis it deserves?
    Mr. O'Keefe. Yes, sir. No, thank you. It was a very 
important suggestion and recommendation that you made. We have 
operated on that. We should have the results of that available 
in about 3 week's time. And so, as the budget comes out, 
shortly thereafter we'll see the comprehensive model of a cost-
benefit analysis ready to go. It has been a real important 
effort, and I thank you for introducing the idea, because it 
really has helped contribute to shifting the way we're looking 
at this, in many ways.
    What you'll see after next week, when you see the detail of 
the budget coming out, is a real--a much more balanced 
combination of robotic and human capabilities than I think you 
may be referring to here. It is intended as, part of the 
stepping-stone approach, the kinds of things we're doing on 
Mars right now, to really inform the nature of the scientific 
inquiry and the exploration inquiry of where we'd go, with a 
range of robotic missions. That's how the lunar return will be 
conducted; many robotic capabilities before that.
    But there's a place for human requirements. One of the 
things that has come out, preliminarily, in this cost-benefit 
analysis approach is--for example, for this mission on Mars, 
for any one of the rovers, over the course of 90 to 120 days of 
scientific experimentation, a most expansive interpretation of 
the full volume of science we could hope to yield, short of the 
imagery or the actual geological content, what we're going to 
end up with is something equivalent to about one day's work if 
a human were doing it. We've got to program every single move 
24 hours in advance. And as a matter of fact, we saw it 
illustrated on the Spirit expedition, that if you don't get it 
exactly right, it will do as a computer does, that all of us 
are familiar with that ever used a laptop, the whole thing will 
freeze up and shut down on you until they understand what it is 
you're trying to tell them.
    So it takes time, and it takes a more exhaustive kind of 
approach to this. So if we're willing to tolerate a lot more 
time and a lot more money by the time you get done with it, the 
combination of human versus robotic capabilities turn out to be 
very close. But we'll show you that as part of the cost-benefit 
analysis. And, again, can I thank you again for prompting the 
inquiry which we pursued.
    Senator Wyden. Well, I appreciate your getting it to us 
quickly, because I can only tell you it can only build 
credibility----
    Mr. O'Keefe. Sure.
    Senator Wyden.--for any kind of effort to go to Mars, to 
have that kind of rigorous cost-benefit analysis. Because I 
think, otherwise, the country says, ``Well, look, the Congress 
is just ducking the big financial questions.''
    Mr. O'Keefe. Yes, sir.
    Senator Wyden. And, obviously, we don't want to have that 
as we try to strike the good balance between manned and 
unmanned in the days ahead.
    Let me also ask you about this question of the agency 
collecting the personal data on more than ten million Northwest 
Airlines passengers. Apparently, this data was retained for 
years without the agency informing the passengers of their 
personal information. What can you tell us so as to ensure 
hundreds of thousands of constituents I have, for example, that 
that information wasn't shared or misused? And we've seen some 
e-mail to the--on this issue that would indicate that the 
agency's concerned that it was misused.
    Mr. O'Keefe. Yes, sir. No, I thank you for the question. 
And we've--since the coverage of this here in the last few 
days, I've really intensively looked into the detail of it.
    After September 11, 2001, NASA and Northwest Airlines met 
to consider possible collaboration to increase aviation 
security. In December 2001, NASA requested this data from 
Northwest Airlines to analyze to see if there were trend 
patterns that could be devised or derived from the information. 
We have treated the information--it was about a three-month 
slice of passenger data--as very, very classified information. 
So, as a matter of fact, it was our biggest challenge, as I 
understand it, was even attempting to access the 18 disks of 
file, because they wrote it in a code that was not accessible 
to anyone at NASA. And, as a result, it is not transferrable or 
easily disseminated, as a result of that. It was vaulted, 
controlled. No one accessed it, other than the analysts.
    We determined that we couldn't, after a year, download more 
than a day or two worth of information of any relevance and so, 
therefore, advised Northwest that there was little more that we 
could do with this, and returned all the data to them. So it 
was not disseminated, not released, and, to my understanding of 
this, was not available in--beyond the scope of what the 
analysts of NASA-Ames were engaged in.
    Senator Wyden. So this e-mail that we've seen--the 
September 23 e-mail from one of your staff, to Jay Dombrowski, 
that says the agency wanted to avoid creating the appearance 
that the agency is violating people's privacy--that simply was 
a concern, but you've found no evidence that the agency 
violated anybody's privacy or that the information was shared 
with anyone.
    Mr. O'Keefe. To the best of the information we have 
available right now, that's exactly right; there is--it was not 
disseminated beyond that, and everything we've heard is--and 
we've been able to investigate on this, would suggest that it 
was contained very, very carefully.
    That said, Senator, this raises an important question, in 
the wake of September 11, so many people were looking for ways 
to try to protect ourselves from terrorists who would otherwise 
like to use commercial capabilities to kill us, and they were 
reaching out in lots of different directions to do that. I've 
been very committed to assuring that our folks understand that 
this really needs to, then, be mindful of the privacy rules and 
the Privacy Act and the implications, thereof; that we've 
really got to more conscious of that as we work through this.
    But, in no way, shape, or form should we deter anybody in 
our agency from thinking proactively, aggressively, on how do 
we use the technologies we have to conquer this challenge 
against us that people would like to use? This is a delicate 
question, but it's one that--I want to be sure that, in our 
quest to assure privacy, which we must do as a matter of law, 
that we also not discourage anyone from thinking actively, How 
do we use these technologies that--in this case, didn't work, 
didn't help----
    Senator Wyden. My time----
    Mr. O'Keefe.--to really go forward?
    Senator Wyden.--is up. My time is up.
    I would only ask that you all try to lay out some rules----
    Mr. O'Keefe: Yes, sir.
    Senator Wyden.--for using these data bases. And I 
appreciate your comment.
    Thank you, Mr. Chairman.
    Mr. O'Keefe. Thank you, Senator.
    The Chairman. I just want to add, it's great thinking, sir, 
but you've got to keep the privacy of the Americans foremost.
    Mr. O'Keefe. Absolutely. Absolutely. And we've done our 
best to preserve that.
    The Chairman. Senator Hutchison?
    Senator Hutchison. Thank you, Mr. Chairman.
    I am very pleased that the President stressed that he was 
keeping the commitment on the International Space Station and 
our commitment to our international partners. And I was glad 
you stressed the phenomenal job our international partners have 
done in helping us through this crisis.
    My question is, As we are looking toward the long-term 
future, which we all, I think, appreciate, in the short term 
what is the commitment to continuing the medical research, to 
developing and enhancing the medical research that is being 
done in the Space Station so that we don't, sort of, put that 
aside? Because when we do go back to our manned spacecraft, 
clearly that's going to be a major part of what we tell the 
American people we want to achieve for quality of life and the 
ability to do those experiments that cannot be done on Earth, 
no matter what kind of gravity you try to emulate from space.
    Mr. O'Keefe. Well, thank you, Senator. I think the short 
answer is, our commitment to life sciences physiological 
research is more focused now than ever before, as a consequence 
of the President's statement and his direction to us. Because 
the primary objective we seek to derive off the International 
Space Station now is a clear understanding of the challenges of 
long-duration spaceflight expeditionary missions, which are 
very much akin to the kinds of things we're doing on station 
right now. Mike Foale and Sasha Kaleri are aboard the station 
right now, as Expedition 8. They're going to be there for the 
better part of six and a half months. And, as a consequence, 
what we learn about that experience, and the life-sciences 
research they're engaged in, and will continue to in the years 
ahead, is going to be the primary focus of what we do. So the 
medical-derived kind of benefits that come from that for the 
human effects on astronauts, as well as that which can affect 
all of us here on Earth, as a result of what they find, is 
going to be a real direct benefit of it and is more intensified 
now. What you'll see in the budget is an enhanced position for 
that quality of research than ever before. We're really going 
to refocus everything else we're doing toward that objective.
    Senator Hutchison. NASA has a great university consortium 
where you have carefully gone through the different medical 
schools and what their area of expertise is. I would just hope 
that you would start highlighting the things that are done in 
space. We all know the study of how human bodies react in space 
is important for putting people on the Moon for a longer period 
of time or----
    Mr. O'Keefe. Sure.
    Senator Hutchison.--or staying in space. But the medical 
research that might result in a significant improvement in the 
treatment of osteoporosis or breast cancer, those kinds of 
things, I would hope you could start shipping out to the 
research institutions what you've gotten from space, and let's 
start seeing the results, because I think that will--just like 
these wonderful pictures will build momentum and excitement, I 
think that also will build momentum and excitement for the 
continuation of the major financial commitment we're making to 
space.
    Mr. O'Keefe. Senator, I couldn't agree more. On January 14, 
the President very specifically outlined the effects on MRIs, 
CAT scans, cataract detection, all these different things that 
have derived from this research that we've conducted for the 
pursuit of space exploration, and we will continue to do much 
more of that, and directed by him. So we clearly will enhance 
our efforts to move in that direction.
    Thank you.
    Senator Hutchison. Let me just ask you, in the very near 
interim we were going to do our next shuttle, I think you had 
said, in September. Now that date is a little bit off. Do you 
have a date that you can say would be feasible for us to do the 
next shuttle and also make sure, of course, that all of the 
safety considerations from the Accident Investigation Board are 
met?
    Mr. O'Keefe. No, we're still targeting that early fall, 
September/October timeframe. There's a window of about 30 days 
there, which meet the conditions that are necessary to comply 
fully with the Accident Investigation Board recommendations and 
our imposition of procedures, which is, it's got to be a 
daylight launch and it's got to occur in a way that we see 
every element and second of the flight as it proceeds during--
until the main-engine cutoff. So, as a consequence, there are a 
number of different factors we've got to continue to monitor. 
And the return-to-flight task group that we've assembled of 25 
experts, from management backgrounds, engineering, technical 
skills, et cetera, have been helping us work through each of 
the options to implement those set of recommendations, and 
there are no showstoppers we're seeing for that timeframe.
    That said, I am not going to be reticent, for a second, to 
delay that if there's anything that gets in the way of doing 
this in a way that assures that we're fit to fly. I'm not going 
to be driven by a calendar or a date. And that's the general 
frame that we're looking at. But I think it's critically 
important that we be looking at a milestone, not a calendar, to 
drive that set of objectives.
    Senator Hutchison. Thank you, Mr. Chairman.
    I just hope so much that we can start seeing the new 
medical research results. We all know the old results, and 
they've been fabulous.
    Mr. O'Keefe. Sure.
    Senator Hutchison. And I just think it would build 
excitement if we can bring out more of the new results to show 
why we are continuing, to the American people.
    Mr. O'Keefe. Stand by. I think with the President's 
direction on this focus on life sciences in the future, it's 
impossible to predict what's going to happen, but I think we're 
going to see some really profound changes on that front, as a 
consequence of really concentrating on human effects, long-
duration spaceflight, physiological consequence, that will have 
derived advantages for the medical community, to be sure.
    Senator Hutchison. It'll be very exciting.
    Thank you, Mr. Chairman.
    Senator Stevens. Mr. Chairman----
    Mr. O'Keefe. Thank you, Senator.
    Senator Stevens.--if I could just ask just one question----
    The Chairman. Senator?
    Senator Stevens.--to highlight Senator Brownback's 
statement. How many hits did you have on your websites after 
those landings on Mars?
    Mr. O'Keefe. Thank you, Senator. In the last 27 days, we've 
had four billion hits--billion hits--to the NASA Website. All 
of last year was 2.8 billion. That was four times the amount of 
any other year. So in a span of 27 days, we've already exceeded 
the annual highest level we'd ever had, and last year was a 
pretty active year. It was amazing. The overwhelming interest 
is just phenomenal.
    Thank you, Senator.
    The Chairman. Senator Breaux?
    Senator Breaux. No wonder the computers on Mars crashed.
    [Laughter.]
    Senator Breaux. Got an overload problem.
    Administrator O'Keefe: It's true.
    Senator Breaux. Two points, the first one being, on the 
vehicle that we're talking about being the next-generation 
vehicle, we went through this process, probably before your 
time, with the X-33, the Venture Star plane that was out on the 
table, withdrawn, dropped. And then we had the orbital space 
plane, OSP, that was out there; companies started looking at 
it, got excited, you know, got geared up, and that's gone. And 
now we have the CEV, which is the crew exploration vehicle.
    I would hope that we decide on what we want to do. I mean, 
the direction, again, is what I'm concerned about. We start, we 
stop, we change, and that's got to be very difficult for the 
private sector to become involved into the plan and put 
together consortiums to make these things work.
    So can you tell us, if you know, Mr. O'Keefe, where are we 
on this third plane that I'm hearing about? I mean, do we have 
a concept? Do we have more than a concept? Do we have enough to 
say to companies, ``Go out there and start looking at how to 
design, test, and build this vehicle?'' Where are we on that?
    Mr. O'Keefe. Yes, sir. No, there is a little bit of a 
difference in the example you just used that I'd like to point 
out, just for a second.
    The X-33, as I understand it, back in the mid to late 
1990s, was a first attempt, or maybe a second or third attempt, 
at trying to achieve a horizontal launch, a capacity to fly off 
a runway and achieve low-Earth--beyond-low-Earth orbit or in-
low-Earth orbit from that kind of stationary position. It 
required, in the words of several industry folks that I've 
talked to, at least two inventions and at least one suspension 
of the law of physics in order to do this. And, as a 
consequence, we don't know how to do that yet.
    This is not dependent upon that. Matter of fact, if 
anything, the whole approach the President's program is 
dependent on that has been really a--it was a dogged issue that 
we worked through all the way through the six-month interagency 
process--was that there be nothing here based on the use of an 
element called ``unobtainium'' or anything else. This is 
something we've got to have the capacity to do, and it's a 
stretch; it's an aggressive application of today's technology, 
but not something that requires a miracle for an invention.
    So what you see in the Project Constellation exploration 
vehicle is a logical extension of the work we did on orbital 
space plane. In so many ways, there's an awful lot common 
between the two. The difference is that its objective, its 
goal, is to go beyond low-Earth orbit; whereas, the orbital 
space plane would have permitted a lot of different designs in 
order to simply achieve low-Earth orbit to and from 
International Space Station----
    Senator Breaux. How would----
    Mr. O'Keefe.--250, 300 miles up.
    Senator Breaux. Excuse me for interrupting, but how would 
the CEV be launched?
    Mr. O'Keefe. The same way that the orbital space plane, off 
of an expendable rocket. That's the intent.
    Senator Breaux. Do we have that rocket capacity now?
    Mr. O'Keefe. That's the issue we're going to need to 
continue to work, and it was the same one we were working on 
OSP. And I think it really is going to depend on what 
combination of capabilities do you put on a Project 
Constellation exploration vehicle, in terms of longer-duration 
spaceflight that may require more lift? And that's something 
we're going to need to look at.
    Senator Breaux. When will NASA be ready to say to industry 
who will be involved in developing and building this ship, 
``Here's what we want you to do''?
    Mr. O'Keefe. Pretty quick. I think the objective was--on 
OSP--was to look at them responding to a proposal here, during 
the course of this calendar year, and aggressively, if we could 
have awarded something by August. We're going to need to spend 
the next 6 months with them and everybody else--commercial 
ideas, the whole bit--trying to put together a set of baseline 
requirements, which, again, are derivatives from the OSP. We're 
not starting with a clean sheet of paper; this is a direct 
extension of what's involved there. And I suspect that many of 
the same designs that the industry was looking at will have 
great applications here, as well.
    And so, as a consequence, we're going to do this 
collaboratively with them in order to find what are the best 
approaches to this, and solicit other commercial ideas that may 
exist out there.
    Senator Breaux. OK.
    The second point I would ask about is the concern about the 
start-stop-stop-start, and the continuity of the work force. I 
mean, we, down, as you know quite well, in Michoud, in New 
Orleans, have this huge facility with thousands of employees, 
and my real concern, as I look at the President's plan, that 
we'll probably have as much as a five-year gap after the 
shuttle is completed its work and the time when we start with 
this new CEV vehicle that is now only in the very minute 
planning stages. What do we do to keep the continuity of the 
work force? I'm really concerned. These folks have--if they 
lose the work, they're gone. You have to restart, re-stop. I 
mean, how do we address that continuity of service that we--is 
so necessary to get what you need to accomplish?
    Mr. O'Keefe. Yes, sir. No, it is a critical factor that we 
really need to work the details of, that have got a few years 
out. That's not to say we're not going to start right now 
trying to sort through what those consequences are.
    At least for the next 4 years, you're looking at production 
of the external tank, et cetera, that are necessary to fly a 
shuttle. There are a number of different options that we'll 
look at, shuttle-derived approaches, for lift capability for 
the Project Constellation exploration vehicle. That's not yet 
determined, and we're looking for creative ideas from the 
industry to do that.
    I'm not convinced there's going to be a gap or a hiatus 
there. Because, again, part of what is--in the dialogue with 
Senator Nelson a little bit earlier--what we're pursuing is an 
acquisition strategy of a spiral development, of which the 
first spiral of the Project Constellation exploration vehicle, 
unmanned, will be launched as early as 2008 and a little bit 
later this decade. Potentially, we could see a lot of 
aggressive, heel-toe kind of transition occurring, depending on 
how we do this, and we're going to have to factor that in when 
we make determinations of the right way to do this.
    So, a lot is not yet determined, in terms of what the 
transition looks like five and 6 years down the road. We're 
really concentrating on this coming year in order to position 
ourselves to make sure that the answers for that transition, 5 
and 6 years down the road, are sound.
    Senator Breaux. OK. Well, I'm glad you're looking at it, 
because it's obviously very, very crucial to keep that supply 
of the workforce there----
    Mr. O'Keefe. Yes, sir.
    Senator Breaux.--doing something. They're not just going to 
be able to sit for a gap of several years.
    Thank you very much.
    Mr. O'Keefe. No, thank you, Senator. Again, I think to look 
at the Project Constellation vehicle as a natural extension, 
not a new things, from what OSP work did. That was a lot of 
valuable time spent to do that. It worked out exceptionally 
well. We learned a lot from that experience, and we're just 
naturally evolving it to a more expansive effort that has a 
mission objective beyond low-Earth orbit. It draws on the very 
same kind of capabilities, no doubt about it.
    Senator Brownback [presiding]. Thanks.
    Senator Allen's next.
    Senator Allen. Thank you, Mr. Chairman.
    Administrator O'Keefe, it is always a pleasure to listen to 
you, and I think your leadership, enthusiasm, and adherence to 
sound fiscal policies gives us some confidence--gives me a 
great deal of confidence in your ability----
    Mr. O'Keefe. Thank you, sir.
    Senator Allen.--as you go through these--you formulate the 
strategic plan--but then also as you answer very probative and 
logical questions from my colleagues--how you will adapt as you 
learn more, the steps in the strategic plan are sequential, you 
meet each goal and, from there, take on the next step of that 
long-range goal. And it is important to have a mission and a 
goal, as opposed to just floating around like loose seaweed in 
the tide. You actually have certain missions, and I think that 
is important. You know, you're going downfield. That's 
important.
    The workforce issues that Senator Breaux brought up 
generally with NASA are very important. I've been one that's--I 
mean, I am going to ask you questions on aeronautics, but you 
also look at the fewer and fewer engineers with aeronautical 
engineering degrees, and we see that in a lot of areas in our 
country. That can be made up, from time to time, by bringing in 
people from other countries, which is great, and you all have 
done it, and that's to be commended. However, just like Senator 
Breaux said, though, is, if you curtail any of these areas, 
it's not as if you just snap your fingers and all of a sudden 
there are aeronautical engineers or those who have the 
capabilities, and it also slows down your implementation as 
you're trying to get those folks up to speed working as a 
productive team.
    And, clearly, as you saw the celebrations there, you didn't 
know what each was doing, but there were certain teams that had 
certain aspects or components of those landings that, ``All 
right, great, the balloons or the air bags have deployed. 
That's what we were supposed to get done. Now that it's landed, 
great, that's wonderful. Let's see if it opens.'' Each one has 
a certain responsibility, and you do work as a team.
    Now, insofar as your aerospace technology enterprise, 
aeronautics enterprise, and so forth, Lee Forsgren forwarded me 
and other Members of the Committee, your January 15 letter to 
Senator McCain. And in reading through it--and I'm going to ask 
you to put some more meat on the bones, if you could--
theoretically, it all sounds very, very good. I like that the 
aeronautics enterprise is going to emphasize the importance of 
aeronautics research and related technologies for our country's 
civil and defense interests; they'll perform research, develop 
and validate innovative high-payoff aeronautics and related 
technologies that'll enhance our security, through 
partnerships, obviously, with the Department of Defense, the 
FAA; and work in partnership with industry and also academia to 
get this transfer, the same sort of things that Senator 
Hutchison was talking about--more in the space exploration, but 
having the applicability to real-life, real present concerns we 
have, whether it's in medical sciences or other.
    Now, my concern with this is, will this reorganization of 
the aerospace technology enterprise--what will be the impact of 
that on the aeronautics budget? And do you see the new 
aeronautics enterprise participating in this new vision? There 
is some carryover from aeronautics, obviously, into space 
exploration, as well.
    So those are two questions. First, what will this 
initiative have as an impact on the aeronautics budget? And how 
will they be involved in the overall new vision?
    Mr. O'Keefe. Yes, sir. First and foremost, I want to thank 
you for raising the workforce challenges that we're facing, and 
to thank the Senate for enacting and passing on S. 610, Senator 
Voinovich's bill that--right before everybody went out of 
session in December; it's in the House now; they're due to call 
it up pretty quickly--I'm advised here, this week--that gives 
us the kinds of tools necessary to recruit/retain the kinds of 
skill mixes you're talking about. We've got a professional 
opportunity here. Matter of fact, I'm just told now that S. 610 
is on the House floor right now. So, you know, this is a year 
and a half in the making. Thank you very much for passing it. 
It was a critical piece of legislation that we've really been 
wrestling with in order to get the kind of tools necessary to 
recruit and retain the workforce capabilities that are there. 
So it is a major achievement; and if we get it enacted, the 
President will sign it rapidly. I can see that coming right 
away.
    In terms of the aerospace and aeronautics enterprise 
approach, it is no accident that the day after the President's 
vision announcement, we specifically looked at establishing an 
aeronautics enterprise to make sure that concentration and 
focus dominantly resides within what we do in the agency. 
Because so much of what we're engaged in, as you very 
accurately stated, is applied to a range of different 
capabilities in the space exploration activity, as well as the 
civil aeronautics kind of applications we're engaged in.
    Airspace management, continued efforts. Matter of fact, in 
another 3 weeks we've got a demonstration of the hypersonic X-
43 that will be followed through, in terms of what our 
aeronautics efforts are producing now. And the objective will 
be to, again, use the materials research, the aeronautic 
engineering capabilities there--at Langley, at Ames, at the 
Glenn Research Center, the very prominent aeronautics centers 
that we have within that community--to continue to contribute, 
not only to this set of vision objectives for U.S. space 
exploration the President's enunciated, but also to our 
fundamental requirements for aeronautics, which is part of our 
name.
    Finally, putting the NASA Engineering and Safety Center at 
Langley is not there by accident. That's the center that really 
has the highest concentration of aerospace engineering 
expertise, from materials research and a range of different 
capabilities that is necessary to examine trends, patterns, et 
cetera, on a wide range of aeronautic, as well as spaceflight, 
capabilities, that every center, every program has the 
opportunity now to draw from that expertise that's resident 
right there. It is very consciously established at that 
location, and very specifically there for the purpose of, not 
only retaining those capabilities, but using them to solve, not 
only aeronautics challenges, but the range of space exploration 
issues that we're looking at across the board. It's going to 
have a very cohesive role, I think, in the larger NASA program 
objectives that we've articulated.
    Senator Allen. Well, Mr. Chairman, I'll be looking forward 
to working with you--I know the budget will be coming out--and 
seeing how it works.
    Mr. O'Keefe. Yes, sir.
    Senator Allen. You also should be looking for a letter from 
Senator Dodd and myself, not just to you, but to everyone from 
Defense to FAA, TSA, NOAA, and others, insofar as aeronautics. 
Because I think the vast--I know the acting chairman, Senator 
Brownback, and others really recognize the importance of our 
preeminence in aeronautics, and we cannot lose that 
preeminence, for our security as well as for jobs here in this 
country.
    Mr. O'Keefe. Yes, sir. Thank you.
    Senator Allen. And I look forward to continue to work with 
you, Mr. Administrator.
    Mr. O'Keefe. Thank you, Senator.
    Senator Brownback. Senator Dorgan?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. O'Keefe----
    Mr. O'Keefe. How are you, sir?
    Senator Dorgan.--first of all, let me congratulate NASA on 
the recent successes. I think it's breathtaking to watch what 
is happening with the landings on Mars.
    Second, let me say that when you were nominated by the 
President, I didn't have the foggiest idea whether you would do 
well or do poorly, but I must tell you that I'm very pleased 
that I supported your nomination. I think you, personally, have 
done an excellent job under some very difficult circumstances.
    Mr. O'Keefe. Thank you, sir.
    Senator Dorgan. I'm sure you could probably point out where 
you might have done better, but, at least as an observer, I 
think you've provided strong leadership at a time when it's 
needed, and I wanted to say that to you, because I did support 
your nomination and am pleased I did so.
    Mr. O'Keefe. Thank you, Senator.
    Senator Dorgan. I also believe that when a nation stops 
exploring, it stops progressing. So I believe that exploration, 
and I believe the mission of NASA, is important.
    But I do want to ask about the President's proposals. You 
indicated that they were developed through interagency task 
forces and so on. Was there any other outreach, any other 
inquiry by NASA with experts around the country about what do 
they think we should be looking at 10, 20, and 40 years from 
now?
    Mr. O'Keefe. Yes, sir. The interagency process we conducted 
internally also drew on the opportunity to meet with various 
Members of Congress, who had very specific goals and objectives 
they thought should be enunciated, as well as the very helpful 
hearings that this Committee and your counterpart Committee in 
the House conducted to really examine what are the alternative 
views of what the vision and strategy objectives should be. We 
heard it, we listened, understood that, and also went out and 
solicited other views, as well.
    But not to leave it at that, one of the things that the 
President was particularly focused to assure that some of the 
helpful suggestions that Members offered and that a commission 
be set up for the purpose of assuring that we solicit more 
broadly what those implementation strategies are. And Senator 
Brownback and others were very instrumental in advancing that 
particular objective. We heard that. The President was struck 
by that notion of saying, ``Let's assemble a commission.'' Pete 
Aldridge and the Commission that will be charged here in the 
very short number of days ahead to begin looking at 
implementation strategies--how do we look at commercial, 
international participation, a range of other factors, 
workforce issues that Senator Allen raised, others that need to 
be factored in as we move forward to accomplish this 
objective--that's what this Commission will be doing--we'll be 
supporting it, participating in it--that is due to provide its 
findings here by this summer.
    So we're working this real-time, and moving ahead with the 
strategy and the program the President will unveil on Monday as 
part of the President's budget program, and be informed by the 
views that come externally, as well, from the Aldridge 
Commission.
    Senator Dorgan. And while I said I support space 
exploration and believe it's important--I believe a country 
needs to continue exploring--it is expensive, costly. And I 
don't want to be a wise guy, but I must say, we've been 
promised the moon before, particularly in fiscal policy. We, as 
you know from the announcement this week, have a $477 billion 
deficit this year, but it's really $630 billion, because the 
477 counts the Social Security Trust Fund. So we have the 
largest deficit in human history. It's a very significant 
problem.
    And so the question, I think, for all of us is not just the 
goal, but how do we pay for this? How much is it going to cost? 
And I've observed that, at least in the initial portion, you're 
talking about reprogramming $11 billion, I believe, in the 5 
years, from the current NASA budget, or current NASA expected 
appropriations.
    Can you tell me--my expectation was, from previous 
testimony, that we were pretty tight. I mean, we've seen budget 
cuts in NASA. And so how do we reprogram $11 billion without 
substantially affecting many other critical things that NASA 
said it needs to do? Can you talk us through that fiscal policy 
or the----
    Mr. O'Keefe. Yes, sir.
    Senator Dorgan.--I guess, the financing issue?
    Mr. O'Keefe. Well, thank you, Senator, for a very important 
question.
    As a general budget strategy, let me assure you that the 
President's budget, when it arrives here next week, will follow 
through on the commitment he made, and has articulated as a 
discretionary spending increase of less than 4 percent, with 
the objective, as well, over the next 5 years, of driving down 
the deficit projection to half of what it is today. So that's 
the overarching economic policy. And the program that we are 
engaged in, and that he has directed us to follow through, is 
part of that plan. We are a component of it.
    The specific aspect that's in your packet, I believe--just 
to turn it into a eye chart for you--is, in this specific five-
year plan, the numbers that will be supported in the 
President's budget that we'll see in great detail next week 
supports a transition or a transformation, if you will, more 
toward the exploration missions that he's directed; and then, 
in the out years, assumes not more than the rate of inflation 
for an increase beyond that.
    So we've really put this through the sanity check to assure 
that we're not passing a balloon note off into the next decade, 
and, instead, looking at what it will require in that 
transition. So all the elements of the plan were developed very 
specifically to conduct the transition and an ultimate 
transformation of capabilities to move more in the direction of 
the exploration missions he's directed. And it fits within the 
parameters of the overall economic strategy I talked about at 
the very beginning.
    Senator Dorgan. Yes. I want to talk with you more about 
that at some other time.
    But I might say that the two landings on Mars demonstrate 
the incredible value of unmanned space exploration, as well.
    Mr. O'Keefe. Yes, sir.
    Senator Dorgan. I mean, there's much to be gleaned from 
that.
    And I would also just, finally, like to say this. I hope, 
while I complimented you, and my colleagues, I'm sure, have the 
same feelings about your stewardship, I hope you will pass our 
compliments along to the men and women of NASA. When I saw that 
film--I mean, I wasn't in the room, and you were, when they 
discovered that they had landed Spirit successfully on the 
surface of Mars--it is an extraordinary technical achievement. 
I mean, almost one that's hard for us to fathom because we're 
not scientists. But I hope you will relay our congratulations 
to the men and women who work for NASA, as well.
    Mr. O'Keefe. Oh, thank you, sir. It was a heart-stopping 
experiencing on both occasions, particularly when you see the 
animation of that thing bouncing. I mean, that was enough to 
stop you cold all the way through this. It's an amazing feat, 
and one that is just staggering to grip the fact that this is a 
hundred million miles away, and we're communicating with these 
two capabilities that are just absolutely extraordinary, and we 
dared not dream it would have been this successful.
    Senator Dorgan. And especially following such a devastating 
tragedy that I'm sure affected, personally, everyone who works 
for NASA. To have this success was really critically important. 
But it describes, again, how unmanned space exploration can be 
very helpful to us, and it describes the technical capability 
and the spirit of the folks that work for NASA.
    Mr. O'Keefe. Thank you, Senator. Appreciate it very much. 
I'll pass that along.
    Senator Brownback. I want to add my support to those 
comments, too. Gave me a lot more feeling of security in the 
air bags in my car----
    [Laughter.]
    Senator Brownback.--when I saw that taking place.
    Senator Ensign?
    Mr. O'Keefe. It's the same technology. That's the thing. 
It's the very same idea.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman.
    Just as a little background, so you know where I come from, 
personally, when I was in high school, I was one of those kids 
who wanted to be an astronaut and wanted to go to the Air Force 
Academy; and ended up being an alternate to the Air Force 
Academy, so didn't pursue that. But always been fascinated with 
space, loved the work the Hubble Space Telescope has done, 
followed NASA's accomplishments. I can't tell you how many of 
the launches of the space shuttle that I watched. I remember, 
as a kid, watching all of the Apollo. So it's been a real 
fascination for me, personally, over the years.
    Now, having said that, in the last several years--and I 
think that the Space Station has been a big part of this--I've 
become more concerned about what NASA is doing. The Space 
Station, you know, original budget was projected to be 
somewhere around $8 billion. My numbers are correct, somewhere 
in there?
    Mr. O'Keefe. Yes, OK, the history of this is tough to 
trace.
    Senator Ensign. Yes.
    Mr. O'Keefe. In the course of the last couple of years I've 
been there, it is a firm number, and we know where it's going; 
but what it originally started at, it's been devolved several 
times and redesigned, and I can hardly even figure out what the 
original idea was anymore.
    Senator Ensign. I understand some of the politics in 
working with some of the other countries, and dumbing down some 
of our science and various things that we've had to do, and 
budgetary things. And the problems that happened with the Space 
Station, illustrate, not necessarily that it was the 
scientists' fault, or, part of it Congress' fault, performing 
budget cuts, I've--actually have one of the Nevadans that works 
on this--I used to ride on the airplane with him, talking about 
it all the time. We used to come back here, and he was hired to 
evaluate the problems with it.
    The bottom line is that the projections are usually here, 
on big government programs. And certainly this is one of those. 
The reality is the numbers are usually, to use a scientific 
term, a quantum amount above whatever the initial projections 
are. And especially when you're talking about vision things, 
because you have no idea what the costs are going to be, and we 
have no idea what other kinds of outside influences that 
Congress may go through at the time to affect that, and that's 
what happened with the Space Station over the years.
    When you introduce humans into spaceflight, we know that 
the cost dramatically goes up. There was a comment about, if 
people were on Mars today, the benefits that we would have--
well, they wouldn't be able to smell it, they wouldn't be able 
to touch it, they wouldn't be able to feel it, and their eyes 
aren't as good as what the robot's eyes are. And I guess the 
point that I'm making is that, you know, as a country, I think 
that we do have to reevaluate the idea of putting people in 
these projects, because of the enormous cost. I believe in 
continuing space exploration, but I think we have to take a 
very hard look at the cost benefit of having people in space. 
Does it really benefit us as a species--even our curiosity, 
does it really benefit us that much, going forward, compared to 
the huge, huge difference in cost that it's going to take to 
get people there, along with the risks?
    And speaking of the risks, people will die in space 
exploration; there's no way to stop it, there are risks 
involved; we saw that last year--well, when that happens, then 
we reevaluate budgets, we put things on hold, we stop. If one 
of those rovers went up there and it crashed, well, it would be 
a scientific setback, but it wouldn't be a tragedy where the 
whole country would be saying, ``Put an end to the space 
program.'' And I just want to put that out as a cautionary 
look, as you are going forward.
    I appreciate the President's vision for this, but, you 
know, not to be a naysayer, but I think that some people have 
to raise the voices and ask the tough questions. What is the 
benefit of putting man as part of this? So I guess that that 
would be my question for you, Are you all weighing that huge 
cost that it's going to take to put men in, versus the benefit?
    Mr. O'Keefe. Absolutely. No, thank you, Senator. It's a 
very important question, and one that I think really has to be 
wrestled with, not just once or trying to be definitive in one 
circumstance, but every single day we've got to put it through 
the sanity check that we are designing missions and approaches 
that can only be accomplished by human involvement. And if we 
can't, then we really ought to be doing it more robotically. 
And I think that's the approach, the balance you'll see in the 
President's program here.
    Let me just give you a couple of data points, though, of 
what's involved. We've talked a little bit--with Senator Wyden 
a little bit earlier--of a cost-benefit analysis approach----
    Senator Ensign. Can I interrupt you, just real quick?
    Mr. O'Keefe. Yes, sir.
    Senator Ensign. You said that ``only'' could be 
accomplished best by robots, it's only what could be 
accomplished with humans that you would have humans involved 
with.
    Mr. O'Keefe. Indeed, because there's a cognitive capacity 
that we can't build into a robot, hard as we might try. It's 
also some efficiencies that go with this. The cost-benefit 
analysis that, again, Senator Wyden prompted us to think about 
and that we'll have available here in a few weeks, really goes 
through, which is--again, if you look at this Mars mission, on 
just one of them, rover--Spirit or Opportunity, either one--the 
overall scientific package over the 90 to 120 days it's going 
to be really engaged in the scientific pursuit--geological 
robotic capabilities, and so forth--could be accomplished by a 
human being in 1 day. OK? It's just--there's mobility, capacity 
to move around, do things, make judgments at the time.
    We get 2 week's worth of time, probably, on Spirit that 
we're going to spend working out the mechanical challenges of a 
computer glitch, to be just real blunt about it, that occurred 
on Spirit last week. That's the kind of thing that could, I 
don't know, arguably be settled very rapidly with someone there 
looking at it. It really takes a different condition.
    That said, we can't put anybody there. We don't have the 
capacity to put someone on that planet right now. They couldn't 
stand the physiological consequence of taking the trip, much 
less being there. We don't know how to do that yet.
    But there are a whole range of things that we could 
accomplish differently, and could do it more efficiently, and 
could only accomplish with human beings if that were the case.
    Hubble is the perfect example of this. John Grunsfeld, 
sitting right here, is the chief scientist of NASA. He's been 
to Hubble twice. And the only reason why that capability 
continues to operate today is the servicing missions that were 
conducted by human beings. And, indeed, as good an astronomer 
as he is, as good a scientist as he is, as good an astronaut as 
he is, his primary qualification for the task, given the fact 
that all the controls on the Hubble are on the left side, is, 
he's a southpaw. His capacity to be able to use a catcher's 
mitt to make adjustments on this turned out to be one of the 
greatest attributes going. We don't have an autonomous robotic 
capacity to do that.
    And, as a consequence--looking at the risk that we took for 
him and his colleagues to go there in the past, are now 
determined to be higher than we should have ever accepted, 
given what we know from the Columbia Accident Investigation 
Board report and all the recommendations it levied for us to 
fly safely in the future. And, as a consequence, those kinds of 
missions, even though they can only be done by a human to do 
this properly, are the kinds of things we've got to dispense 
with and we're making the choice about because of the risk 
involved. Those are the kind of gut checks we have to make, but 
also compare it to the cases where, when we have the capacity, 
discern very carefully when you can only bring human capacity 
to bear to get the outcome you're looking for.
    Thank you----
    Senator Brownback. Senator Smith?
    Mr. O'Keefe.--Senator. It's a very important set of 
questions, and one we take very seriously, and I appreciate 
your inquiry to it.

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman.
    Mr. O'Keefe, I believe my colleague from Oregon, Senator 
Wyden, may have already touched upon this issue. You should 
know, both of us have been inundated by concerned Oregonians, 
who have wondered if their privacy has been violated, and it 
has to do with the data-mining project that NASA undertook 
after 9/11. I think it's understandable to Americans that all 
government agencies are trying to figure out, ``How can we 
help?'' And yet many are wondering if the airlines they rode 
on--Northwest in particular, JetBlue another--cooperated in a 
way that compromised privacy of individuals. In fact, I 
understand that JetBlue is subject to some class-action 
lawsuit. And I wonder if you have some thoughts about that.
    But I wonder what steps, having undertaken this, NASA can 
give, in terms of assurance that it took steps to protect 
privacy, and I'm wondering what you learned--having protected 
privacy, what then did you learn about protecting national 
security in airline travel? Frankly, I had never realized you 
were in airline travel security, but--this was all new to my 
constituents, but it hit the press and created a firestorm.
    Mr. O'Keefe. Yes, thank you, Senator.
    This was an incident that, again, we are very conscious of, 
the Privacy Act and its implications. And once the data was 
released to NASA by Northwest Airlines, I'm advised that there 
are two things that really mitigated against any real 
proliferation of the information.
    The first one was the security procedures we used. They 
were 18 disks that contained the information over a three-month 
span, and it was vaulted, as in put in a deep, dark safe, when 
it was used. There were a very specific number of folks who 
were working on it--very small number--who were working on the 
analysis. And it leads to the second issue, that--basically 
conquered the reason why we couldn't really contribute much is 
that the data compression that Northwest Airline uses for its 
information--we could only extract, from that 3 months of data, 
2 days worth after a year worth of trying to redesign the 
information just to download it. And it yielded nothing.
    So, as a consequence, just the technique they were using at 
Northwest--and other airlines, I suspect--for how they used the 
information is not easily transferrable to anybody, and it sure 
wasn't to NASA.
    We were asked to get into this because we are engaged in a 
number of airspace management approaches, various, again, high-
computation kind of analysis efforts that have gone on, and 
there were those who thought there may be some way that we 
could help in this case. Turned out we couldn't. We turned over 
all the data back to Northwest Airlines. It was not distributed 
beyond the very limited number of analysts who were engaged in 
it, and it proved to be something that was way too hard a climb 
because of the nature of the data that was compressed in the 
first place.
    The privacy issues are terribly important, and it's ones 
that we want to remind our folks of constantly. That said, I 
want to be able to assure and encourage our people to think 
about how we apply our technology toward the kind of activities 
that would thwart anybody from wanting to use a commercial 
airline against any of us in the future.
    Senator Smith. Well, I appreciate you speaking of it. I 
know that my constituents are supporters of NASA. So am I. But 
we're concerned about this. And what I take from your answer 
and also from your office's response to my letter----
    Mr. O'Keefe. Yes, sir.
    Senator Smith.--to you about this. I appreciate the 
response that no privacy was violated in a way that resulted in 
damages to citizens. Obviously, that awaits a jury to say 
whether any airline is liable, but, at least from your 
perspective, no damages were inflicted upon individuals by the 
loss of their privacy.
    Mr. O'Keefe. Yes, sir. That's the information I have, and 
it's--that's based on the investigation we conducted to see how 
far this went. That's the findings that our folks have come 
back with, in terms of what the containment of the information 
was in the first place. We're very mindful of that.
    In this post-9/11 world, we're all learning different ways 
that we've got to protect information like this.
    Senator Smith. Well, I appreciate that very much.
    And I also want to second the comments of many of my 
colleagues, who are curious about this, the manned projects to 
the Moon again, and to Mars, wanting to be supportive, also 
needing to balance budgets on Earth, and wanting to know what 
is the value that we can glean from actually undertaking the 
risk and the cost of putting human beings up there. Is there a 
cost-benefit relationship that we can defend to our people? And 
if there is, I think America is an exploring nation and wants 
to know more of what's out there. But those are the questions 
we need to have asked. And I think you're telling us today, 
you're prepared to answer them in the near future.
    Mr. O'Keefe. Yes, sir. Thank you very much, Senator. That's 
exactly it. And the President's budget, I think, will address 
many of those issues, and in the context of his overall 
economic policy, which is well within the context of this.
    Senator Brownback. Thank you.
    And thank you, Administrator. You've been very candid and 
thoughtful with your comments. It's been a delightful hearing, 
you can get a real sense of feel of the people up here.
    I would add, I'm delighted to see the President shooting to 
cut the budget deficit in half in 5 years, and reprioritize, 
because to me that's compassionate conservative ideology. 
There's enough money in the budget; it's just not programmed in 
the right places.
    I think we ought to shoot to balance the budget in seven, 
which is a target we've moved toward in the past, and something 
I think that we ought to engage again, and yet still do things 
like what you're directing to do, and show the people that when 
you get nearly a $2 trillion budget, there are enough funds 
there to do things, it just frequently is not in the right 
places where you want it, and priorities change, and you need 
to shift money around. And that's the tough work of governing, 
that we're going to need to show that we actually can and will 
do things like that, and you don't need to raise taxes, and you 
need to keep the economy robust by keeping taxes low to get 
these things done.
    So we've got our job cut out for us, as well. You've laid 
out a great vision for us, and you've been very candid in your 
thoughts. I do encourage you to meet with Members privately, as 
I know you do, because a lot of people continue to have other 
thoughts and comments.
    Thank you for your presentation today.
    Mr. O'Keefe. Thank you, Senator.
    Thank you very much. And your summary comment, I want to 
associate myself with exactly. That's precisely where the 
President's going, and that's precisely what this program 
incorporates, and it does show those tradeoffs, and stays 
within the fiscal discipline that he's imposed on all of us. 
And so I'm extremely heartened by this direction, and I 
appreciate the reception of the Committee, as well, to hear it 
out.
    Thank you, sir.
    Senator Brownback. Thank you.
    We'll now have a second panel--Dr. Louis Friedman, 
Executive Director of The Planetary Society; the Honorable Neal 
Lane, University Professor, Senior Fellow of the Baker 
Institute at Rice University; Dr. Howard McCurdy--he's 
Professor, Department of Public Administration, American 
University; and Mr. Richard Tumlinson, Founder of Space 
Frontier Foundation.
    If we could have, gentlemen, all of you at the table, we'll 
get going as quickly as you're there.
    Gentlemen, I'm sorry we dragged on a bit, but, as you can 
tell, there's a lot of interest, we had a lot of Member 
participation. And it's a good-news story, instead of the bad-
news story we've generally had.
    Dr. Friedman, let's start with your testimony.
    We will include each of your full written statements into 
the record as if presented. I would encourage you to summarize, 
as best as possible, on the key points, to make sure that we 
get really what is the heart thrust of what you're after.
    Dr. Friedman?

    STATEMENT OF LOUIS D, FRIEDMAN, EXECUTIVE DIRECTOR, THE 
                       PLANETARY SOCIETY

    Dr. Friedman. Thank you, Mr. Chairman and other Members of 
the Committee. It's a pleasure to be back here. I used to work 
on the staff of this Committee, and it's always a pleasure to 
come back.
    Senator Brownback. Welcome.
    Dr. Friedman. Thank you for the opportunity to comment on 
the national space policy directive issued 2 weeks ago by 
President Bush. Both its title, ``Renewed Spirit of 
Discovery,'' and its stated goal to extend human presence 
across the solar system, capture a spirit that we, at The 
Planetary Society, have long advocated. The new policy 
directive states clearly that the human space program will no 
longer flounder without a compelling goal, and will finally set 
its sights on other worlds. Understanding and extending life 
beyond Earth is the only purpose that justifies the cost and 
risk of human spaceflight. Restoring exploration as the raison 
d'etre of the space program is a welcome development to those 
of us motivated by science and exploration.
    The goal and vision are terrific. Setting goals, providing 
a broad vision is the President's job and that of you and your 
colleagues. The challenge in question now is implementation. 
Other space visions have turned out to be counterproductive in 
advancing space exploration, even those with noble aims--the 
shuttle, the Space Station, and the 1989 Moon-Mars initiative, 
for example. A great deal of public, political, and 
international constituency building will be required.
    The welcome first steps in this new policy include retiring 
the shuttle quickly after completing assembly of the 
International Space Station; separating crew and cargo, not 
just in launch vehicles, but for transportation to the 
International Space Station and for launching exploration 
missions beyond low-Earth orbit; building a new crew vehicle 
that would provide crew transportation for missions beyond low-
Earth orbit; and conducting robotic exploration across the 
solar system for scientific purposes and to support human 
exploration. This is particularly welcome, for the policy is 
not limited to the Moon and Mars; it supports science even to 
understand the history of the solar system. We have previously 
advocated all of these steps.
    Funds for vehicles and human missions beyond Earth orbit 
are not yet allocated. The projected NASA budget may be 
inadequate for dealing with all the technical challenges for 
conducting human missions on the Moon and sending them on to 
Mars. But ways to lessen the cost of human exploration of Mars, 
including from international partnerships, should be learnt 
during this period.
    The Planetary Society urges that a robotic Mars outpost be 
set up for--at a potential human landing site for placing 
robotic infrastructure that can increase reliability and 
safety, and lower costs for human missions. A Mars outpost is 
an appropriate goal for the international robotics Mars 
programs in the next decade.
    Cost is determined by requirements. The technical steps 
cited above, the Mars outpost, they can reduce the costs of 
sending humans to Mars. Conversely, Martian exploration will be 
more expensive if it includes extensive lunar objectives, 
prohibitively so if they include developing permanent lunar 
bases or open-ended exploration for speculative lunar 
resources.
    Much rhetoric, and even some of the official statements 
accompanying the directive, have been confused or misleading on 
this subject. One even called for launching spacecraft from the 
Moon into the Solar System. There's probably no more expensive 
way that could be devised to reach Mars.
    Fortunately, the President's policy itself does not call 
for these things. It says only that we should use lunar 
exploration activities to further science, develop and test new 
approaches, technologies, and systems, and including the use of 
lunar and other space resources--an emphasis--to support 
sustained human exploration to Mars and other destinations.
    The costs for any proposed use of lunar resources should be 
estimated and compared with alternatives. The topic must be 
subject to economic analysis before any commitment to such a 
program is made.
    While the United States and Russia have been to the Moon 
many times, it is a target of international interest. Europe 
has a mission to the Moon right now. Japan, India, and China 
all have missions in development underway. International 
cooperation is supported in the policy directive, and we urge 
that the United States, with other space-faring nations, 
cooperate and coordinate their robotic lunar missions. This 
could pave the way for international human crews and missions 
to the Moon and to Mars that would lower the cost in the long 
run.
    The Planetary Society co-founder, Carl Sagan, wrote, 
``There's plenty of housework to be done here on Earth, and our 
commitment to it must be steadfast, but we are the kind of 
species that requires a frontier for fundamental biological 
reasons. Every time humanity stretches itself and turns a new 
corner, it receives a jolt of productive vitality that can 
carry it for centuries. There is a new world next door, and we 
know how to get there.''
    Only at Mars will we begin to learn whether humankind is 
limited to a single planet. Only at Mars will humans be able to 
investigate the key questions about life. These are the great 
human purposes for which we send humans to space.
    The lure of Mars was dramatically revealed by the enormous 
public interest and excitement that attended the landings of 
the Mars rovers this past month, and which we saw graphic 
evidence of this morning, the presence of five robot emissaries 
from Planet Earth now exploring that other world. Imagine if 
those robots were us.
    Thank you.
    [The prepared statement of Dr. Friedman follows:]

     Prepared Statement of Louis D. Friedman, Executive Director, 
                         The Planetary Society
    Chairman McCain, Senator Hollings, and Members of the Committee:

    Thank you for the opportunity to comment on the National Space 
Policy Directive issued two weeks ago by President Bush. Both its 
title, ``A Renewed Spirit of Discovery,'' and its stated goal to 
``extend human presence across the solar system,'' capture a spirit 
that we at The Planetary Society have long advocated. The new Policy 
Directive states clearly that the human space program will no longer 
flounder without a compelling goal, and will finally set its sights on 
other worlds. Understanding and extending life beyond Earth is the only 
purpose that justifies the cost and risk of human space flight.
    In the past much has been made of ``manned'' vs. ``unmanned'' 
programs--creating a sense of animosity between the human and robotic 
aspects of exploration. This is absurd--exploration requires 
sophisticated robots, no matter where the humans are, and, as humans, 
we are not satisfied with robots being our emissaries forever--
especially when asking for popular support from a taxpaying public. We 
welcome the Policy Directive's up-front statement that the goal of the 
American space program is to ``Implement a sustained and affordable 
human and robotic program to explore the solar system and beyond'' 
(emphasis, mine).
    Restoring exploration as the raison d'etre of the space program is 
a welcome development to those of us motivated by science and 
exploration.
    The goal and vision are terrific. Setting goals and providing a 
broad vision are the President's job, and that of you and your 
colleagues. The challenge and question now is its implementation. Other 
space visions have turned out to be counter-productive to advancing 
space exploration, even with some noble aims: the shuttle, the space 
station, the 1989 ``Moon-Mars Initiative,'' for example. A great deal 
of public, political and international constituency building will be 
required.
    Cost and rationale are key to the constituency building, and these 
have not yet been adequately explained. Unfortunately, the 
Administration space policy study was conducted in secret; now there 
should be a period of public interaction. There is adequate time for 
this--the Administration's proposed first steps in the new policy are 
overdue and needed in any case to save our human space program.
    Those welcome first steps in the implementation include:

  <bullet> Retire the shuttle quickly after completing assembly of the 
        International Space Station--2010 is mentioned as a target 
        year. Redirecting the U.S. role in the space station to focus 
        ``on supporting the space exploration goal;''

  <bullet> Separating crew and cargo, not just in launch vehicles but 
        for ``transportation to the International Space Station and for 
        launching exploration missions beyond low Earth orbit;''

  <bullet> Building a new crew vehicle that would ``provide crew 
        transportation for missions beyond low Earth orbit.'' Previous 
        Orbital Space Plane requirements did not mention such missions.

  <bullet> ``Conduct robotic exploration across the solar system for 
        scientific purposes and to support human exploration.'' This is 
        particularly welcome--the policy is not limited to the moon and 
        Mars, and supports science, even ``to understand the history of 
        the solar system.''

    The Planetary Society has previously advocated all of these.
    These are the first steps--the ones that have to be funded and 
carried out in the five-year budget projections that the President will 
submit to Congress in a few days. We believe they are affordable and 
reasonable, and that worthy programs in space science would need not be 
cut to permit their accomplishment.
    The questions and concerns about the Policy Directive are longer-
term, beyond the five-year period. There are many open technical 
questions: the launch vehicles to be used for human flights to the Moon 
and Mars, the on-orbit assembly and propulsion requirements, the design 
of the interplanetary crew vehicle and dealing with weightless flight 
and the dangers of high radiation levels, setting up Mars 
infrastructure support robotically, and the crew activity planning for 
Mars exploration. The program set out in the Policy Directive allow 
proper time for answering these questions, while at the same time 
accomplishing the first steps to redirect the program.
    Funds for vehicles and human missions beyond Earth orbit are not 
yet allocated. The projected NASA budget may be inadequate for dealing 
with all the technical challenges and conducting human missions on the 
Moon or sending humans to Mars. But, ways to lessen the cost of human 
exploration of Mars, including from international partnerships, should 
also be learnt during this period. The Planetary Society urges that a 
Mars Outpost be set up robotically at a potential human landing site 
for emplacing robotic infrastructure that can increase reliability and 
safety and lower cost for the human mission. A Mars Outpost is an 
appropriate goal for international robotic Mars programs in the next 
decade.
    Cost is determined by requirements. The technical steps cited 
above, and the emplacement of a robotic Mars Outpost, can reduce the 
cost of sending the humans to Mars. Conversely, Martian exploration 
will be more expensive if it includes extensive lunar objectives, 
prohibitively so if they include developing permanent lunar bases or 
open-ended exploration for speculative lunar resources.
    Much rhetoric and even some of the official statements accompanying 
the Directive have been confused or misleading on this subject. One 
even called for launching spacecraft from the Moon into the solar 
system. There is probably no more expensive way that could be devised 
to reach Mars.
    Fortunately, the President's policy itself does not call for these 
things. It says only that we should ``Undertake lunar exploration 
activities to enable sustained human and robotic exploration of Mars 
and more distant destinations in the solar system'' and ``Use lunar 
exploration activities to further science, and to develop and test new 
approaches, technologies, and systems, including use of lunar and other 
space resources, to support sustained human space exploration to Mars 
and other destinations.'' The underlined phrases clearly specify that 
lunar activities should be directed to enable Mars exploration, and not 
be an end in and of themselves.
    Use of lunar resources for supporting exploration beyond the moon 
is proposed in a White House Fact Sheet that accompanied the release of 
the Policy Directive. The costs for any proposed use (e.g., extracting 
oxygen from lunar rocks) must be estimated and compared with 
alternatives (e.g., bringing the oxygen from Earth.) The topic must be 
subject to economic analysis before any commitment to such a program is 
made.
    Twelve Americans have walked on the moon (15 more have flown around 
it) and some 70 robotic spacecraft have been there--we must carefully 
consider what we already have done there before planning new missions. 
The moon, as stated in the Policy Directive, shall only be ``to prepare 
for and support future human exploration activities.'' We cannot afford 
to get bogged down on the Moon as we have in Earth orbit the past three 
decades.
    While the United States and Russia have been to the Moon many 
times, it is a target of international interest. Currently:

  <bullet> The European Space Agency has a mission, SMART-1, on the way 
        to the Moon

  <bullet> Japan is developing two lunar missions: Lunar A, which may 
        launch in the next year, and SELENE, now scheduled for 2006.

  <bullet> India is developing a mission, Chadrayan-1, for a 2008 
        launch

  <bullet> There are reports from China they will conduct robotic lunar 
        orbiter and landing missions in this decade, and perhaps that 
        they have a 2020 human landing mission goal.

    International cooperation is supported in the Policy Directive, and 
there is a need to build international partnerships for the grand goal 
of humans to Mars. Working with international partners can help us 
greatly to lower the cost of realizing our objectives at the Moon and 
in achieving the required set of missions faster. The Planetary Society 
urges the United States and other space-faring nations to cooperate and 
coordinate their robotic lunar missions. This could pave the way for an 
international human crewed mission to the Moon and be a solid step in 
building the team for the Martian expeditions.
    Engineers can work out the details of interim technical milestones 
for a human mission to Mars. Various national and international studies 
have considered interim human destinations near Earth and at points 
where Sun and Earth gravity produce dynamical stability, or at 
asteroids, which provide interesting targets in their own right. These 
steps might also be investigated as interim milestones for human flight 
to Mars.
    The Planetary Society cofounder, Carl Sagan wrote, ``There's plenty 
of housework to be done here on Earth and our commitment to it must be 
steadfast. But we're the kind of species that needs a frontier--for 
fundamental biological reasons. Every time humanity stretches itself 
and turns a new corner, it receives a jolt of productive vitality that 
can carry it for centuries. There is a new world next door. And we know 
how to get there.''
    Only at Mars will we begin to learn whether humankind is limited to 
a single planet; only at Mars will humans be able to investigate the 
questions of other life. These are the great human purposes for which 
we send humans to space. The lure of Mars is dramatically revealed by 
the enormous public interest and excitement that attended the landings 
of Mars rovers this past month and the presence of five robot 
emissaries from planet Earth now explorating that alien world. Imagine 
if those robots were us.

    Senator Brownback. Very good, and a very provocative 
statement.
    Dr. Lane?

         STATEMENT OF NEAL LANE, UNIVERSITY PROFESSOR,

         DEPARTMENT OF PHYSICS AND ASTRONOMY, JAMES A.

     BAKER III INSTITUTE FOR PUBLIC POLICY, RICE UNIVERSITY

    Dr. Lane. Thank you, Mr. Chairman. When I was in 
government, it was always a great pleasure to appear before 
this Committee, as it is today. It gives me an opportunity to 
thank you and the Members of the Committee for your strong 
support for science, for research, for education, and for 
space. It's my pleasure now to work with Senator Hutchison, in 
Texas. She's doing a wonderful job to emphasize the importance 
of science, research, and education in Texas.
    I also am very appreciative of the chance to join this 
distinguished panel here to talk about the President's space 
plan. President Bush has outlined a space plan with three 
goals--complete the Space Station, build a new human 
spacecraft, and return Americans to the Moon by the year 2020.
    So it's important to ask, I think, Are these the right 
goals? Is the plan, including the budget, likely to accomplish 
these goals? Well, I believe the Administration has three 
goals. And I would add a fourth, to strengthen NASA's world-
class science and science education programs, including robotic 
exploration of space. These could provide a bold vision for the 
U.S. space effort.
    Science has been much the heart and soul of NASA. The 
images and knowledge we've obtained from the Hubble Space 
Telescope and many other space-based telescopes have stunned 
astronomers, who are accustomed to spectacular images and 
discoveries.
    NASA's planetary science missions have given us closeup 
images of even far-off planets and their satellites, asteroids, 
comets. And now the Spirit and Opportunity rovers soon will be 
strolling on the surface of Mars, sniffing around, looking for 
water, and making history.
    NASA's programs to study our sun, its magnetic field, the 
solar wind of radiation that comes our way and creates the 
beautiful Aurora over Alaska and our northern states, provides 
important space weather forecasts that help us avoid the 
disruptions of communication that also result from solar 
activity.
    NASA's satellite observations of Earth help us understand 
changes in land use, climate change, and weather prediction, 
and help protect us from natural disasters.
    NASA also supports world-class laboratory research in its 
centers and its universities all across the Nation. This 
includes the unique experiments on the Space Station of the 
effects of zero gravity on human physiology.
    Science must remain one of the highest priorities for the 
agency, in my view; and unless science is one of the principal 
goals of the new space initiative, then science will be 
relegated to the status of always in need of protection, as 
opposed to being enhanced. That would be a mistake.
    So with science included, we have the makings of a bold 
vision, but a vision cannot simply be a dream. In order to be 
credible, it really must be achievable. So let's look at each 
of these goals.
    Should we complete the Space Station? Without question, we 
should complete the Space Station, honoring our commitment to 
our international partners, as well as conducting the 
experiments and gaining experience that will be needed for 
trips out of Earth's orbit.
    Should we build a new human spacecraft? Well, clearly it is 
essential that we modernize our fleet of human spacecraft. The 
space shuttle has been an extraordinary vehicle, but it is 
expensive to operate, and it still uses old technology. An 
important element of President Clinton's 1994 national space 
policy was to upgrade the shuttle, and design and build a new 
vehicle to replace it. The shuttle upgrade should continue, and 
it's time to get on with building a new vehicle.
    Should we return humans to the Moon? Well, I think we 
should go back to the Moon, perhaps even spend some time on the 
Moon. The question is, when and how? When it is of sufficiently 
high priority for the American people to spend the money. And 
how, through expanded international cooperation, not only with 
our traditional partners in space, but with new partners, such 
as China or India, Brazil perhaps, and maybe others.
    Should we enhance the NASA science programs? I've already 
spoke to this. I think without a rich portfolio of scientific 
research in centers and universities, and without robotic 
missions to launch new telescopes to monitor the health of the 
Earth and explore the surfaces of planets and satellites, our 
much more costly human spaceflight missions will be little more 
than precarious adventures.
    Finally, is the budget adequate? Well, I think the 
President has described a bold plan. But he's not yet provided 
the architecture or the means. The 5 percent a year growth the 
President promises in the NASA budget certainly comes as a 
relief to an agency that has had many years of budget 
disappointment and has had to cut back important projects and 
programs. But the plan the President has described likely will 
cost much more than that, I think even in the early years. 
Thus, it is important for the Administration to lay out the 
estimated total costs and provide a roadmap to show the 
American people where we're going and what is it going to cost 
to get there.
    Mr. Chairman, in my written testimony I raise a number of 
specific concerns by way of posing questions about all of these 
issues, but I will not repeat those here today.
    So, in conclusion, I would support a real increase in the 
NASA budget if the science programs, including robotic 
exploration of space, was strengthened and if the White House 
and the Congress--and let me emphasize, if the White House and 
the Congress--will support the necessary reorganization within 
NASA that will be required to begin the development of a plan 
to return humans on the Moon and beyond. It's not easy to 
reorganize an agency, and the Administrator is going to need 
all the help you can possibly give.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Lane follows:]

 Prepared Statement of Neal Lane, University Professor, Department of 
Physics and Astronomy, James A. Baker III Institute for Public Policy, 
                            Rice University
    Mr. Chairman and members of the Committee: Thank you for this 
opportunity to testify on the future of space exploration, especially 
the policy implications of President Bush's proposal, outlined in his 
speech to the Nation on January 14, 2004, to return astronauts to the 
moon and expand human space exploration to Mars.
    My direct involvement with matters of space policy was the time I 
served in the Clinton Administration, in the White House, as Assistant 
to the President for Science and Technology (the President's Science 
Advisor) and Director of the Office of Science and Technology Policy 
(from 1998-2001). Prior to that I was Director of the National Science 
Foundation (from 1993-1998), an agency that focuses both on research 
and on education. I am now at Rice University, where my position is 
University Professor, with appointments in the Department of Physics 
and Astronomy and as Senior Fellow of the James A. Baker III Institute 
for Public Policy, which includes space policy and other science and 
technology policy areas within the scope of its activities. Mr. George 
Abbey, former Director of the Johnson Space Center, is also a Senior 
Fellow of the Institute. The Rice Baker Institute has hosted an 
international summit on space policy and several other space events 
including workshops on space commerce. I also serve on the American 
Academy of Arts and Sciences Committee on International Security 
Studies, which is examining international rules on the use of space and 
implication of possible changes in the U.S. policy toward military uses 
of space.
The Vision of President John F. Kennedy
    Rice University is where President John F. Kennedy gave his address 
on Sept. 12, 1962, in which he spoke these now famous words:

        ``We choose to go to the moon. We choose to go to the moon in 
        this decade and do the other things, not because they are easy, 
        but because they are hard, because that goal will serve to 
        organize and measure the best of our energies and skills, 
        because that challenge is one that we are willing to accept, 
        one we are unwilling to postpone, and one which we intend to 
        win. . . .''

    The political situation in the world, forty years ago, was very 
different than it is today. The U.S. and USSR were in a face-off and on 
the brink of a nuclear holocaust. Sputnik, launched by the USSR in 
1957, stunned the free world. On May 25, 1961, President Kennedy 
announced to a joint session of Congress that we would take Americans 
to the moon and safely return them to Earth by the end of the decade. 
Indeed, that mission was accomplished in just over eight years, at a 
cost of about $25 billion (1960 dollars), which is approximately $125 
billion of today's dollars. This was an extraordinary accomplishment 
for NASA and the Nation. It launched the U.S. into the leadership 
position it enjoys today. Boys and girls visiting Challenger centers at 
the Houston Museum of Natural Science and other centers around the 
world, are still excited by the stories of the Moon landing and the 
vision of humans going back to the Moon and on to Mars.
    Today, the USSR no longer exists. Russia is our partner in space 
exploration, and the hostile threats to our Nation no longer come from 
a single powerful nation.
    It is ironic that on November 14, 2001, at Rice University, nearly 
four decades after President Kennedy's speech, Russian President Putin 
gave a speech in which he said: ``We have (for) a long time been 
cooperating in (the) space exploration field. And the creation, the 
establishment of the International Space Station is 85 percent percent 
(a) bilateral Russian-American project.''
The U.S. Human Space Flight Program
    The U.S. human space flight program--from John Glenn's heroic 
Mercury flight in February of 1962 to the Gemini missions and Apollo 
moon landings to the development of the Space Shuttle program and 
construction, with Russia and other international partners, of the 
International Space Station--has been one of America's greatest stories 
of adventure and discovery. Once again this country showed the world 
that the American pioneering spirit and passion for exploration can 
cause people and nations to do extraordinary things. The benefits are 
not only in gaining a better understanding of how humans can live in 
space, but the engineering and technological advances that provide 
totally unanticipated benefits for people, our economy, and the Earth's 
environment.
    Human exploration of space is not without risk to the courageous 
men and women who make the journey. Along with the triumphs of our 
human space program we have suffered great tragedies--Apollo 1, 
Challenger, and more recently, Columbia, where astronauts gave their 
lives for the Nation. We must do everything possible to make sure our 
astronauts and their partners from other nations are as safe as they 
can possibly be in space and that the irreducible risks are made clear 
to them and to the public.
Scientific Accomplishments
    As exciting as human space flight may be, the U.S. civilian space 
program is very much about scientific exploration and discovery, using 
robotic means. NASA has often carried out unmanned space science 
missions in cooperation with international partners; but it has played 
the leading role in many of the most important ones.
    The robotic studies of our solar system have produced a revolution 
in scientific understanding of our sun, planets, asteroids, comets and 
of the Earth's immediate environment. Spectacular discoveries, 
including photographic images of the moon (Ranger, Surveyor, Lunar 
Orbiter, Clementine); Mars (Mariner, Viking, Mars Observer, Mars Global 
Surveyor, Mars Pathfinder, Mars Exploration Rovers Spirit and 
Opportunity); Venus (Mariner, Pioneer, Magellan); Mercury (Mariner); 
outer planets (Pioneer, Voyager, Galileo, Cassini); asteroids 
(Clementine, NEAR), comets (Stardust). Other missions are giving us new 
knowledge about the Sun (SOHO, Ulysses, HESSI, TRACE), its radiation 
and solar wind (Genesis, GEOTAIL, Polar) and the ``space weather'' 
problems it can cause on Earth and the plasma environment nearby 
(Cluster, IMAGE, WIND); and the Earth's upper atmosphere (TIMED). 
Voyager 1 and 2 (now 26 years old) are probing the outer reaches of the 
solar system.
    Joining the successes of these past and ongoing studies of the 
solar system is an extraordinary record of research and discovery in 
astronomy and astrophysics. An array of NASA space-based astronomical 
telescopes (Hubble, Compton, Chandra, ACE, GALEX, HETE-2, IMAGE, RXTE, 
SAMPEX, Spitzer, SWAS, WMAP, XMM Newton), several built and operated in 
cooperation with the European Space Agency and nations around the 
world, complement ground based telescopes (e.g., the Keck telescope and 
Gemini telescopes and others supported by the National Science 
Foundation). NASA, with its partners, has over 20 telescopes under 
development and an even larger number under study. In addition to 
building and operating these space-based observatories, NASA is a major 
supporter, along with the National Science Foundation, of basic 
research in astronomy and astrophysics at major universities all around 
the country.
    Closer to home is NASA's Earth Science Enterprise, which launched 
its flagship Terra in December of 1999, and operates (or has scheduled 
launch dates for) over thirty Earth observation satellites, many in 
cooperation with other agencies and countries, to provide images and 
data on many aspects of the Earth's atmosphere, ocean and land. These 
include observations of: atmospheric temperature, moisture content, 
clouds, precipitation (Aqua), aerosol cloud properties (CALIPSO), 
absorption and re-emission of solar radiation by the Earth (ERBS), 
imaging and sounding data to help weather forecasting (GOES-L and M), 
soil moisture and freeze line (HYDROS), atmospheric carbon dioxide 
(OCO), global ocean currents (TOPEX/Poseidon), and other missions that 
provide information useful in understanding climate change and 
improving weather prediction.
    In addition to the high-profile science research activities in 
Astronomy and Planetary and Earth Science, NASA supports important 
research in the biological and physical sciences, including research 
related to the National Nanotechnology Initiative.
    One area of the life sciences that is particularly important for 
human space flight and that requires humans to live in space is 
studying the long term effects of zero gravity on the human body. We 
will not be able to make journeys to Mars, or even to stay for awhile 
on the moon, until we understand how humans respond and can insure 
their continued health. NASA has formed an excellent partnership to 
implement that research with the National Space Biomedical Research 
Institute (NSBRI) that brings together a number of the Nation's finest 
life science research institutions, under the leadership of the Baylor 
College of Medicine, to further our understanding of the effects of 
space travel on the human body.
    Science is at the heart of NASA and the U.S. effort in space 
exploration and discovery. Any considerations of a change in national 
space policy should insure the continued health of NASA's science 
programs. But, before we talk about changes in space policy, it is 
important to reflect on where we have been.
U.S. National Space Policy
    President Clinton established a National Space Policy early in his 
Administration that emphasized the construction of the International 
Space Station, the first component of which (Zarya) was placed into 
orbit in November of 1998, followed by the first U.S. component 
(Unity), delivered by the Shuttle, in December of that year. The 
Clinton Administration also worked to provide funding for NASA to make 
an ``end of the decade'' decision on a replacement for the Space 
Shuttle, to continue robotic explorations of Mars, and to support a 
robust program of Astronomy, Space, and Earth Sciences. With regard to 
the Space Station, President Clinton made the decision that Russia 
would become a key partner, so that we could take advantage of their 
enormous experience in space, including the MIR space station, and 
Russia's technical skills. It is a partnership that has had its `ups' 
and `downs', largely because of the economic situation in Russia, but 
today it is clear that we would not have the Space Station had it not 
been for this vital partnership.
President Bush's Plan to Return to the Moon and Beyond
    President Bush, in his speech of January 14, described a bold plan 
that will take humans back to the moon by 2020, with the expectation 
that humans would then go on to Mars, sometime in the distant future. 
In particular, the President described three goals:

  (1)  ``complete the International Space Station by 2010'';

  (2)  ``develop and test a new spacecraft by 2008 and to conduct the 
        first manned mission no later than 2014'';

  (3)  ``return to the moon by 2020, as the launching point for 
        missions beyond.''

    The President said that the first part of this program would be 
funded by adding $1 billion to the NASA budget, spread out over five 
years, and reallocating $11 billion from within the NASA budget during 
the same timeframe. These amounts are within the annual 5 percent 
increase the President plans to make to the NASA base budget 
(approximately $15 billion), starting in FY 2005. The President has 
named a new Commission, chaired by former Secretary of the Air Force 
Pete Aldrich, to advise him on implementation of the new vision.
    President Bush has laid out a bold vision for the human space 
program and a rough time frame for making progress. The American people 
need a vision in order to share in the excitement and support the costs 
of the national space effort. NASA also needs a destination, compass 
heading, and time frame for human exploration of space so that it can 
plan and manage effectively as well as log its progress. Such a vision, 
however, has to be achievable to be credible, so it is important to be 
aware of all that is involved in accomplishing the President's goals, 
if those are the right goals for the country.
    There are two overarching questions one might ask: Are these the 
right goals? Is the plan--including the budget--likely to accomplish 
these goals?
    I will briefly comment on the three goals, add a fourth ``science'' 
goal that, in my opinion, is at least as important as the others, and 
suggest a number of questions that I hope the Commission, 
Administration, and Congress will consider carefully.
International Space Station
    The goal to complete the International Space Station is not only 
appropriate but, in my view, absolutely essential. Our commitments to 
international partners must be met if we are to maintain any 
credibility in space cooperation. We are not always viewed as a 
reliable partner in such endeavors and often our political will is 
questionable. While there was criticism by some members of Congress of 
President Clinton's decision to bring in the Russians as a key partner 
in building the Station, clearly it was very important to do so. Not 
only did Russia provide outstanding technical expertise and hardware 
and unprecedented experience with humans in a space environment (on 
space station MIR), Russia was also able to respond quickly to our need 
to bring back those stranded on the Station by the grounding of the 
Shuttle fleet, following the tragic Columbia accident, and to continue 
a rotation of crews so the Station can remain in operation. A second 
reason to complete the Space Station is to continue to gain experience 
with humans in space and to develop new technologies and systems that, 
along with the planned Shuttle upgrades, will be needed in developing a 
new Crew Exploration Vehicle and moving beyond low earth orbit. But, 
the Space Station is not finished and still presents many challenges. 
Our intentions, our commitment and our priorities must be clear.
    Is our commitment to complete the Space Station simply tending to 
unfinished business, or do we still consider the Space Station and the 
scientific experiments we will do there among our highest priorities in 
human space exploration? What is our commitment beyond the construction 
of the Station--are we simply leaving it to our international partners 
to operate, while we move on to more exciting things?
New Spacecraft--The Crew Exploration Vehicle
    The Space Shuttle has performed far better than its early critics 
predicted. That is because an enormous amount of human attention is 
given to keeping the Shuttles flying and the talent and skills of our 
astronauts. While I was in the White House, I had the privilege of 
visiting Johnson Space Center and observing a Shuttle Commander and 
Pilot going through mind-boggling malfunction scenarios on the Shuttle 
simulator. I came away very conscious of how good these men and women 
are, but also with a better appreciation of the complexity of the 
Shuttle, which still relies on old technology, and the very real risks 
to flying it. The Shuttle technical upgrades, begun in the previous 
Administration, are very important and should be carefully considered 
by NASA and the Commission as various options are examined. These 
upgrades have been planned not only to improve the safety and 
reliability of the Shuttle but also to develop new technologies and 
systems for future spacecraft and missions beyond Earth's orbit. Future 
upgrades could include replacing solid-fuel by liquid-fuel boosters, 
which (flown without the Shuttle) could be important for lunar or Mars 
missions.
    The design of the Crew Exploration Vehicle (CEV) appears to be a 
work in progress, the intended outcome of the ``spiral approach'' 
described by the NASA Administrator. Whatever may be the detailed 
design, we will need a heavy-lift capability for humans and cargo. 
Today, the Shuttle is our heavy-lift vehicle and can carry 60,000 lbs, 
currently the largest payload of any of the world's vehicles. It also 
has the capability to return heavy cargo to earth, a unique capability 
that will be greatly needed by the year 2010. Many favor the idea of a 
human spacecraft, e.g., the CEV, being launched on an expendable launch 
vehicle (ELV). We have no such human-rated rocket today. The CEV 
presents many challenges.
    How will NASA insure that safety of the astronauts remains the top 
priority for the human space flight program during a time of 
substantial realignment of programs, reallocation of funds, and 
reorganization of personnel, and properly implement the recommendations 
of the Columbia Accident Investigation Board, chaired by Admiral 
Gehman? Does NASA plan to carry out the planned Shuttle upgrades and, 
if not all of them, which ones and on what schedule? What is NASA's 
future plan for providing heavy-lift (down-mass as well as up-mass) 
capability? What are the arguments in favor of the plan to abandon the 
Shuttle four or more years before a new human spaceflight capability is 
in place and what are the risks? What are the arguments for and 
against, and tradeoffs in capability and cost, of choosing an entirely 
new spacecraft architecture as opposed to an architecture that makes 
use of a modernized Shuttle?
Return to the Moon--and Beyond
    Should we go back to the moon? My answer is yes! The question is 
when and how? Returning to the moon must be of sufficiently high 
priority for the Nation to justify the expenditure of the large amounts 
of money required, rather than using the funds to meet other vital 
national needs in many areas that impact the quality of life of people 
living on Earth--education, economy, energy, health, environment, 
security. Moreover, the most important ``how'' question is the extent 
to which this will be an international effort involving not only our 
traditional partners in space (countries of Europe, Japan, Canada and 
other nations that are contributing to the International Space 
Station), but also new space partners like China, India and Brazil. The 
window of opportunity to use cooperation in space to avoid conflicts in 
the future may not be open long; and this is an opportunity that must 
not be missed.
    The NASA Administrator, in his comments to the press, emphasized 
that this is ``very much going to be a U.S.--led endeavor . . . to 
achieve this set of American, U.S. exploration objectives.'' But, 
international cooperation, including Russia being placed on the 
critical path, has been vital to the success of the U.S. space effort.
    There are many obstacles to international cooperation, including: 
export controls (which have seriously damaged our commercial satellite 
industry); the effects of the Iran Nonproliferation Act of 2000 on 
U.S.-Russia cooperation; and denied access to foreign students, 
scientists, and engineers, whom we need today in order to advance our 
programs in space and other technical areas. This need will only grow 
in the future. Without question, the U.S. must protect its citizens 
from attack by terrorists or other hostile forces. But, this must be 
done in such a way that does not damage the Nation's technical 
capability.
    There is also reason for other nations to question U.S. policy on 
the future use of space, given statements made by high-level U.S. 
government leaders and in military strategy documents about the need to 
prepare for increased military activities in space. The American 
Academy of Sciences Committee on International Strategic Studies is 
carrying out a study of the technological, commercial, and political 
implications of U.S. policy in space, and of rules and principles for 
protecting a long-term balance of commercial, military, and scientific 
activities in space. I encourage the Administration and Congress to 
invite information on this important study as it may impact your 
decisions on future space policy.
    How will the Administration insure that other nations--Russia, our 
European and Asian partners, perhaps China and India--are seriously 
engaged in the planning and realization of the President's vision, 
indeed that they are able to share that vision? How will the U.S. 
assure the rest of the world that we continue to hold the view that 
space should be used for peaceful purposes?
Scientific Research and Education
    Mr. Chairman, I would add a fourth goal that I consider to be at 
least as important to our space policy as the President's goals:

        Insure that the United States remains the world's leader in 
        scientific and engineering research and in educating young 
        people for careers in science, engineering and technology.

    Unless the Nation has a deep understanding of physical and 
biological nature--on and off our planet--we will not be successful in 
exploring space frontiers with robots or humans. Unless we attract more 
young people to science and engineering, and give them a solid 
education, we won't be able to do the science or the exploration.
    Perhaps the greatest challenge for our space program is finding the 
talented people--scientists, engineers and other technical 
professionals--who will be needed to accomplish a bold space agenda for 
the Nation. Careers in science and engineering are not as attractive to 
young people as they once were; and we are having a harder time 
attracting and retaining talented individuals from abroad. Universities 
where scientific and engineering research is strong are particularly 
important in addressing this technical workforce issue. I believe 
history has shown that the continued Federal investment in university 
research and graduate education is money well spent.
    NASA emphasizes that the Administration's new program is primarily 
not about science, but about human exploration. But, science has been 
one of the most important successes of the U.S. space program. New 
scientific knowledge as well as revolutionary technologies have been 
the tangible products of the Nation's investments in space and are key 
to NASA's accomplishment and well-deserved reputation for excellence 
throughout the world. It is vital to NASA's future that the science not 
be given lower priority in the new program. There are many important 
scientific facilities and robotic missions already planned and others 
not yet conceived. These unmanned missions are by far the most cost 
effective way to do science. My concern is that money needed for human 
space exploration will erode the science budgets, especially given the 
need for substantial reallocations of money within the NASA budget. The 
words science and exploration are easily confused in most people's 
minds. The rationales for the Shuttle and the International Space 
Station were never primarily about science, but I don't believe that 
message ever got through to the public.
    There are examples where human exploration of space and science go 
hand-in-hand. Study of the effects of zero gravity on human physiology 
is one obvious example. Also, humans in space can be called upon to do 
things that otherwise would be very difficult, e.g., the successful 
repair and upgrade missions to the Hubble Space Telescope. It is 
disappointing that a decision has been made to terminate the enormously 
successful Hubble Space Telescope, and a planned servicing mission has 
been cancelled. I believe this decision ought to be reconsidered.
    I would ask the following questions:

        How will NASA and the Administration insure that the 
        exploration goals of the moon-moon proposal do not cut into the 
        science goals for NASA programs and those of other agencies? If 
        NASA science missions are to be directed toward the goals of 
        the moon-Mars proposal, does that mean that missions given 
        higher priority by the science community will have lower 
        priority by NASA? How was the Hubble cancellation decision 
        arrived at and what was the rationale for that decision? How 
        will NASA help the public to better understand the differences 
        and connections between human space exploration and science and 
        the rationales and best approaches for doing both? How will 
        NASA strengthen its partnership with universities to support 
        academic research and help recruit more scientists and 
        engineers?
The Budget
    Turning now to the second of the two overarching questions I posed 
earlier: Is the plan--including the budget--likely to accomplish these 
goals?
    The President has proposed 5 percent increases each year for the 
next five years. Given the size of the current and future projected 
deficits, proposing a modest growth budget is understandable. Indeed, 
following many years of disappointing budgets, 5 percent is good news 
for NASA. But, I believe the expectations raised by the President in 
his speech, far exceed the proposed budget for this ambitious program, 
even for the early stages of the plan. What the President has proposed 
implies a major reorganization, even change in culture, of NASA and its 
centers.
    The history of our space program has shown that coordination of 
activities across NASA centers and with industry remains very 
challenging. Significant reallocation of resources is met with strong 
resistance, often with the help of friends in Congress. Reorganization 
of NASA is probably long overdue. Furthermore, the NASA budget, 
especially the science budget, is severely earmarked in ways that 
usually do not address the agency's top priorities and certainly limit 
the management flexibility of the Administrator. It will be impossible 
for the NASA Administrator and his NASA colleagues to make the 
necessary changes unless the White House and Congress support them 
fully.
    But, even with the best intentions and dedicated hard work of the 
Administrator and his talented NASA team, these budgets will appear to 
most of America, including the U.S. space industry, and to the world as 
`business as usual'. Unless the U.S. space plan is realistic, unless 
the Administration matches its rhetoric with estimated overall costs 
and an adequate budget, a false promise could do harm to our space 
efforts, dash the expectations of girls and boys who decide to become 
scientists and engineers in order to be a part of an exciting future in 
space, and seriously damage our credibility as the world's leader in 
space exploration and science.
    I strongly urge the Administration and Congress to work together to 
look at several out-year budget scenarios and compare the objectives 
and milestones--for human exploration and for science--under each. It 
may well be that the Nation has the capacity, given sufficient funding, 
to make progress at a much faster pace than the plan has proposed, 
especially with serious international engagement and cooperation and 
making use of decades of NASA's experience, R&D, and promising new 
technologies and systems ready to be employed. It may be that the risks 
of terminating the Shuttle program before having an alternative means 
to put humans in space are too great to justify this step. There are 
likely to be scientific opportunities on the horizon that are so 
compelling that they will warrant additional funding. Thus, developing 
accurate cost estimates and corresponding objectives and milestones for 
various phases of the initiative along with a transparent set of agency 
priorities is essential. There are several questions one might ask:

        What are the estimated total costs of completing the 
        construction of the Space Station and annual operating costs 
        beyond that; the development, testing and commissioning of the 
        new Crew Exploration Vehicle; robotic missions in preparation 
        for a return to the moon; and the first human return to the 
        moon and back? How will the $11 billion be reallocated within 
        NASA's budget? What changes will be made to the rest of NASA's 
        programs, especially the science programs, and with what levels 
        of funding? What are the estimated costs of funding Russian or 
        other non-U.S. flights to the Space Station after the Shuttle 
        is phased out?
Conclusion
    Mr. Chairman, I believe that the three goals outlined in the 
current Administration's space plan are ambitious and worthy of serious 
consideration. And, as I have indicated, I would add a very important 
fourth goal: to strengthen NASA's science program. However, the 
architecture of the President's plan and overall cost have not been 
provided; and the five-year budget proposed to begin to accomplish 
these goals, in my opinion, is unrealistic. Hence, the Administration's 
commitment rings hollow, inviting cynical criticism of the seriousness 
of the plan from our international space partners and from the American 
public as well. It is disappointing that two weeks after the 
President's speech on space, none of the words ``space'', 
``exploration'', or ``science'' appeared in the President's state of 
the union message.
    The nation needs to be clear about why we have humans in space. We 
need a renewed vision and serious plan for space, especially as our 
Shuttle fleet continues to age and as we complete the International 
Space Station. But, that vision must be more than a dream. The 
President has provided a part of a vision; but he has not provided the 
architecture or the means.
    I would support real increases in the NASA budget, perhaps even 
larger than 5 percent per year. But along with that growth, NASA must 
be held accountable for the major reorganization that will be required 
and protection of its scientific programs, that are so important to the 
future of the Nation. And the White House and the Congress will need to 
support the efforts of the NASA Administrator to do those things.
    Therefore, Mr. Chairman, I commend this Committee for holding these 
hearings, listening to a wide range of views, and working with NASA, 
the Administration and other in Congress to insure that we do not miss 
this window of opportunity to move the Nation into a bold new direction 
for space science and human exploration of space.
    Thank you, Mr. Chairman.

    Senator Brownback. Thank you, Dr. Lane.
    Dr. McCurdy, welcome.

    STATEMENT OF DR. HOWARD E. McCURDY, PROFESSOR OF PUBLIC 
                  AFFAIRS, AMERICAN UNIVERSITY

    Dr. McCurdy. Mr. Chairman, thank you for the opportunity to 
come before the Committee and share my insights into NASA, as 
an institution.
    If this initiative is taken seriously, it will have a 
transforming effect on NASA, as an institution. To put that in 
context, think of the situation that existed in May 1961, when 
President John F. Kennedy set out the goal of landing humans on 
the Moon, returning them safely to Earth, and doing that by the 
end of the decade. At that time, there wasn't anybody in NASA 
who knew how to do it. NASA lacked the capacity to manage large 
projects. They didn't have the necessary technology. They 
didn't have the infrastructure. They didn't have the personnel. 
And yet, 8 years later, Americans returned safely from the 
Moon. In a similar sense, this event challenges NASA in deep 
and profound ways.
    Can it be done? Well, in theory, yes. Think of the Apollo 
objective in this way. The Apollo objective had not just one 
objective, but two. The first was to accomplish the technical 
objective of taking humans to the Moon and returning them 
safely. But the Administration and the Congress also imposed a 
second requirement, that it be done within 8 years, a severe 
schedule constraint that led to all sorts of technological 
advances and decisions within the space program.
    Now, in a similar way, this objective asks NASA to do two 
things. It asks NASA to send humans and robots to the Moon and 
Mars, not on a schedule this time, but within severe cost 
constraints; in essence, to do it for about what the agency 
receives today in its annual budget. In the 1960s, NASA was 
able to accomplish the twin goals of reliability and schedule. 
And now it's being asked to accomplish the twin goals of 
reliability and cost.
    Is NASA, as presently constituted, capable of doing this? 
In my opinion, it is not; at least not on the human spaceflight 
side. This will be a transformational event for NASA if it 
carries it out. NASA has suffered terribly over the past 30 
years from the drift that's been imposed on the human 
spaceflight program. And you can also learn, by examining the 
work of the Columbia Accident Investigation Board, that there 
are difficulties within NASA's human spaceflight culture. It's 
not the same agency that existed in the 1960s. So these are 
things that will have to change in order for NASA to be able to 
do it.
    Do the seeds of this reform exist within NASA? Well, I 
think they do, historically, but there's no guarantee that 
they're likely to grow and flower, in two areas in particular. 
First, there is still the memory of the Apollo years and the 
techniques that were used at that time. And, second, great 
advances have been made in the robotics programs over the last 
30 years. We're not just going to learn, from the robotics 
program, how to fly machines; but we're going to learn, from 
the robotics program, how to manage programs that are low cost.
    Consider this. The current Spirit/Opportunity Mission Mars 
is costing one-fifth of what we spent to send two Viking 
landers to the surface of the planet in 1976. Great advances in 
technology have been made, but also great advances in 
organization.
    So I would suggest to the Congress, if you're asking the 
question, ``What can you do to help NASA make this 
transformation,'' that as much as possible, you learn from that 
experience and impose it on NASA. I'll give you a couple ideas, 
and there's more in my written testimony.
    One, make cost a goal. Make it a goal in the same sense 
that President Kennedy made schedule a goal in the 1960s. We 
know, from the robotics program, that when NASA has such goals, 
it can hold to them and accomplish them. That's been proven 
with Spirit, with Opportunity, with Pathfinder, near-Earth 
asteroid rendevous, and other areas, as well.
    Second, restore NASA's in-house technical capability. This 
may mean much more extensive in-house construction of 
spacecraft. Frankly, good scientists and engineers don't stay 
sharp by monitoring government contracts; they stay sharp by 
working on the hardware itself.
    I'd also suggest that you look to the robotics programs, 
and also to areas in private industry where industrialists and 
government employees have developed very small teams that are 
able to complete complex projects under severe cost 
constraints. It's not necessary to recreate Project Apollo. 
Project Apollo worked because NASA imported, from the U.S. Air 
Force, techniques known as systems management. In the same way, 
if it's going to make these new initiatives work, they will 
need to import, from industry and from their own robotics and 
space science areas, low-cost techniques that have been 
developing over the past 10 to 20 years. There is an experience 
base there.
    So can NASA do it with its present organization and 
institution? I think not. But does history give us confidence 
that it could transform itself in such a way that this would be 
possible? And I think that's true. If, 20 or 30 years from now, 
humans stand on Mars, and robots with them, NASA will no more 
resemble the institution that exists today than the NASA of 
1969 resembled the NASA of 1961.
    Thank you.
    [The prepared statement of Dr. McCurdy follows:]

   Prepared Statement of Dr. Howard E. McCurdy, Professor of Public 
                      Affairs, American University
    I am not here to give my personal views on the desirability of 
undertaking the space flight initiatives set out in the president's 
speech on January 14, 2004, refocusing the purpose of the Nation's 
human space flight activities. Rather, I will comment on whether the 
National Aeronautics and Space Administration (NASA) as presently 
constituted is capable of carrying out that initiative.
    In my judgment, based on eighteen years of studying NASA's 
organizational practices, it is not. The practices associated with 
human flight over the past decades have left NASA ill-prepared to 
undertake a focused exploration program, especially one that addressess 
the cost constraints imposed by the president's directive. Yet this 
need not cause despair. NASA employees have overcome similar 
difficulties in the past and Congress can encourage them to do so again 
in the future.
    In essence, my message is one of cautious optimism. Accomplishment 
of the mission is not possible with the NASA that exists today, but the 
fact that the agency has transformed itself in the past encourages us 
to believe that transformation can occur again.
Why NASA is Not Prepared
    For thirty-four years, a succession of leaders in the field of 
space exploration have called upon public officials to give NASA 
purpose and direction. As a science and engineering organization, 
relying upon project management techniques, NASA works best when the 
people implementing national space policy have a clear vision of their 
ultimate objective, the time available to accomplish those objectives, 
and the various constraints such as cost under which they must operate.
    From 1961 through the landings on the Moon, the human space flight 
program operated under such mandates. The purpose and timetable 
established in President John F. Kennedy's May 25, 1961, speech 
provided focus for America's civil space effort and imposed discipline 
on the new space agency.
    As Americans prepared for the lunar landings, NASA officials and 
other government leaders proposed to extend Kennedy's vision. Much like 
the current initiative, they called for a post-Apollo space effort 
focused on the moon and Mars, bolstered by an energetic space science 
program. The report of the Space Task Group was presented in September, 
1969, followed in later years by a succession of reports calling for 
much the same thing. In March, 1970, President Richard Nixon rejected 
the report of the Space Task Group, thereby initiating three decades of 
drift in which leaders of NASA's human space flight program were 
obliged to operate without long-term focus and direction.
    In response, leaders of the space community adopted an incremental 
approach to human flight. They pursued elements of their long-range 
vision in succession, one at a time, without reference to an 
overarching goal. First they sought to complete a reusable space 
shuttle, originally conceived as a means of transferring people to and 
from an Earth-orbiting space station. Then they started work on the 
space station. As the date for declaring the space station ``core 
complete'' approached, NASA officials requested permission to pursue 
the next logical step in their long-remembered but never-approved long 
range plan.
    Thirty years of incremental drift have had a dysfunctional effect 
on NASA's human space flight effort. Without a long-term goal to 
provide purpose for new human flight initiatives, NASA officials and 
their supporters have been obliged to create broad political coalitions 
as a means for getting new initiatives approved. The programs emerging 
from these coalitions have contained so many objectives that NASA 
officials have accomplished few of their specific goals.
    The NASA space shuttle, for example, was designed among its many 
objectives to carry people to and from an Earth orbiting space station, 
transport the components of that station to space, serve as a ``space 
truck'' for commercial payloads (some carrying upper stage rockets 
attached to payloads headed for geosynchronous orbit), deliver military 
reconnaissance satellites, deliver and repair (and possibly return) 
space telescopes, and serve as a short-duration micro-gravity research 
laboratory. The shuttle fleet had to be reusable, capable of launch up 
to 50 times per year, and cut the cost of launch operations to about 
$10 million per mission.
    As members of the Columbia accident investigation board observed, 
the existence of so many conflicting objectives severely compromised 
NASA's ability to build a safe and reliable vehicle. ``The increased 
complexity of a Shuttle designed to be all things to all people,'' 
board members wrote, ``created inherently greater risks than if more 
realistic technical goals had been set at the start.'' The most serious 
mistake that NASA officials made in developing the vehicle dealt not 
with the design of any particular component, ``but rather with the 
premise of the vehicle itself.'' (CAIB report, p. 23)
    NASA officials undertook a similar approach to the design of the 
International Space Station. They appealed to astronomers, people 
interested in space science, advocates of a return to the Moon, 
commercial interests hoping to manufacture micro-gravity products, 
communication satellite companies, international partners, and the U.S. 
military. Early space station designs included hangers for satellite 
repair, micro-gravity research laboratories, mounts for observational 
instruments, pallets for scientific instruments, and two large keels 
within which large spacecraft bound for deep space missions could be 
prepared. Further confounding these objectives, NASA officials 
estimated that they could develop such a multi-functional facility for 
only $8.8 billion.
    Space station advocates learned that the political coalitions 
necessary to win approval for such initiatives were much easier to 
construct than the actual facilities. While attractive for building 
political support, the various station functions proved technically 
incompatible and impossible to develop within the proposed cost. As a 
consequence, NASA officials spent the entire ten years set for 
construction of the station (1984-1994), as well as the $8.8 billion 
cost estimate, redesigning the facility and reducing its scope.
    For thirty-four years, officials in the human space flight 
community have urged political leaders to adopt long-range space goals. 
Yet NASA officials during this period grew accustomed to the practices 
necessary to operate in an objective-free atmosphere. The effect of 
this cultural shift was readily apparent in the agency's response to 
President George H. W. Bush's 1989 proposal for a human Space 
Exploration Initiative focused on the Moon and Mars. Following the 
proposal, White House officials directed NASA to prepare an enabling 
plan. The study that agency leaders produced disappointment. To people 
outside NASA, the study seemed more like an exercise designed to 
protect existing agency programs and restore the health of ailing field 
centers than an opportunity to renew the long-term vision of space.
    NASA officials treated the Space Exploration Initiative as a 
healing balm, an ointment applied to the institutional members as a 
means to get well again. If NASA officials take a similar approach to 
the current Mars initiative, with its severe cost constraints, it will 
produce a similar result. The initiative will certainly die.
    During the period of institutional drift, NASA underwent additional 
changes that similarly compromised its capability to carry out complex 
human space flight activities in a reliable way. These alterations are 
well documented in the reports of the presidential commission that 
investigated the space shuttle Challenger accident and the Columbia 
Accident Investigation Board. Briefly stated, the reports concluded 
that NASA's organizational culture had changed in detrimental ways. The 
agency had gone from an institution capable of meeting its goals to one 
in which human space flight officials struggled to achieve reliability, 
cost and schedule objectives which the agency operated.
    Cultures consist of the assumptions that people make as they go 
about their work. As a illustration of how much the NASA human space 
flight culture has changed, consider the follow point. NASA officials 
and their contractors in the early decades of space flight operated 
under the assumption that the agency would not launch a spacecraft 
until its designers could prove that they were ready to fly. In both 
the Challenger and Columbia accidents, NASA officials required 
concerned individuals to prove that spacecraft were not ready to fly 
(or land) in spite of visible safety concerns.
    Organizational practices such as these take root over many decades. 
Similarly, reforms require many years to become imbedded in the minds 
and habits of agency employees. Organization cultures take a long time 
to change. They deteriorate slowly and they revive themselves only 
after lengthy adjustment periods.
Hope From History
    Confrontations with reality need not be a source of despair. In 
fact, the first step toward institutional recovery consists of 
acknowledging the situation as it exists. NASA's human space flight 
effort has existed without focus and discipline for more than thirty 
years, leaving a legacy that will be difficult to change. Yet this is 
not impossible. It has happened before and it can happen again.
    In the Spring of 1961, when President Kennedy challenged Americans 
to race to the Moon, NASA was totally unprepared to carry out the 
mandate. Congress had created NASA three years earlier by melding the 
research laboratories within the National Advisory Committee for 
Aeronautics (NACA) with agencies like the Jet Propulsion Laboratory and 
the Army Ballistic Missile Agency (ABMA). People from component 
agencies had great technical skill, but absolutely no experience 
managing activities on the scale of Project Apollo. They were 
accustomed to managing small research projects, not large-scale 
operations. The institutional habits of people who had inhabited the 
forty-three year old NACA were well set, as were the practices of 
employees working within the ABMA under Wernher von Braun's rocket 
team.
    NASA officials at that time did not understand how to manage large 
programs. They did not have enough people; they did not have enough 
money. Existing field centers were independent and uncooperative. The 
United States lacked the technology to fly to the Moon. No American 
astronaut had ever flown in orbit, much less engaged in rendezvous and 
docking. No one knew how to get to the Moon and back. Leading 
strategies such as Earth Orbit Rendezvous and Direct Ascent were either 
technically infeasible or impossible to complete by the decade's end. 
When he made the suggestion that the agency concentrate all of its 
resources on accomplishing the lunar goal, NASA's head of human space 
flight was fired for what was then viewed as intemperate remarks.
    Yet eight years Americans returned safely from the Moon. During 
those eight years, NASA reorganized itself twice, forcing the leaders 
of previously independent field centers to submit to a central 
coordinating office in Washington, D.C. To oversee Project Apollo, NASA 
officials imported management experts from the Air Force ballistic 
missile program, the primary repository of people who understood large-
scale systems management. NASA employees and their contractors 
perfected new technologies, such as hydrogen-fueled rockets and orbital 
rendezvous. They revised organizational procedures after the loss of 
three astronauts in a space capsule fire during a launch center ground 
test, a critical exercise in institutional learning. Like the current 
Administrator, the person who oversaw NASA during this period was an 
expert in management and finance. Neither an astronaut nor an engineer, 
James Webb was a budget director and President of the American Society 
for Public Administration.
    President Kennedy's May, 1961, speech was a transforming event. It 
transformed NASA from an agency of technical experts into an 
institution capable of implementing extraordinarily complex space 
flight activities. The lessons learned through human space flight 
quickly spilled over onto the space science side, where individuals 
carried out the great planetary and space telescope missions of the 
decades that followed.
    Recently, NASA has transformed its space science activities. Space 
scientists have not suffered through the same drift that afflicts human 
space flight activities. Space science missions have been focused; 
objectives more apparent. Technology advances in areas such as imaging 
and automation have occurred. New management techniques have been 
perfected, some significantly different than the large-scale systems 
management practices that propelled the success (and the cost) of 
Project Apollo.
    Consider this fact as an illustration of the transformations 
occurring in space science. Stated in the inflation adjusted value of 
today's dollars, the 1976 Viking mission to Mars cost $4 billion. For 
that sum, NASA successfully placed two landers on the surface of Mars. 
The Mars Exploration Rovers that arrived this January, 2004, are 
carrying out their missions for $820 million. Even acknowledging that 
funds for Project Viking also purchased two orbiters (total cost in 
today's dollars about $800 million), the difference is dramatic. NASA 
space scientists have learned how to fly for a fraction of the cost of 
previous endeavors, using technologies that have advanced enormously.
    In searching for the means to mobilize an aggressive exploration 
program on Mars, NASA officials can turn to themselves for the 
necessary experience. The lessons exist within the agency, both today 
and historically. The Apollo flights to the Moon cost $25 billion in 
the currency of the time. That translates into a total cost of 
approximately $175 billion today. During the 1960s, NASA officials were 
told to achieve reliable space flight in a crash program with an 
impossibly tight schedule. For the current initiative, government 
leaders propose to loosen the schedule and the milestones associated 
with it, but to operate under severe cost constraints. In practical 
terms, NASA officials are being asked to fly reliably to the Moon and 
beyond for a fraction of the cost of Project Apollo.
    On its face, the task may seem impossible. Nonetheless, NASA 
officials have encountered similar challenges in the past and 
prevailed. They overcame analogous difficulties in the 1960s and they 
have achieved low-cost innovations in their robotics and space science 
programs.
Lessons for the Future
    Although NASA employees are allowed a great deal of technical 
discretion in carrying out space flight programs, they do not operate 
in a vacuum. They respond to the nature of national space policy and 
the guidance they receive from Congress and the White House. The 
transformation of NASA's human space flight activities will require a 
number of important changes, ones that can be encouraged by congress 
and the executive. In general, transformation will require NASA to 
become more like the agency that sent Americans to the Moon and robots 
to Mars and less like the agency that fumbled the development of the 
space shuttle, International Space Station, and Space Exploration 
Initiative. It will require the installation of cost discipline, the 
resurrection of a culture of reliability, the restoration of discipline 
and focus, and the merging of robotic and human capabilities. These 
will be major changes, wide in scope and particular in detail.
    To encourage the transformation of NASA, members of Congress might 
consider the following practices.

  1.  Be very clear about goals. Mission ambiguity and wiggleroom are 
        the enemies of discipline and focus within NASA. For example, 
        the mission as contained in the presidential directive does not 
        seem to include a lunar base as an intermediate step to Mars. 
        The moon is to be used only insofar as it contributes to the 
        exploration of Mars, as a test bed or proving ground for deep 
        space technologies. Additionally, the purpose of the program is 
        not to land humans on Mars. Rather, the purpose as expressed 
        thus far is the exploration of Mars using humans and robots. 
        Experience tells us that the optimal mix of robotic and human 
        flight technology is likely to change significantly as the 
        mission evolves, discouraging a definition that presupposes a 
        specific role for humans in advance.

  2.  Make cost constraint a mission goal. During Project Apollo, 
        meeting the ``end of the decade'' deadline imposed an objective 
        as important to the definition of mission success as landing 
        astronauts on the Moon and bringing them safely home. The 
        deadline repeatedly served to focus attention on necessary 
        tasks; it strongly influenced technical decisions such as the 
        one to engage in ``all up'' testing of the Saturn V. In NASA's 
        robotic and satellite programs, cost constraint has risen as a 
        mission goal to a place commensurate with science objectives. 
        NASA employees have repeatedly demonstrated that they can 
        achieve multiple objectives--reliability plus cost or schedule 
        goals--so long as those objectives are clearly stated.

  3.  Restore in-house technically capability to the human space flight 
        program. NASA's secret weapon for completing Project Apollo 
        arose from a combination of strong in-house technical 
        capability with systems management techniques imported from 
        outside. Many people agree that NASA has lost too much of its 
        in-house technical capability, especially for human space 
        flight. Agency employees who spend most of their time 
        monitoring contracts cannot maintain the technical edge 
        necessary to explore Mars. To produce outstanding results, they 
        need to work with flight hardware. This has been demonstrated 
        repeatedly in both the human and robotic flight programs, most 
        recently within the Mars exploration effort. Successful 
        missions, such as Pathfinder, have been led by persons with 
        extensive ``hands on'' knowledge of spacecraft components. 
        Experience suggests that 30 percent of the work (and money) 
        associated with the program should be retained in-house.

  4.  Insist that NASA keep the program as simple as possible. When 
        complexity rises, so do overall costs--often exponentially. 
        Complexity can arise from demands for international cooperation 
        or the desire to spread work among many field centers. These 
        demands are often irrelevant to mission objectives. Complexity 
        can also result from the extensive use of formal systems 
        management techniques. While these techniques are useful for 
        promoting reliability, they are being supplanted in government 
        and industry by leaner project teams whose members utilize less 
        complicated forms of management. These management reforms, used 
        on Project Pathfinder, the Near Earth Asteroid Rendezvous 
        mission, and the Mars Exploration Rovers, allow project leaders 
        to meet technically challenging mission goals while severely 
        restraining mission cost.

  5.  Reward NASA officials when they make tough decisions. The 
        restoration of focus and discipline will require difficult 
        choices affecting existing installations and future programs. 
        The recent history of human space flight suggests that agency 
        officials may be reluctant to undertake needed change. 
        Obstacles to change, moreover, may be more difficult to 
        surmount than ones encountered in the past. The people managing 
        Project Apollo built an organization from the ground up, 
        expanding NASA's budget five-fold and its internal workforce by 
        a factor of three. Proprietors of the current mission must work 
        with an agency that will not be allowed to grow. If they sense 
        that they are being punished for hard decisions, they may be 
        reluctant to undertake needed change.

    When planning for Project Apollo got underway in 1961, many of the 
participants had strong views about the mission. Some wanted to build 
orbiting space stations, and suggested that the expedition leave from a 
rendezvous point in low-Earth orbit. Others wanted to build enormous 
rockets, and recommended a strategy called direct ascent. Different 
centers wanted to be involved in different ways. An engineer from 
NASA's Langley Research Center tried to explain that America could not 
reach the moon by the end of the decade unless it utilized a spacecraft 
that remained in lunar orbit while two astronauts piloted another 
vehicle to the surface of the moon.
    At first, the idea seemed preposterous. The United States had not 
conducted a successful rendezvous in Earth orbit, much less one around 
the Moon. More significantly, the idea upset the plans of people with 
different agendas. The engineer persisted. ``Do we want to get to the 
Moon or not,'' he asked. The question silenced critics. The discipline 
of the mission forced people to forgo vested interests and work toward 
their common goal.
    In a similar fashion, vested interests must fall if people in the 
space community seriously pursue this new goal. If they do, this new 
objective will be a transforming event, just as other great objectives 
were before it. If and when the United States completes the missions 
set out this year, the agency that does the work will bear little 
resemblance to the agency that exists today--just as the institution 
that landed humans on the Moon in 1969 hardly resembled the agency that 
received President John F. Kennedy's famous challenge in May, 1961.
    Dr. Howard McCurdy is professor of public affairs and chair of the 
public administration department at American University in Washington, 
D.C. An expert on space policy, he recently authored Faster, Better, 
Cheaper, a critical analysis of cost-cutting initiatives in the U.S. 
space program. An earlier study of NASA's organizational culture, 
Inside NASA, won the 1994 Henry Adams prize for that year's best 
history on the Federal Government. He has also written Space and the 
American Imagination and co-edited Spaceflight and the Myth of 
Presidential Leadership. His work appears in scholarly journals such as 
Public Administration Review and Space Policy. He is often consulted by 
the media on public policy issues and has appeared on national news 
outlets such as the Jim Lehrer News Hour, National Public Radio, and 
NBC Nightly News. Professor McCurdy received his bachelor's and 
master's degree from the University of Washington and his doctorate 
from Cornell University.

    Senator Brownback. I hope it's not 20 or 30 years before we 
have people standing on Mars, that it's much sooner than that.
    Thank you very much, Dr. McCurdy, for your testimony.
    Mr. Tumlinson? Welcome back.

           STATEMENT OF RICK N. TUMLINSON, FOUNDER, 
                   SPACE FRONTIER FOUNDATION

    Mr. Tumlinson. Thank you. Senator Brownback, Senator 
Hutchison, underappreciated staffers----
    [Laughter.]
    Mr. Tumlinson.--I am really thrilled to be back here.
    [Laughter.]
    Mr. Tumlinson. A few months ago, I sat in this room. I made 
one prediction, that sometime this year an American would fly 
in space, they wouldn't be a government employee, and they 
wouldn't do it on a government vehicle. I'm happy to say that 
the same day that America was looking backward at the Wright 
Brothers' demonstration, famed aircraft designer, Bert Rutan, 
broke the sound barrier with his prototype rocket vehicle. That 
prediction is on track, and I stick by it, at this point.
    At the same time, I continued a call that we had been 
making for many years in the Space Frontier movement, that we 
return to the Moon, that we scuttle the Shuttle, that we move 
away from the Space Station, and that we set our sights on 
Mars, with the goals of permanent human settlement.
    For many years, by the way, the Space Frontier Foundation 
has been holding Return to the Moon conferences. Our fifth will 
be this summer. I wish the Senator from Nevada were here, 
because it's going to be in beautiful downtown Las Vegas, 
which, by the way, is a city that couldn't have been created by 
robots.
    I want to agree with the last speaker, that, as currently 
constituted--by the way, I should say, strangely I was invited 
to the President's remarks. I sat about 20 feet away from him 
while he made the announcement, and I looked in my fellow 
Texan's eyes, and I studied him for the entire speech. I 
believe that he believes what he was saying. I believe that he 
was sincere about it. What I have difficulty with is how we 
will realize it. And I agree with the last speaker, that NASA, 
as currently constituted, cannot pull this off.
    Forget the Moon, forget Mars, forget the space frontier out 
there. The greatest frontier facing NASA right now is itself. 
NASA is caught in a self-perpetuating loop of cultural 
traditions, inefficiencies, and systems that maximize waste and 
cost.
    I want to give you an example. This is a carabiner. It's a 
little device that mountain climbers use around the world every 
day. They hang from them, they trust their lives to them. 
Astronauts also use these same devices to tether themselves to 
the Space Station. Now, you can go to REI or sporting goods 
shops and buy this device for about $20. NASA, on the other 
hand, pays roughly somewhere over a thousand dollars for this 
same object right now.
    Now, why is that? It's not a case of some company ripping 
off NASA; it is a system of cost-plus rewards; it is a system 
of paperwork, rather than products; it is a not-invented-here 
mentality and a distrust of the private sector to provide such 
goods. The person who sells this to NASA has to create a stack 
of paper that takes weeks and weeks to fill out, that goes all 
the way back to the smelting and the origin of the metals that 
are put in this.
    Now, the maximum load that is probably put on this device 
in space is around 50 pounds possibly, maximum a couple of 
hundred pounds. The REI version of this is rated at 6,500 
pounds. This is the kind of thinking that has to change, or we 
will not be able to return to the Moon and go on to Mars for 
the budget or timescale that we're talking about.
    We have to also move away from this distrust of the private 
sector that is out there, the mounds of paperwork that are 
required, the sorts of flaming hoops that the private sector is 
required to jump through, and the mindset that the private 
sector exists to serve as contractors for the government, 
rather than being a coequal partner in the opening of space.
    If we are to return to the Moon and move on to Mars, and 
make it permanent, and not make it a flag and footsteps 
mission, it has to be an economically viable exercise. It can 
only be economically viable if profits and rewards are returned 
to our society. And those can only be realized by maximizing 
the creation of goods and services, and those are traditionally 
carried out in our society by the private sector.
    We have to have an integral relationship with the private 
sector from day one; not only an exit strategy that says NASA 
is moving to the Moon to learn to go to Mars, and the moving 
out--which can be shown by, let's say, leasing facilities on 
the Moon, rather than building them and owning them--because, 
by the way, being on the Moon, and operating a building on the 
Moon, and driving trucks to and from the Moon, will be as 
boring as it is driving to and from LEO eventually. NASA has to 
move on to Mars and keep going, where there are--and, by the 
way, Mars has a lot more exciting vistas than the Moon will 
provide. I'm not saying we're going to end up with a great 
civilization on the Moon. The civilization will occur on Mars 
and the worlds in between. Industry, the growth, the 
experimentation, the learning will occur on the Moon, and then 
we will move on.
    I want to see NASA focus--by the way, one of the first 
places that we can get involved with the private sector is, 
shall we say, the entrance strategy, wherein the private sector 
is involved from day one in these plans, the private sector is 
involved in carrying astronauts from Earth to space. NASA's 
mission used to begin in the Earth and then go into space. No, 
NASA's mission now begins in space and goes to space. The idea 
that somehow the crew exploration vehicle is a new thing, as 
opposed to a magic wand waved over the orbital space plane, and 
turned it from a two-door into a station-wagon, is really the 
kind of thinking we're dealing with. They're going to go back 
and roll out the same projects they had before.
    I want to see change. I want to see dramatic change occur. 
I want to see NASA do prizes, let's say, early data 
acquisition. If ``prizes'' is not a good word, let's call them 
contingency contracts. Put out $50 million for a photo map of 
the South Pole of the Moon, which is probably where we're going 
to put our facility, and offer a two-year time limit and see if 
a private company can do something in that time, and return 
those images. We'll save a lot of money, we'll mobilize a lot 
of private-sector activities, and we'll create a lot of 
excitement out there in the world, competitive excitement.
    I want to see this all happen. And if we're going to 
inspire and create our excitement in our children, we have to 
quit going in circles; we have to go somewhere. We have to go 
fast, we have to go hard. We don't have to spend our time 
developing the absolutely highest tech, most expensive machine 
to get there. We've got to use what we've got. We've got to 
live off the land. Put the urgency and danger and joy of 
discovery together, and people will pay attention and support 
the program. Explore. Shine a light into a lava tube on the 
Moon. Dig for water in the Aitken Basin, and show us how to 
turn it into rocket propellent. Launch rockets off of the Moon. 
Go to Mars. Show the live camera shot from the helmet of the 
first woman to look into the Valles Marineris live on Earth. 
You want to see excitement that beats what we just saw with 
these robots? Let's do that.
    And, for good measure, don't deny that people will die--
given the anniversaries we're dealing with, that's a relevant 
point--or act surprised when it's going to happen. Let's make 
that risk a part of the message. Drop the obsessive lip service 
about safety, and let's actually do something about making 
things safe. Let's assure that NASA and our people in space are 
doing their best to be safe and adopting serious procedures to 
avoid death. But let's say, up front, that people will die on 
this quest. We know it's going to happen. Let's be aware of it 
and make it a part of it.
    And once we're back on the Moon, let's not stop. It's just 
as boring, as I said, for NASA to be operating buildings there 
as it is to orbit the Earth round and round. Keep them going, 
moving ahead. The Lewis & Clark function, and I appreciate you 
saying that earlier. Let's send them over the hill, tell us 
what's there, but the settlers and shopkeepers move in after 
them and continue expanding the bubble of human life beyond the 
Earth. That is an exciting agenda, and that is an agenda that I 
think we can achieve and sustain.
    Thank you.
    [The prepared statement of Mr. Tumlinson follows:]

           Prepared Statement of Rick N. Tumlinson, Founder, 
                     The Space Frontier Foundation
    Mr. Chairman, members of the Committee,

    Just a few months ago I sat in this same room, calling for the 
United States to return to the Moon, as I and many in the space 
frontier movement have been doing for over twenty years. We in the 
Space Frontier Foundation have been calling for NASA to retire (or 
scuttle) the space shuttles, get out of Earth to LEO human and payload 
transport, and open the space station to commercial activities. We have 
also been calling for this Nation to redefine the relationship between 
the government and private sector space activities, so that a new 
partnership might be created which would lead to a vital and growing 
human frontier in space stretching from the Earth to the Moon and 
beyond.
    A few weeks ago, I was privileged (and somewhat surprised, given my 
long history of criticism of our national space program) to be invited 
by the White House to attend the President's announcement that this 
Nation would indeed be returning to the Moon. As you can imagine I was 
pleased to hear that our message had been heard.
    Ladies and gentlemen, I sat just a few feet from the President as 
he made his historic announcement, just as some of you did. And I 
looked into the man's eyes as deeply as I could during the whole 
speech. I believe he means what he is saying. I believe he truly wants 
us to begin opening space to the American people, to establish this 
Nation permanently on the Moon and from their to catapult ourselves to 
the planet Mars and beyond.
    I am not so naive as to be unaware of the political aspects of his 
announcement, dropped into the middle of the primary season of the 
opposing party, nor the positive note it adds to his own candidacy for 
re-election. But I am also aware of the downside of making such an 
announcement in a campaign year, especially at time when many who 
oppose his policies will be automatically pre-disposed to attack the 
ideas he spoke of, simply because they came from his mouth. Just as if, 
were he to say the sky is blue, his opponents would immediately argue 
that it is not. So to be honest, there is both an up and a down side to 
his timing. In fact, a part of me wishes he would have waited until 
after the elections, as I do not wish to see the Democratic party make 
a knee jerk reaction that rejects the core concepts of his proposal.
    The fact that this plan is designed to begin with small incremental 
down payments that grow like the balloon payment on a home mortgage in 
the years after he leaves office also does not go unnoticed. But I can 
attribute this to the desire to make the idea a bit easier to swallow 
now, and is based on his confidence that our national economy will be 
able to handle such costs when the bill comes due. Even with major 
growth in our national space budget, the numbers spoken of are much 
smaller than the relative cost of our first push to the Moon was to our 
over all GDP.
    I think the timeline is too slow--after all we went to the Moon 
from an almost standing start, developing three or four new launchers 
(if you count the LEM) and did it all in 7 years over 35 years ago. 
Let's get some challenge in there! It will help to focus and drive our 
space program. Also, I believe International partnering should not be 
based on State Dept. motives, but who can do the best work in a given 
area at the best price. International deals are done every second in 
the private sector on just such a basis.
    Finally, the real private sector MUST be involved early on, not as 
a show, not as an after thought. If the Moon base is to turn into a 
settlement or community, it has to be designed to do so from day one. 
For example, as I discuss below, after the scouting and base camp 
phase, it would be good to see something along the line of NASA 
offering to rent X square feet of the buildings for X number of years 
or some such scheme that builds in the idea that NASA is not trying to 
yet again take on more facilities and overhead, but is just passing 
through on the way to Mars.
    However, overall, I am supportive of the concept as outlined in his 
speech.
    The Moon, Mars and the asteroids that float between the worlds of 
our solar system do indeed represent the future of humanity. It would 
be pure ignorant hubris to declare that we should not expand our 
species and the domain of life beyond this Earth, much like the 
declarations of a serf in medievil Europe proclaiming that the world 
ends just beyond the boundaries of his own village. Similarly, there is 
the short term thinking that leads to the conclusion that somehow 
science and the advancement of knowledge will somehow be damaged by the 
growth of human activities in space. As if the exploration and 
settlement of this new world where we sit today somehow held back the 
march of scientific progress, rather than driving our advancements and 
understanding of ourselves and the universe forward at a pace unknown 
before our ancestors struck out into the unknown. We are truly just at 
the bare beginnings of the story of humanity and the life forms of the 
Earth. And we stand poised to take bold steps outwards--if we can do so 
wisely, economically, and for the right reasons. Those reasons are as 
wide and varied as those who look at the Moon and stars at night and 
feel their calling. Many speakers have laid out the possibilities, from 
Dr. Paul Spudis, who sang of the possibilities offered by the Moon, to 
Dr. Rober Zubrin, who waxes poetic about the vast vistas available to 
us on the planet Mars, Dr Gerard O'Neill, my mentor, who created a 
vision of humanity spreading out in colonies of glass and steel in the 
space between worlds.
    All of these visions can be made real. All of the benefits to us 
these men have spoken of are real, as are a thousand more they could no 
more imagine than those who first came to this new world could imagine 
that the land they were exploring for gold and glory would give the 
world the Bill of Rights, the Constitution, and an ongoing revolution 
in thought, science and medicine that has completely transformed our 
human civilization.
    And therein lies the big question. Does the President's proposal 
leads to the Real opening of the frontier--by which I mean the 
expansion of the human domain beyond the Earth? Not outposts, not 
stations, not laboratories, but economically viable and growing 
communities of human beings that can eventually become new branches of 
our civilization. For if that is not the end point of this exercise, 
then, as some in our science community have said repeatedly, we should 
send robots instead. Also, if this endeavor is to be led by and for the 
government, and the above is its litmus test for success, it will fail. 
Government's do not open frontiers. People do--with the assistance of 
their governments, and sometimes in spite of those same governments.
    To succeed Every possible way to produce value (Include scientific 
value as well as economic) must be combined. If those two elements are 
then put into an equation, and the end result is positive or can be 
projected to turn positive we have a winner. If not, we have a negative 
cash/value flow and a loser. (NOTE--None of these elements was 
considered or kept on the table for ISS!)
    --Put giant KISS! (Keep It Simple Stupid!) posters everywhere, in 
all centers and offices. Give rewards for designs and ideas that go 
that way instead of the high tech, over specialized direction. For 
example, Rutan trumpets the fact that his flyers are the lowest 
technology, most off the shelf he could build, and where possible, 
units and structures are duplicated (look at the shapes etc. of his 
carrier and sub-orbital elements--cast in the same molds). Learn the 
lesson and apply it to the Moon. If a Home Depot bolt will work, use 
it. If you can go with voltages, air pressures etc. that make things 
simpler, then do it. Save high tech for later . . .
    --Rather than designing the habs etc. themselves, NASA should stay 
Lewis and Clark--like and focus on such things as scouting expeditions, 
and an early base camp that is designed to be expandable. Then put out 
a call to the non-space community for facilities that are low cost, 
robust, low maintenance and modular or expandable on a larger scale. 
NASA and other agencies could then sign ten or fifteen year leases, 
indicating (in the case of NASA) they are not planning on squatting 
down on the Moon but are moving on. (not ISS redux on the Moon.)
    --So some NASA guy will look out there and say ``we can't find any 
firms engaged in the right kinds of activities or willing to partner 
with us.'' Duh. Talk about self-fulfilling prophecy. Of course not. You 
killed them all over the last thirty years, or trashed their ideas and 
killed off their investors, or supported your aerospace friends to the 
point you drove them out of business.
    The private sector has been so burned for so long by NASA in the 
past that they must be coaxed back into space. Sponsor events and 
meetings with people in the military, business and commercial research/
transport/life support communities and listen to them. Oil platforms, 
private diving bells and Navy subs, Hilton Hotels, airlines, all have 
lessons that can be transferred to this effort. The private sector has 
done a fair job of turning this New World into a permanent and 
expanding frontier. I bet they can help a little on the next one.
The International Space Station
    As we move forward to the Moon, the International Space Station 
should be transformed into a multi-faceted nexus for both government 
and private sector activities. Some of these activities will be in 
support of the Lunar effort, and some will not, but all will contribute 
to the development of a vibrant human presence in LEO.
    In his speech the President said:

        ``Our first goal is to complete the International Space Station 
        by 2010. . .finish what we have started.''

    Let me make a few important points:

    --Almost all the original goals laid out for the space station have 
already been abandoned. It needs to be redefined and the program 
totally reformed or this will not happen.
    --We are not in charge of the station. We have partners who are 
using it for their own purposes, and interestingly, many of those 
partners are moving quickly towards private sector dominance of their 
activities and areas on station--as should we.
    --As the agency is cutting back its level of participation, there 
will be other orbital facilities, including the first space hotel 
modules, if entrepreneurs such as the self-funded Bob Bigelow in Nevada 
are to be believed (and given his wealth, determination and the 
realistic basis of his plans as revealed so far I do believe him.) 
other firms are looking at modules that might attach at first to the 
ISS and then through a ``budding'' process become independent free 
flying facilities themselves. Remember, the Chinese will also be flying 
their own facility by that time. This all means that a community can be 
developed that will create an economics of scale, a mutual 
interdependence and back up capability in case of disasters and 
accidents. (See my 1995 Testimony to the House Space Subcommittee on 
the idea of ``Alpha Town'' the first community in orbit.)
    I used to be in favor of what I called an International Space 
Station Authority. This would have been a mechanism to wrest control 
from NASA and hand it to a more commercial friendly entity that would 
be less likely to play favorites when it came to which companies would 
provide services, establish the rule of law, set safety standards etc.
    As a great military strategist once said that the commander who 
cannot change his tactics based on changes on the field of battle is 
doomed to lose. Thus I have dropped the ISSA concept, since NASA is 
planning to divest its majority ownership one way or the other in the 
coming years.
    The future I see for the facility would be one wherein NASA's role 
would become that of a tenant, who's main focus is the preparation and 
experimentation it needs to plan missions to Mars. I would like to see 
the U.S. Government set up a management structure for the U.S. portion 
that would allocate NASA what it needs, and also open the rest of our 
ISS elements up to private sector use. This could mean anything from 
university operated labs and experiments to commercial research. Also, 
the new charter would allow and encourage the attachment of new 
modules, probably completely commercially owned and operated that could 
house experiments, and even accommodations for commercial guests such 
as future Dennis Titos (who I had the honor of signing up to fly into 
space a few years ago). Another commercial activity would be a 
construction shack and factory operated by commercial astronauts based 
on Dennis Wingo's on orbit assembly concepts. These space workers would 
be engaged in activities such as on-orbit construction of large space 
telescopes, antenna arrays, large space probes and even the ships to 
travel to Mars.
    One major idea would be to have the Hubble space telescope moved by 
an orbital tug to an orbit above the ISS, so that it could be lowered 
to the facility for astronaut EVAs to service it. The Hubble is far too 
valuable a resource to throw away, and NASA plans to do so are 
expensive, limited in vision and reveal a complete lack of 
understanding of the frontier ethic of keeping things low cost by re-
using and re-cycling whenever possible.
Space Transportation
    The President said:

        ``Our second goal . . . to develop and test a new spacecraft, 
        the Crew Exploration Vehicle, by 2008, and to conduct the first 
        manned mission no later than 2014 . . .''

    --I can see the SEV becoming the new OSP/X-33/NASP/X-38/etc.--a 
cash draining, show killing tech project. NO NO NO! if every element in 
the transportation part of the equation isn't low cost, robust and re-
usable or designed to become so ASAP, then let's quit now and go home 
as this project is DOA.
    --By the time NASA speaks of pulling out of its major role on ISS, 
there will probably be other players in the Earth to LEO transportation 
arena, so the support of ISS will not be a limited sum game. There may 
well be a wide array of possible Earth to Leo transportation 
alternatives. The private sector firms that make up what I call the 
Alternative or Alt.Space transportation firms will be well on their way 
to becoming full fledged orbital access providers--if the government 
can provide the regulatory and investment incentives they so 
desperately need if they are incentivised to cross from largely being 
sub-orbital or small payload orbital companies into the orbital game by 
prizes and multiple source pay for delivery services.
    --NASA must get out of the Earth to LEO business entirely. An 
astronaut's mission used to start on the Earth's surface. This will no 
longer be true. They will be able to ride into space on private 
vehicles, and NASA can save its time and funds working on the next 
leap--between planets. I know some think there will be an all-in-one 
vehicle developed for transit from Earth surface to these other worlds, 
but such a concept is ridiculous, short sighted and probably the most 
expensive way such movement can be accomplished. If one reads the 
President's policy carefully, and from a frontier perspective, the call 
for a crew Exploration Vehicle can be read as meaning a transporter 
that lives in space, and goes to and from destinations there, without 
returning to Earth itself. (A model that makes far more sense than 
carrying all of the hardware one would need for transits in and out of 
our atmosphere.)
    --The Near Frontier transportation system will need a re-fueling 
capability that can circumvent the incredibly high costs of bringing 
propellant up from the Earth's surface, and a port for flights to and 
from the Moon and eventually Mars. Paul Spudis and others have 
advocated mining Lunar elements at the poles of the Moon and using them 
to create ``space gas'' that can then be shipped down the gravity well 
and used to re-fuel all kinds of space craft, and satellites. I 
understand one might not wish to have a space ``gas station'' in close 
proximity to inhabited facilities, but it can be developed and 
constructed using ISS astronauts. The NASA institutional side of the 
facility could contract out services from the commercial team if needed 
for fueling their Mars ships.
    --I am also concerned that projects like the planned nuclear 
Prometheus vehicle and other high tech space-to-space elements will 
pace and slow down the program. This must not be allowed to happen. 
Stay simple at first. Get the first rope across the ravine, then work 
up to the foot bridge and then go for the super highway. Start 
development early though, so your needs intersect with your 
capabilities down the road. . .so to speak.
    As I discussed last fall, there is a growing alternative space 
movement there in America. Whatever NASA does or does not do, this 
community, which is investing tens of millions to develop new space 
vehicles and orbital facilities, will open the space frontier in its 
own way. While America turned its eye to the past at Kittyhawk this 
December, famed aircraft designer Burt Rutan's sub-orbital rocket ship 
broke the sound barrier in Mojave, California. Few noticed, and fewer 
understand what this means. But as I also noted in my previous 
testimony, the goal of flying the first non-government rocketship into 
space is on track to be realized before the end of this year. Elon 
Musk's SpaceX will be flying small payloads into orbit at a 
dramatically lower cost per pound than current government vendors 
within the same time frame, and at least a half dozen other firms are 
on track to cross the finish lines in this alternative space race.
    I mention this to let you know that there really are potential 
commercial partners out there beyond the current NASA contractors. The 
door to space is about to be blown wide open.
The Moon
    The President said:

        ``Our third goal is to return to the Moon by 2020.''

    Most of the comments I would make on this third element of his plan 
are contained in the following OpEd.
Return to the Moon--For the Right Reasons, in the Right Way (from an 
        editorial in Space News)

        ``We do this and the other things not because they are easy, 
        but because they are hard . . .''

    President John F. Kennedy--from his speech announcing Apollo.

    Any discussion of a permanent return to the Moon (RTM) must be 
centered on two over riding questions: ``Why?'' and ``How?'' The 
answers to each of those questions are interrelated and one affects the 
other. If we go for the wrong reasons we will fail. If we go for the 
right reasons and do it the wrong way, we will fail. And if we don't go 
at all, then we will have failed in a way that will send ripples down 
through the ages.
    There are many different answers to ``Why?'' They include: far side 
observatories to seek life on other worlds; studies of Earth's history 
by studying the Moon's surface and geology; near side Earth observation 
telescopes (Triana on the Moon); searching for platinum class metals in 
asteroids buried in the surface; giant solar arrays beaming power to 
communications satellites and solar sail transports; isolated 
laboratories to try new and dangerous schemes; taking the high ground 
militarily; driving the creation of new technologies; and of course, 
backing up the biosphere and human civilization in case of catastrophe 
and expanding the domain of life and humanity.
    There are also a few more subtle reasons we go:

    We go to force the re-structuring of our national space 
activities.--NASA's human spaceflight program today is like an old ex-
athlete who won the Olympics a long time ago. It is bloated, 
inflexible, self-indulgent, and lives on re-runs of its better days. It 
is neither inspiring nor useful. In fact, it is harmful, as without a 
mandate to move out to the Far Frontier of the Moon and beyond, NASA 
has squatted down in LEO and claimed it as its own, blocking any who 
might try to do anything useful on its ``turf.'' We can let it slowly 
die, or we can trim the fat and get it into shape by making it get out 
of the doorway to space, back into the arena, and forcing it to run 
again--this time with a team-mate called private enterprise--to whom it 
can hand the baton at the right moment.
    We go to inspire.--The most important thing we got out of Apollo 
was inspiration. It was a star of hope in the darkness of the Cold War. 
It was the reason I am in this field, and the same goes for many of you 
reading this. The internet, telecom, the incredible advances in 
medicine and science, these breakthroughs are coming from organizations 
whose founders and investors were often born and raised during the 
Apollo program, and while its legacy was still fresh. If one looks at 
the numbers of engineers and science students graduated in the U.S., 
there is a clear correlation, and right now those numbers are falling, 
fast.
    We go to prepare for even greater things.--We cannot throw 
expendable humans at Mars without knowing what happens to a spacesuit 
in a high radiation, high temperature differential, dirty, vacuum after 
its been worn and sweated in for six weeks. We need to learn how to 
operate off planet, how to build for permanence and how to live off the 
land in space. Also, those who advocate a direct drive to Mars ignore a 
major historical fact--the colonies in North America could not have 
survived without the ports of England and Europe. The development of a 
strong Earth-LEO-Moon infrastructure, dominated by commercial 
enterprises, is a necessity, if humans-to Mars is not to be another 
unsustainable flags and foot prints fiasco or perennial taxpayer funded 
government housing project.
    The ``How?'' of returning to the Moon partially determines the 
``Why?'' For example, if the timeline is too long, the budget too 
large, the end goal too amorphous, and the whole project is run by the 
usual suspects in the usual way, the end result will be an uninspiring, 
over budget dead end like the International Space Station (ISS). To 
make a Return to the Moon permanent, inspiring, economical and 
beneficial to the taxpayers who pay for it all, we must do the right 
things.
The Greatest Frontier
    All of these ideas, for a new and revitalized ISS, for a return to 
the Moon, the establishment of the first space settlements, and the 
dream of expanding life beyond Earth, will not be achievable if we do 
the wrong things, proceed in the wrong manner, and aim at the wrong 
goals.
    First, we must ignore the whining of those who say they need a lot 
more money and time. We went from a standing start to standing on the 
Moon in under ten years--forty years ago! Keep in mind, when Kennedy 
asked the NASA of that time if it could be done, they told him no, and 
then they went and did it when ordered to.
    Next, we must restructure NASA, as the agency in its current form 
cannot handle the job. The center-based structure of today must be 
ended and several non-relevant centers closed or handed over to other 
agencies. Activities such as aeronautics and Earth studies must be 
handed off to the FAA and NOAA. Planetary robotic exploration should be 
given to JPL and the National Science Foundation (NSF).
    NASA must shed operational activities such as LEO transport and 
running the space station. The Orbital Space Plane should be canceled--
now. Prizes, multiple source contracts, investment and tax incentives 
must be put in place to encourage the new Alt.Space firms to take over 
human transport to space, and drive the traditional aerospace giants to 
modernize or get out of the field. The space station should be 
mothballed, handed to our partners or be taken over by a quasi-
commercial Space Station Authority as a destination for commercial and 
university users. ISS and other NASA pet projects must not be grafted 
onto a moon project simply because they exist. If they really support 
it they are in, if not, they are out.
    What is left should be divided into two parts. The first should be 
a lean mean human exploration machine that focuses on the Lewis and 
Clark function and acquiring or creating the lowest tech tools possible 
to travel and explore beyond the Earth. The second should be an agency 
like the old National Advisory Committee for Aeronautics from which 
NASA was created. Its job would be to push the envelope of space 
technologies and systems in support of our space industries.
    The new NASA would then be one of several players in any RTM 
project along with DOD, DARPA, NOAA, NSF, universities, and most 
importantly, the commercial sector. NASA will support planetary 
transportation systems development, scouting, surveying and pitching 
the first base camp, then others take over as the agency focuses on 
developing systems for Mars exploration--it's next destination.
    For the Moon Base to survive and prosper, it must be built in the 
right spot, it must be robust, easy to operate at low cost, as self 
sufficient as possible and be easy to expand. The International Space 
Station is failing because it is in the wrong place, too delicate, too 
expensive to operate, and produces nothing of great value--scientific 
or commercial. To pay for the Moon Base we must combine a wide variety 
of income producing activities and services, such as those listed 
above. BUT, the people building the habitats after the first phase, 
operating the telescopes, and running the facility itself should NOT be 
government employees. The long term Lunar facilities should be designed 
and built by private firms in response to a short list of needs put out 
by the partners, with the U.S. government leasing those it needs. Long 
term management of the base should be in the form of a Moon Base 
Authority to promote new activities, manage infrastructure, oversee 
safety, and enforce the law.
Tied to the Earth with Red Tape
    Forget the Moon, forget Mars. The greatest frontier NASA has to 
face is itself. From timid bureaucracies to over burdening regulations 
and procurement rules to outright ``Not Invented Here'' turf oriented 
jealousies, NASA'S culture must be changed, and this mandate must come 
from outside of the agency, and even from beyond the scope of the new 
commission being formed as we speak to look into how to accomplish 
these goals. Without dramatic, near--term and permanent changes the 
President's initiative will fail. And I am very afraid that the 
discussion now underway is nowhere near strong enough nor has it 
reached deeply enough to force logical people to make the hard choices 
needed.
    For example, at a level above the agency, we must modify the overly 
burdensome Federal Acquisition Regulations or throw them out completely 
in favor of fee for service and delivery business style operations. 
Along the way the incredible piles of paperwork NASA uses to certify 
and manage each piece of hardware should be pared to a minimum. The 
space community is rife with examples of NASA loading potential 
providers down with paperwork. Sometimes even the simplest sounding 
deal is drowned in paper. Safety and quality needs to be assured 
certainly, but at some point it gets ridiculous.
    This story came to me from Bill Haynes, a former Air Force test 
pilot.
    ``(Consider) the carabiners astronauts use to tether themselves 
during EVA. The best climber's carabiner at REI costs $19.00.
    I found the manufacturer of NASA's carabiners, and he said he 
charges $1,095.00 each. When I told him about REI's, he said sure, he 
could probably sell his for a $100 or so, except that NASA requires a 
``pedigree'' all the way from the mine for every ounce of aluminum in 
his, his welders and machinists each have to be re-certified every six 
months and the paperwork stack that accompanies each carabiner is 
inches high.
    That might make sense for say, the turbine buckets in the Space 
Shuttle Main Engines. It makes absolutely no sense for those carabiners 
that will never encounter more than about a fifty lb. load in space.
    The REI carabiners are rated at 6,500 lbs.''
    This approach to the business of space will not get us to the Moon 
again.
New Approaches
    Every possible way to produce value (Include scientific value as 
well as economic) must be combined and every way to reduce costs must 
be found. If those two elements are then put into an equation, and the 
end result is positive or can be projected to turn positive we have a 
winner. If not, we have a negative cash/value flow and a loser. (NOTE--
None of these elements was considered or kept on the table for ISS!)
    --Put giant KISS! (Keep It Simple Stupid!) posters everywhere, in 
all centers and offices. Give rewards for designs and ideas that go 
that way instead of the high tech, over specialized direction. For 
example, Rutan trumpets the fact that his flyers are the lowest 
technology, most off the shelf he could build, and where possible, 
units and structures are duplicated (look at the shapes etc. of his 
carrier and sub-orbital elements--cast in the same molds). Learn the 
lesson and apply it to the Moon. If a Home Depot bolt will work, use 
it. If you can go with voltages, air pressures etc. that make things 
simpler, then do it. Save high tech for later . . .
    --Rather than designing the habs etc. themselves, NASA should stay 
Lewis and Clark--like and focus on such things as scouting expeditions, 
and an early base camp that is designed to be expandable. Then put out 
a call to the non-space community for facilities that are low cost, 
robust, low maintenance and modular or expandable on a larger scale. 
NASA and other agencies could then sign ten or fifteen year leases, 
indicating (in the case of NASA) they are not planning on squatting 
down on the Moon but are moving on. (not ISS redux on the Moon.)
    --NASA should offer to buy data wherever possible. Prizes should be 
offered for milestons that can be reasonably offered to the private 
sector. Or if the word ``prizes'' is unpalatable, let's call them 
``contingency contracts''. For example, within the next year or so a 
short term, let's say 2 year ``contingency contract'' of around $80 
million could be offered for high resolution images of the potentail 
base camp site at the Lunar south pole. If it is won, we get our 
information scheap and spur several new firms into action. If not, 
there is still plenty of time for NASA to launch its own probes.
    --So some NASA guy will look out there and say ``we can't find any 
firms engaged in the right kinds of activities or willing to partner 
with us.'' Talk about self-fulfilling prophecy. Of course not. NASA 
killed them all over the last thirty years, or trashed their ideas and 
killed off their investors, or supported thier aerospace friends to the 
point you drove them out of business.
    The private sector has been so burned for so long by NASA in the 
past that they must be coaxed back into space. Sponsor events and 
meetings with people in the military, business and commercial research/
transport/life support communities and listen to them. Oil platforms, 
private diving bells and Navy subs, Hilton Hotels, airlines, all have 
lessons that can be transferred to this effort. The private sector has 
done a fair job of turning this New World into a permanent and 
expanding frontier. I bet they can help a little on the next one.
    I was heartened to see the inclusion of language in the President's 
policy that indicated an awareness of these needed changes, but I m 
still concerned that bureaucratic inertia will swallow any new and 
radically different ideas (or what those of us outside of the agency 
might call ``common sense'').
    The idea of an outside commission to lay the groundwork for this 
push outwards is a good idea. But it needs to be vested with real 
authority, and be comprised of space experts, business leaders and 
``out of the box'' thinkers. Unfortunately I am concerned the deck is 
already being stacked the wrong way, even if it is not being done so 
consciously.
    The leadership of the commission for example, must be free of all 
ties to those who stand to benefit from its deliberations, nor should 
they have that appearance. This is not to question the integrity of 
anyone who might volunteer their time to do this important work, but to 
avoid any questions whatsoever about the validity of their findings and 
plans. I am hopeful that such considerations are going into the 
selection process, and any such issues are being rectified.
    If the right people are assembled for this work, and given the 
mandate that appears in the president's speech--namely to open the 
space frontier, then I am confident thatlogic, history and common sense 
will prevail in their plans. I hope the White House, this body and NASA 
in particular pay attention, interact with them and move on their 
recommendations. I would also hope that the commission be empaneled to 
revisit this new space agenda on a regular basis.
Conclusion
    In conclusion, I think we have before us an exciting and powerful 
vision. We need not empty the coffers of our Nation to make it happen, 
and in fact will create enourmous new wealth, in the form of both 
economic and scientific wealth. If we can employ the power and genius 
of free enterprise we can transform our moribound space program into 
something incredible. But the people in this room, in this building and 
in this town must lead this time, and not be led, by lobbiests and 
Center Directors, party bickering and pork barrel politics. Let's get 
back to exploring. Let's let loose our reborn Lewis and Clarks to blaze 
the way for new generations and let's make sure everyone, especially 
those at NASA know they are spending our money to clear the way so we 
can follow. The space program will then get all the support it needs.
    For if we want to inspire and create excitement in our children We 
must go somewhere! Go fast, go hard, and don't wait around developing 
the absolutely highest tech most expensive machine to get there. Use 
what you've got and go! Live off the land. Put the urgency of danger 
and joy of discovery together and people will pay attention. Explore! 
Shine alight into a new lava tube on the moon . . . Dig for that water 
in the Aikin basin, show the blast off of the first mission to Mars, 
launched from the Moon . . . the pale blue marble of Earth in the 
distance. Feed that helmet camera shot of the Valles Marinaris to the 
world. And cover it live, good or bad, success or failure, life or 
death . . .
    For good measure, don't deny that people will die, or act surprised 
when it happens--make that risk part of the message . . . drop the 
obsessive lip service about safety and focus on being safe . . . assure 
that NASA and our people in space are doing their best to be safe, 
adopt serious procedures to do avoid death . . . but say up front that 
people will die on this quest.
    And once we are back to the Moon DONT STOP . . . it will be just as 
boring for NASA to be landlord on the Moon as in LEO. Show some 
learning. Get there, scout, set up the beginnings of the base. As 
others move in (universities, institutes, commercial users) the agency 
can go off in a nearby crater and begin developing its planetary 
surface exploration capabilities, then move on to Mars, where the 
vistas are larger and the opportunities for long term excitement 
abound. But don't squat down again. MOVE.

    Senator Brownback. Thank you, Mr. Tumlinson. Appreciate the 
panel very much.
    A couple of questions, then I'll turn to my colleague from 
Texas.
    Dr. Friedman, are we in another space race now? You cite 
several other countries with planned missions to Moon. Do you 
believe we're in another space race, that we can be left behind 
if we don't engage these sort of activities and strategies that 
you've outlined?
    Dr. Friedman. Sometimes, when I'm glib, the only space race 
I describe is the humans-versus-robots space race, that I think 
we're both evolving--I mean, this in a serious way--that we're 
both evolving technologically, and it's--probably the main 
reason I support human spaceflight is because I think it's part 
of our human evolution to go to other worlds.
    I don't think we're in a space race with other countries. I 
think the ability--the need for the United States to prove 
itself, technologically, as a dominant space player is not 
necessary, as it was in the 1960s, when we undertook Project 
Apollo. If anything, the challenge before us is to learn to 
cooperate with other countries and to work with the great 
buildup that's going on in Europe, which is now conducting two 
planetary--which has now conducted two planetary missions 
successfully, and has a long-range plan also for the Moon and 
Mars; Japan, which is doing two missions to the Moon and has 
talked about building a robotic infrastructure on the Moon; and 
China, who is obviously an emerging space power; and other 
countries, as has been cited, are developing rocket capability 
to go to space.
    The challenge is, is to work with these countries. It's a--
it will help us immeasurable, as it has in so many commercial 
industries to be working internationally.
    Senator Brownback. Dr. Friedman, if I could, because my 
time's going to be very limited here. What you described to me 
is a space race that--whether we choose to enter it or not is 
probably the question. I mean, we need to cooperate, clearly, 
with other countries, but if we don't engage a new vision for 
NASA--if we say it's too risky, it's too costly--other people, 
other countries are going to the Moon and beyond, is that 
correct?
    Dr. Friedman. I accept that. That's correct, Senator. Yes, 
I think that's--it's a very good point--that the space race is 
not the one of competitiveness of trying to prove our 
greatness, but the space race is the one that's inherent in our 
civilization to try and prove ourselves.
    Senator Brownback. Whether we enter it at all, or whether--
--
    Dr. Friedman. Correct.
    Senator Brownback.--we decide that's just too risky or too 
expensive, we're not going to go there. Others are.
    Dr. Friedman. I think that the reasons for going there are 
more than just that others are; it's really about what we say 
about ourselves, as well.
    Senator Brownback. Well, I agree with that.
    Dr. Lane and Dr. McCurdy, you both talked about 
reorganizing, or a transformational experience at NASA. I guess 
really all three of the other panelists. What are the biggest 
impediments that Congress can be positively involved in in this 
transformational experience that NASA will need to be--need to 
happen? Where should we focus our light or our energies to see 
that this NASA transformation takes place?
    Dr. Lane. Well, Mr. Chairman, my experience has been that 
previous Administrators have made the significant attempts to 
realign NASA, reorganize NASA, reallocate the funds to make the 
whole better than it is, remove some of the waste that my 
colleague just referred to a few minutes ago. But when you make 
those changes, and talk about reallocation, it implies a change 
of money and people; jobs, then, are at stake. And with centers 
all over the country immediately coming to the defense of their 
employees and their position in the state, understandably, 
phone calls get made. And certainly----
    Senator Brownback. So you're saying we're really going to 
have to pull NASA in, focus it on fewer areas, and we're going 
to have to get the extraneous spending under control?
    Dr. Lane. My view is that it will require focus, and focus 
is going to be more than parsing out a complicated plan to the 
same units, same people, in the same locations.
    And I would also add that each time Congress earmarks 
NASA's budget, it is not necessarily a bad project, I'm not 
suggesting, but it's not necessarily a priority project for 
NASA. It removes some of the flexibility that the Administrator 
has to reallocate funds, to reorganize.
    So there are several things Congress can do, but what I 
said in my testimony was, the White House and Congress really 
needs to get behind the Administrator. When you're satisfied 
with the Administrator's plan, get behind the Administrator and 
prevent these end runs that will undo the best intentions, 
which I'm sure he has.
    Senator Brownback. Dr. McCurdy, anything on this?
    Dr. McCurdy. Focus on cost. When Jim Webb, the NASA 
Administrator, came before this Committee in 1961, he predicted 
that we could go to the Moon for about $20 billion. The cost of 
Project Apollo through Apollo 11 was $21 billion. Focus on 
cost. Focus on total program cost. Don't let this policy become 
a Lourdes for NASA, a place where the field centers and 
existing programs go to get well. That's what I'd suggest.
    Senator Brownback. Mr. Tumlinson, I want your thought on an 
offer of a $50 million reward--kind of like what we did in Iraq 
in getting Saddam Hussein, but this timer to engage the private 
sector with a reward for whoever can get a post set up, I 
guess, on the south pole of the Moon. And you think that we 
could by dangling a certain amount of an accomplishment fee out 
there get and engage sufficient private sector capital to get 
these things accomplished?
    Mr. Tumlinson. Yes. And the examples are out there. My 
organizations funds--offered a prize at one point for small 
rocketry. We had a lot of people respond.
    I'm founding trustee of a thing called the X Prize that has 
stirred rocket competition around the world, one of the 
rockets--Burt Rutan's vehicle--which is being funded, by the 
way, by Paul Allen, of Microsoft. They're going to spend about 
$35 million to win a $10 million prize.
    So the idea of prizes--and, again, if we--you know, we can 
go into NASA-speak, or whatever--contingency contracts, they do 
inspire innovation. There's a long history of that, all the way 
back to the British Navy, working on a better timekeeper for 
its ships, put out a prize, a very famous book written about 
that.
    So these things do work. I'm not talking about putting a 
base up for $50 million, by the way. I'm talking about 
returning high-resolution photographs, something--the idea of 
orbiting satellites or probes or that type of thing is--the 
private sector has shown that. They launch communications 
satellites all the time. There are companies that have that 
kind of an interest, and that's a number that might inspire 
them. People smarter than I can probably work out the exact, 
sort of, relevant price for that. But I think it will inspire 
people and get people--you know, there's nothing like a race. 
Americans love a race and a competition, and I think that's a 
way to get people involved and lower costs.
    Senator Brownback. Well, my view of this is that we need to 
tap into the private sector capacities, abilities, and capital 
to be able to----
    Mr. Tumlinson. Absolutely.
    Senator Brownback.--do some of the things that we want to 
do. And it's not enough to just be able to compete for 
resources at the public sector, which is going to have a lot of 
different pushes and political interests.
    But if you can tap into that, and if there's a way of being 
able to do that, I hope you or a group of other people that are 
thinking about this will get to Pete Aldridge's Commission to 
put in some very specific sort of thoughts about what portions 
of these missions could be done by the private sector if 
there's a contingency contract or something of that nature. We 
would see what sort of capital we could tap into and what we 
can put off to the side on our budget, while we focus on 
something that can't be, right now, done through the private 
sector. I hope you'll put forward specific ideas on that.
    Mr. Tumlinson. Yes, a couple of points I'd like to make 
there is, we have to end this antagonistic relationship between 
NASA and the private sector.
    While I'm at it, I'm going to plug a friend's book, called 
Lost in Space: The Fall of NASA, and the Dream of a New Space 
Age, by Greg Klerkx. Please read this book. It talks about how 
these situations have come up in the past, how that antagonism 
has grown, and where we are right now with the alternative 
space movement, versus the space agency, and where we could 
possibly go in the future.
    For example, on the Moon, why not have Hilton provide the 
housing? You know, why not have the food provided by commercial 
food providers. Or, it may not be politically PC to talk about, 
but the services being provided to the troops in Iraq on their 
bases are being provided, basically, commercially. You know, a 
cheeseburger is a cheeseburger; it doesn't have to be designed 
by NASA scientists. So I think we could work at those kind of 
situations. But NASA has to learn that the private sector can 
be a partner, and learn how to work with them and not talk down 
to them, not try and dominate.
    NASA should focus on science, should focus on exploration. 
There will be no private companies that are going go try to do 
landers on Mars. That's an appropriate role for the space 
agency. But these other types of activities, space 
transportation, in particular, from Earth to LEO, running the 
Space Station, et cetera, let the private sector step in. It's 
time.
    Dr. McCurdy. Senator, look to Antarctica as a model of 
private-public cooperation.
    Senator Brownback. That's a good thought.
    Senator Hutchison?
    Senator Hutchison. Well, thank you very much. I appreciate 
having the second panel, because I think you all have been 
refreshing and very candid; and, in many instances, what you've 
said will lead us to do some other things.
    I would like to ask Dr. Lane a couple of questions. Of 
course, I do know Dr. Lane, and appreciate so much the role 
that he has taken advising me on scientific projects and things 
that we can do to highlight better. And I was pleased, in your 
testimony, that you mentioned the National Space Biomedical 
Research Institute, that it's headed by Baylor College of 
Medicine, in Houston, Texas, and that's a good repository for 
the information that's coming down through NASA and the Johnson 
Space Center. But it has about 15 other medical schools and 
universities all over the country, and I think it is a way that 
we can do something that you suggested as the fourth goal, and 
that is to assure that we continue to try to be in the 
forefront, as a country, in science and engineering, and also 
to assure that we encourage young people to come into science.
    My question is, What more do you think we should be doing 
to achieve that fourth goal as we are now going to refocus on 
space exploration? What can we do, both in assuring that we 
keep the engineering and science component--which I did ask the 
Administrator if he was going to maintain the ongoing 
commitment there, and he said yes--but also, what should we be 
doing to bring younger people into the excitement of the 
engineering and research jobs and careers that we want them to 
pursue?
    Dr. Lane. Thank you, Senator. I think the most important 
thing that Congress can do is to look carefully at the plan 
when it comes out initially in the President's budget, and then 
in continued interactions with NASA, to see, in fact, if what 
I've suggested should be a fourth goal really is, because I, 
with respect, did not hear that in the Administrator's comments 
and his presentation. I did hear a number of enterprises 
emphasized in connection with the President's announcement. I 
did not hear science being placed up quite so high on that 
list.
    The reason I think it's so important, and particularly the 
university support, is because that's really where many of the 
young people are making their final decisions, if you like, or 
a final decision in their educational process what their career 
is going to be. That's where students who think they're going 
to be scientists and engineers have second thoughts and do 
something else.
    If there's something exciting that attracts them, if they 
have an opportunity to engage in research that's as exciting as 
what we've seen here today, that can capture a young mind. 
That's precisely the kind of thing that can build a cohort of 
young scientists and engineers, in our states and in our 
nation, to work on projects like space exploration. But they'll 
be attracted by those few years in the university when they 
have a chance to get a taste of research.
    So I think NASA's research programs, at the university 
level, are particularly important. And to the extent that you 
can look at those and look at the way those are cooperative 
with agencies like the National Science Foundation and other 
agencies so that you build a much larger impact that each 
agency on its own, I think there's a chance to do much more, 
even with the same amount of money.
    So I urge you, please look carefully at what the plan is 
that gets rolled out, and then stay with it along the way to 
see whether science is more important than I think I heard in 
the Administrator's comments this morning.
    Senator Hutchison. Did you hear--I want to hear from you, 
but let me ask you this--is there a large amount of interaction 
and cooperation between the National Science Foundation and its 
projects, and NASA?
    Dr. Lane. I think there certainly is good cooperation. I 
don't know how to scale it. I don't have numbers in mind. But, 
as you know, Senator, NSF takes responsibility for most of the 
ground-based observation, the telescopes that are mounted right 
here on solid Earth; and NASA, for the space-based telescopes. 
But both agencies support an enormous amount of research in 
universities by theoretical and experimental astronomers and 
astrophysicists, and I know the agencies interact so that each 
agency understands, in detail, the program of the other agency.
    I'm not worried about wasteful duplication, somehow, of 
support of effort; I'm more interested in coordination, to make 
sure things don't fall through a crack.
    Senator Hutchison. Well, just to pursue that, I was just 
wondering if there were a function that NSF could provide from 
the NASA part of that space research, since they do so much in 
university research grants and programs. Could they take that 
as a function, not to duplicate what NASA's doing, but to maybe 
take that responsibility for that goal and make, you know, 
their mandate perhaps even more relevant than, in some 
instances, maybe it is?
    Dr. Lane. I think it would be very useful for both agencies 
to clarify, for the science community, their respective roles 
in--and the work they do together--in astronomy, astrophysics, 
space-related research, because I think in just doing that, 
both agencies will see some opportunities for supporting the 
university activity that perhaps not being supported right now.
    Both agencies have a long history of supporting university 
research. So NASA put together some of the first----
    Senator Hutchison. But NSF is a different type. It's more 
peer-review based, grant-request based, which is different, I 
think, from NASA, which is why I----
    Dr. Lane. Both agencies use peer review. They do use it 
somewhat differently, and I think--along with other science 
agencies--it would be useful to--everybody could improve their 
system of peer review, and I do--I'm a believer in peer review. 
I think, with all of its blemishes, it is the best way to 
assure that the best science and engineering research gets 
supported.
    But different agencies do it differently, and I think 
there's an opportunity for all of them to learn from one 
another and to improve the way all agencies are supporting 
science. So I would definitely encourage those kinds of 
discussions and perhaps hearings on the subject.
    Senator Hutchison. Dr. Friedman, did you have something to 
add?
    Dr. Friedman. I was just going to add, your question about 
motivating young people, that we should get that video that we 
saw this morning out. That's a tremendous motivation. We have a 
lot of experience with that. And NASA, to their credit, on this 
very mission, has an educational experiment with a DVD and a 
sundial up there, that were produced for other technical 
purposes, but they--we've been engaging students with it in a 
very cooperative, privately funded educational activity with 
NASA.
    Senator Hutchison. Any others to add to that?
    Dr. McCurdy. Well, my generation was raised on Buck Rogers, 
Collier's magazines, and Tomorrowland at Disney World. The new 
generation is interested in space to the same degree, but for 
different reasons. And I think the Administration has tapped 
into that with the mixing of robotic and human capabilities. 
Kids are really interested in robots, electronics, virtual 
reality. And so, to the extent that that mix continues in the 
program, I think it will attract the young generation to want 
to be scientists and engineers and support it--support the 
space program in the same way that us, here, in our generation, 
are supporting it now.
    Senator Hutchison. Yes, Mr. Tumlinson?
    Mr. Tumlinson. Yes, two quick points on that issue. One is, 
I agree with everything that's been said, and the idea that you 
could grow up, and actually be somebody exploring Mars yourself 
someday is very exciting.
    Regarding the NSF/NASA relationship, to me one of the 
exciting things about the Moon is that it doesn't have to be an 
all-NASA project. And I'm not just talking about the commercial 
sector. Why not have NSS--NSF-grant winning universities 
operating far side observatories, as opposed to NASA, those 
types of things, and bring in, shall we say, more slices of the 
government pie there to supplement the kind of budgets they 
have?
    Senator Hutchison. Well, let me just add one more thought. 
Recently, I was listening to Dr. Malcolm Gillis, who is the 
head of your institution, Dr. Lane, he remarked that when Dr. 
Richard Smalley and his partner were--it was announced that 
they were awarded the Nobel prize for nanotechnology research, 
they were teaching freshman chemistry. And I thought, in 
addition to what you have said, to have our stars in the field, 
the astronauts or other scientific stars, to reach out and 
teach freshman or high school students would also be very 
exciting. I can't even imagine what a freshman would think 
when, the day that they are taking their freshman chemistry 
class, their professor is awarded the Nobel prize.
    Dr. Lane. I think they'd think, ``Is my homework still 
going to be due at the end of the period?''
    [Laughter.]
    Senator Hutchison. You're probably right. Just to take away 
all the magic.
    Mr. Tumlinson. Senator Hutchison, real quick, you mentioned 
nanotechnology. We've talked a lot about the inspiration for 
education. There's a great picture of the late Dr. Gerard 
O'Neil, who was a major space advocate, working with a mass 
driver device that he was working on that was going to be used 
to deliver payloads off the Moon. In the picture, is one of his 
young proteges working with him. The kid's name was Dr. Eric 
Drexler. He created the nano movement and the name and the 
entire concept. He was inspired by space. I just wanted to 
bring up that little note.
    Senator Hutchison. Well, it's very important.
    And I would say, to Dr. Lane, in addition to homework, I do 
think that probably those young people are making up the 
scientists of the future because they are so inspired.
    Well, we do have a vote on, and that's why Senator 
Brownback has left, but thank you very much. This was very 
helpful and, I think, will be part of our oversight of NASA as 
we move into a very exciting era.
    Thank you. We are adjourned.
    [Whereupon, at 12:10 p.m., the hearing was adjourned.]

                            A P P E N D I X

  Prepared Statement of Hon. Harrison H. Schmitt, Chairman, Interlune-
                       Intermars Initiative, Inc.

                         Two Paths to the Moon

                    Harrison H. Schmitt <SUP>i</SUP>
---------------------------------------------------------------------------

    \i\ Harrison H. Schmitt landed on the Moon on Apollo 17, served in 
the U.S. Senate, and is currently Adjunct Professor of Engineering at 
Wisconsin-Madison and Chairman of Interlune-Intermars Initiative, Inc.
---------------------------------------------------------------------------
Summary
    Left unstated in the President's challenge to NASA and the Congress 
is an implicit challenge to the private sector of the United States to 
join in our re-invigorated migration into deep space. That sector of 
American life, particularly the entrepreneurial and investment risk-
takers among us, should move forward in parallel with NASA's new 
efforts, protecting this unique foundation of American freedom. If 
private enterprise is to participate as more than useful and necessary 
contractors to NASA, then systematic business initiatives must be 
launched that will equal or exceed the technological and financial pace 
of publicly funded space efforts.
    In the tradition of public-private parallelism, private space-
related initiatives not only can benefit from the research and 
technology development funded by NASA, but they can supplement, 
support, and, if necessary, pick up the baton of space settlement if 
not carried forward by government. The financial, environmental, and 
national security carrot at the end of a long stick is access to low 
cost lunar helium-3 fusion power.
    A private, lunar resource-oriented enterprise will take a different 
technical path back to the Moon than that taken by NASA. This dichotomy 
of approaches will be best for all concerned. More conceptional options 
will be explored, more engineering approaches examined, and more 
opportunities for beneficial outcomes created. For example, to provide 
competitive returns on investment in its lunar endeavors, the private 
sector will want heavier payload capability and lower cost in Earth to 
the Moon launch systems than will NASA. Further, its spacecraft will be 
specialized for the tasks of landing reliably and precisely at known 
resource-rich locations on the Moon rather than serving two or more 
masters.
    A private lunar initiative will not and should not be immune to 
appropriate regulatory oversight by cognizant agencies of government. 
Similarly, such and initiative must follow existing space law, as 
established by U.S. statute and the Outer Space Treaty of 1967 to which 
the U.S. is a party. Specifically, in the case of the Outer Space 
Treaty, the private sector and the U.S. Government have a mutual 
interest in interpretations that encourage both explorers and 
entrepreneurs.
    The entrepreneurial private sector has an obligation to support a 
return to the Moon to stay, as now articulated by President Bush. We 
also have an obligation to follow our own path to get there in order to 
be additive to the overall goals of settling the Solar System and 
improving lives for those who remain on Earth. Once humans permanently 
inhabit the Moon, only the migration of human families out of Africa 
150,000 years ago and of other families successfully seeking freedom in 
the New World 550 years ago will have had comparable survival and 
philosophical impact.
                             Full Testimony
    President George W. Bush has challenged NASA to once again 
``explore space and extend a human presence across our solar system.'' 
Those who believe in the future and in freedom embrace this vision of 
permanence in space for Americans and for humankind. His new initiative 
places the President squarely in support of the movement of 
civilization into the solar system and ``into the cosmos.'' If 
sustained by Congress and future President's, American leadership of 
this expansion of the ecological reach of our species will be 
accompanied by the transfer of human freedom, first to the Moon, then 
to Mars, and, ultimately, beyond.
    Left unstated in the President's challenge to NASA and the Congress 
is an implicit challenge to the private sector of the United States to 
join in our re-invigorated migration into deep space. That sector of 
American life, particularly the entrepreneurial and investment risk-
takers among us, should move forward in parallel with NASA's new 
efforts, protecting this unique foundation of American freedom. If 
private enterprise is to participate as more than useful and necessary 
contractors to NASA, then systematic business initiatives must be 
launched that will equal or exceed the technological and financial pace 
of publicly funded space efforts.
    America has a tradition of parallel commercial and public 
technological initiatives, ranging from transportation to agriculture 
to communication to medicine. The development of private trading 
routes, turnpikes, canals, and railroads joined with the Army's Corps 
of Discovery, military expeditions and the Corps of Topographical 
Engineers, and the Corps of Engineers to open the American frontier. 
Scientific research and technological innovations arising from the Land 
Grant College and University system have supported American farmers and 
associated agricultural businesses. Commercial aircraft and ground 
transportation industries grew in concert, respectively, with the 
research activities of the National Advisory Committee on Aeronautics 
and the construction of the Interstate Highway system. Satellite 
communications, the first venture into space related business by 
private investors, was catalyzed by NASA's pioneering experiments and 
demonstrations in the late 1950s and throughout the 1960s. The 
explosion in the quality of health care and in longevity since the 
1930s has come in association with research breakthroughs by both the 
private sector and the National Institutes of Health. Many other 
beneficial and synergistic examples of parallelism between private and 
public institutions can be cited. The combined efforts of such 
institutions clearly have been far more productive then either would 
have been acting alone.
    In that tradition of public-private parallelism, private space-
related initiatives not only can benefit from the research and 
technology development funded by NASA, but they can supplement, 
support, and, if necessary, pick up the baton of space settlement if 
not carried forward by government. The financial, environmental, and 
national security carrot at the end of a long stick is access to low 
cost lunar helium-3 fusion power. As we reach toward the Moon and its 
resources, the development of fusion technologies will open new 
business opportunities in medical diagnostics and treatment, weapons 
detection, nuclear waste elimination, and clean electrical power 
generation. Longer term, ancillary businesses will be possible because 
of low cost access to space resulting from the demands of lunar 
resource acquisition. These additional business opportunities include 
providing services to the government related to lunar and planetary 
exploration and science, national defense, and long term, on-call 
protection from asteroids and comets. Space and lunar tourism also will 
be enabled by the existence of such capabilities in the private sector.
    A private, lunar resource-oriented enterprise will take a different 
technical path back to the Moon than that taken by NASA, although 
cooperative research and technology development projects would be 
helpful to both. This dichotomy of approaches will be best for all 
concerned. More conceptional options will be explored, more engineering 
approaches examined, and more opportunities for beneficial outcomes 
created. Indeed, successful commercial applications of fusion and space 
technologies to human needs and desires will underpin the private 
enterprise approach in contrast to the policy driven foundation of 
NASA's approach.
    To provide competitive returns on investment in its lunar 
endeavors, the private sector will want heavier payload capability and 
lower cost in Earth to the Moon launch systems than will NASA. Its 
spacecraft will be specialized for the tasks of landing reliably and 
precisely at known resource rich locations on the Moon rather than 
serving two or more masters, such as, the International Space Station 
and a Lunar Base. The private initiative will concentrate on lunar 
surface vehicles and work facilities that provide reliable, low cost 
resource recovery in addition to general mobility and habitat. It also 
will require highly mobile and low maintenance space suits that are at 
least half the weight and four times the mobility of Apollo suits and 
that have the glove dexterity of the human hand. All vehicles, 
facilities, and space suits will be designed for indefinite operational 
life rather than mission life, including embedded diagnostics, 
anticipatory component replacement, and ease of maintenance and 
refurbishment. Any required automated precursor missions to gather 
additional resource development information will use low cost, data 
specific approaches rather than attempt to meet broad, higher cost 
scientific objectives.
    Management structures for a private initiative will follow proven 
corporate approaches and the best business practices of comparable, 
high technology enterprises. These structures would be modified, as 
appropriate, by the many lessons learned from Apollo relative to work 
in the complex and unforgiving environment of deep space. The Board of 
Directors and senior management will deal with programmatic issues 
involving planning, investors, conceptual approach, financial control, 
marketing and sales, governmental interfaces, public affairs, and the 
spin-off of ancillary businesses. Under this protective umbrella, 
responsibility to meet technical objectives will be delegated to 
centers of excellence. A system of independent technical oversight will 
exist to assess the centers' readiness to proceed past designated 
programmatic milestones.
    To minimize the amount of required inter-center coordination (and 
competition), centers will specialize, respectively, in Earth launch 
systems, spacecraft and flight operations, lunar resource extraction 
and processing, lunar surface support facilities, and fusion power 
systems. Centers of excellence will have internal design teams working 
in parallel with the implementing contractors, providing managers with 
two sources of information and opinion related to design and 
configuration control issues. Quality control and assurance will be 
managed as an internal responsibility of all employees and not a 
centralized function of corporate headquarters. Critically, personnel 
management for the corporation will be charged with the need to 
maintain center organizations peopled largely by workers in their 20s 
and managers in their 30s.
    From early in its history, operational control of lunar surface 
operations will be placed on the lunar surface. Resource marketing and 
sales will be managed at corporate headquarters on Earth until such 
time as that function can reasonably be transferred to the Moon as 
well. To minimize cost and capitalize on experience for its lunar 
surface operations, a private initiative will hire and support 
employees who wish to be settlers. With the first landing, the 
initiative's intent will be that employees stay on the Moon 
permanently. All support functions, including medical treatment and 
rest and recuperation, will be provided on the Moon, not by a trip back 
to Earth. A clear constraint on the design and operation of launch 
vehicles and spacecraft will be that there can be no Space Shuttle-like 
stand-downs in the case of accidents. Rather, confidence in all 
hardware must be such that the next planned launch can proceed 
essentially on schedule.
    A private lunar initiative will not and should not be immune to 
appropriate regulatory oversight by cognizant agencies of government. 
Similarly, such and initiative must follow existing space law, as 
established by U.S. statute and the Outer Space Treaty of 1967 to which 
the U.S. is a party. Specifically, in the case of the Outer Space 
Treaty, the private sector and the U.S. Government have a mutual 
interest in interpretations that encourage both explorers and 
entrepreneurs. As with research and technology development of critical 
enabling engineering approaches, it would be highly beneficial to have 
a private-federal partnership in articulating an enabling legal 
environment for deep space. An example of enabling legal cooperation 
would be an extension of private property rights from near-earth space 
to the Moon, Mars, Asteroids, and deep space in general, without a 
claim of national sovereignty as prohibited by the Outer Space Treaty.
    The entrepreneurial private sector has an obligation to support a 
return to the Moon to stay, as now articulated by President Bush. We 
also have an obligation to follow our own path to get there in order to 
be additive to the overall goals of settling the Solar System and 
improving lives for those who remain on Earth. Once humans permanently 
inhabit the Moon, only the migration of human families out of Africa 
150,000 years ago and of other families successfully seeking freedom in 
the New World 550 years ago will have had comparable survival and 
philosophical impact.
                                 ______
                                 
Mars Society Statement on Bush Space Initiative
January 24, 2004

    On January 23, 2004, the following statement concerning the new 
Bush space policy was ratified by the Steering Committee of the Mars 
Society. The vote was 19 in favor, 3 abstentions, none opposed, and 5 
not voting.
Bush Speech Opens Door
The Future is Up to Us

Statement of the Steering Committee of the Mars Society
January 23, 2004

    On January 14, President George Bush gave a speech at NASA 
headquarters outlining a new strategic orientation for the American 
space agency. While some of the initial ideas for implementing the new 
space policy can and should be substantially improved upon, the policy 
overall clearly represents a significant and long-overdue step in the 
right direction for the American space program. The Steering Committee 
of the Mars Society therefore welcomes the new policy as presented in 
Presidential Directive entitled ``A Renewed Spirit of Discovery,'' and 
strongly urges Congress to provide the funds requested for the initial 
steps requested for the program over the next Fiscal Year.
    Our analysis of the important strengths and required areas for 
improvement of the new policy is presented below.
Analysis
    As stated, the new Bush space policy offers both opportunities and 
pitfalls to those interested in furthering human exploration and 
expansion into space in general, and Mars in particular. While not 
representing the start of an actual Moon/Mars program, since nearly all 
serious spending for hardware systems other than the crew capsule is 
deferred to administrations coming into office in 2009 or beyond, it 
does in fact clear the ground for the initiation of such a program 
should the 2009 administration be so inclined. It also provides a 
certain amount of free energy that, if handled properly in the 2004-
2008 period, could be used to help insure the emergence of a powerful 
human exploration initiative within the time frame of the 2009 
administration.
    In his speech, Bush redefined the purpose of the American space 
program as the ``establishment of a human presence throughout the solar 
system.'' This statement may seem to some like a mere rhetorical 
flourish, but it actually has important concrete programmatic 
significance, as it legitimizes NASA spending supporting technology 
development for human exploration of the Moon and Mars. Such spending 
was forbidden under the previous order of things, and for the past ten 
years technologists seeking funding for important human Moon/Mars 
exploration technologies had to justify them by arguing their value for 
other established programs, such as the JPL-led robotic exploration 
program or the ISS. This has made it impossible to obtain adequate 
funding for many technologies, such as planetary in-situ resource 
utilization (ISRU), and has led to disasters such as the promising JSC-
led Transhab inflatable habitation program, which was derailed when the 
discovery that planetary exploration technology work was being done 
under ISS cover led to cancellation by congressional staff. It is for 
this reason that the Mars Society has had since its Founding Convention 
in 1998 campaigned for the establishment of a NASA line item for the 
support of human exploration technology development, so that such 
activity could take place openly. Bush's initiative fully accomplishes 
this objective, with healthy initial program funding. For this reason, 
if no other, Bush's move must be seen as an extremely positive 
development.
    The new policy will also create a program organization at NASA 
headquarters, called Code T, which will significantly raise the level 
of NASA efforts to develop efficient plans for human planetary 
exploration. This is also a welcome development.
    In addition, the Bush policy also provides a basis for including 
human exploration research requirements within the design of robotic 
planetary missions. In the late nineties, representatives of the human 
exploration missions office at JSC attempted to utilize flight 
opportunities aboard the JPL-led robotic Mars exploration landers, but 
as the JSC researchers had neither a mandate nor money, they had 
neither force nor funds to back up their requests, and were dealt with 
accordingly. Under the new space policy, both a mandate and funds 
should be available to support human exploration related research and 
technology flight experiments aboard robotic lunar and planetary 
spacecraft. This could allow such payloads to either fly as paying 
customers aboard the JPL/Code S sponsored science spacecraft, or 
alternatively, support the funding of human exploration program 
controlled robotic landers whose primary mission would be to provide 
engineering data for the human exploration program, with other science 
payloads carried on a space available basis.
    The Bush policy also identifies where the funds required to support 
a true human exploration initiative will come from, to wit the 
redirection of the existing Space Shuttle and ISS budgets. Currently, 
the Shuttle budget runs about $4 billion per year, while the ISS budget 
is between one and two billion. This total of $5-$6 billion per year is 
more than sufficient to get humans to both the Moon and Mars within ten 
years of actual program start. Thus the initiative can be done within 
the existing NASA budget of about $16 billion per year in 2004 dollars, 
a level found supportable by presidents and congressional majorities of 
both political parties for the past four presidential terms. Thus the 
financial basis for the program is clear, and is not a budget buster or 
in any way fantastical.
    In his speech, the President invited all nations to join with the 
United States in pursuing the proposed program. We welcome this 
statement, as we fully agree that the exploration and settlement of the 
solar system is a great goal that can help bring humanity together, one 
that is worthy of, and requires, the mobilization of the best talents 
of all the peoples of the Earth.
    For various political and diplomatic reasons, the Bush policy 
delays the phase out of the Shuttle and ISS until2010, thereby delaying 
substantial human exploration program start until about that time. Thus 
the choice on whether or not to really start a Moon or Mars human 
exploration program, and what its pace or objectives should be, is 
effectively being placed in the hands of the 2009 administration.
    The merit of this decision is debatable. A key point however, is 
that the 2009 administration will have a choice. By making clear that 
the fundamental purpose of the human spaceflight program is to allow 
humans to FLY ACROSS SPACE (the Apollo era vision) to explore other 
worlds, rather than to allow humans to EXPERIENCE SPACE (the Shuttle 
era vision), the Bush policy (should it be sustained by either his 
reelection or the concurrence on this issue of an alternative 2005 
administration) effectively precludes the commitment ofNASA to a second 
generation Shuttle (``Shuttle 2'') as its next major program. As 
recently as a few months ago, substantial factions within space policy 
circles in both congress and NASA projected such a Shuttle 2 program as 
the agency's next major project after ISS. Had that occurred the future 
would have looked like this: the present decade would be consumed with 
returning the Shuttle to flight and building ISS. The next decade would 
be devoted to extending the life of Shuttle and developing Shuttle 2. 
The 2020s would then be a repeat of the 1980s, attempting to make 
Shuttle 2 operational, leading to a decision in 2030 on the next major 
project, which probably would have been ISS-2. Thankfully, this 
``Groundhog Day'' scenario for perpetual stagnation in space has now 
been foreclosed on.
    The decision to punt the responsibility for implementation, and 
thus the control, of the program to the 2009 administration promises to 
make the next five years an extremely interesting time for space 
advocates. In his speech, Mr. Bush defined human expansion into the 
solar system as NASA's goal, and posed the idea of a lunar base 
initiated by 2020 as the strategy by which this objective might be 
approached. That is one plan, but the next five years will see other 
plans put forward for consideration by the political class as efficient 
means by which the desired overall goal can be achieved with maximum 
speed, reliability, and at minimum cost. The great debate on what our 
strategy for reaching the Moon and the planets should be has thus not 
been closed by Bush's speech, but opened.
    The victory in this healthy battle of ideas will go to those people 
who convince the players, not merely of today, but of2009 and beyond, 
of the merit of their concepts. The Mars Society welcomes this 
challenge, and will seek to actively participate in this discussion to 
contribute its technical expertise and to convey an understanding to 
the political class, the technical community, the press, and the public 
that within the context of the new space policy, that the near-term 
human exploration ofMars is feasible, affordable, and truly worthy of 
the efforts and risks required.
    In transitioning from one kind of space program to another, every 
effort should be made to prevent unnecessary collateral damage to 
valuable parts of the old program. The decision announced by NASA 
headquarters late last week to abandon the planned Shuttle mission to 
upgrade and reboost the Hubble Space Telescope (HST) is an example of 
the kind of mistake that needs to be avoided. The Cosmic Origins 
Spectrograph and Widefield Camera 3 designed to bring the HST to its 
full potential have already been built and tested, and promise an 
enormous scientific return upon delivery to orbit. If the Bush plan 
were to stand down the Shuttle immediately, and save the $24 billion 
required to operate it through 2010 so as to initiate the Moon/Mars 
program with substantial funding immediately, that would be one thing. 
But given the decision to return the Shuttle to flight, canceling the 
Hubble upgrade would only save about $200 million, or 1 percent of the 
Shuttle program's budget, while destroying about 90 percent of its 
scientific value. This is extremely foolish.
    Safety arguments won't wash either; if the Shuttle is safe enough 
to fly to the ISS, its safe enough to perform its mission to Hubble. 
Indeed, while Shuttle missions to the Hubble may lack the on-orbit 
safe-haven of the ISS, the low-inclination of Hubble flights enables 
launch aborts to warm tropical waters, where crew survival chances are 
much better than in the frigid north Atlantic abort sites required by 
ISS launches. Moreover, it is difficult to understand how an agency 
which is too risk adverse to undertake a Shuttle mission to Hubble 
could possibly be serious in considering a mission to the Moon or Mars.
    The cancellation ofthe Hubble mission can thus only be described as 
a serious mistake, apparently committed in the name of the desire to 
appear ``decisive'' in breaking from the old paradigm in favor of the 
new. In addition to the harm done to astronomy, it would be a very bad 
thing for the infant new space policy to begin its life with a such a 
distasteful record. Under no circumstances should the alleged impending 
availability of the James Webb Space Telescope be accepted as a 
rationale for abandoning Hubble, either. That would be to repeat the 
mistake NASA made in abandoning the Saturn V for the supposedly 
superior Shuttle, or Skylab for the ISSerrors which set back the space 
program by decades of time of tens of billions of dollars. IfNASA's 
leadership will not see reason on this issue, Congress should take 
forceful action to reverse this very bad decision.
Technological Issues
    The right way to do a program whose objectives encompass both a 
permanent lunar base and the human exploration ofMars is to design a 
set of transportation hardware that can accomplish human Mars missions, 
a modified modular subset of which can be used to support lunar 
activities. Approaching the problem in this way can save a great deal 
of time and money, as only one hardware set needs to be developed 
instead of two. It also maximizes the value of the Moon as a testing 
ground for Mars, since under this approach to Moon missions will be 
done using the Mars hardware, and serve directly to shake it out. 
Provided this is the approach adopted, a program initiated in 2009 
could easily achieve piloted lunar landing by 2015 and launch the first 
human Mars expedition by 2018. The build up of a permanent lunar base 
and continued Mars missions could then occur simultaneously. Since it 
is only possible to launch to Mars every other year in any case, the 
implications of a running concurrent programs are simply that the lunar 
program launch rate would be reduced somewhat during Mars launch years. 
Concurrent launch programs would also serve to minimize launch costs by 
maximizing the rate of production of the booster production lines, as 
the cost of running a launch vehicle manufacturing facility increases 
only marginally with a higher production rate. To use a mundane 
analogy, it takes very little extra labor to cook two steaks instead of 
one, provided you cook them both at the same time. In the production of 
launch vehicles this kitchen parable holds even more force, as labor 
costs overwhelmingly dominate those of materials.
    Within the context of such a well-planned Moon/Mars program, there 
are certain technologies that are essential. We address only two of the 
most critical, heavy lift boosters and ISRU.
Heavy Lift Boosters
    The key technical instrumentality required to make lunar bases and 
Mars missions feasible is a heavy lift vehicle with a hydrogen/oxygen 
upper stage capable of throwing payloads in the 50-tonne class on 
Trans-lunar or Trans-Mars injection. This is the capability 
demonstrated during the 1960s by the Saturn V. Once such a vehicle is 
available, roundtrip Lunar missions or one-way delivery of habitations 
and other heavy payloads to the lunar surface can be readily 
accomplished with a single launch. Piloted Mars missions can also be 
accomplished using multiple discrete Trans-Mars launches of such a 
system, with no on-orbit assembly, as shown by the Mars Direct plan 
(Zubrin and Baker, 1990), the Stanford Mission plan (Lusignan, et al 
1992), or the JSC Design Reference Mission 3 (Weaver et al, 1994).
    Such Saturn V class launch systems can be readily created at this 
point either by converting the Shuttle launch stack through elimination 
of the orbiter and its replacement with a LO<INF>x</INF>/H<INF>2</INF> 
upper stage, or the creation of new, all-liquid propulsion booster 
systems. The Mars Society was recently shown plans by one major 
aerospace company for evolving its existing line of medium lift 
boosters to create a family of modular heavy lift boosters with 
payloads ranging through quarter, half, and full Saturn V capabilities. 
Based on this company's experience with previous successful launch 
vehicle developments, the entire development program to create the 
whole family of boosters could be accomplished in five years with a 
development cost of about $4 billion. The recurring launch cost for the 
Saturn V class system design was $300 million per launch, or less than 
$1000/lb for payload delivery to LEO. The methods of creating such 
booster families are obvious to experienced launch vehicle engineers, 
and we have no doubt that this company's competitors have plans for 
creating similar hardware sets with comparable development costs and 
schedules.
    The claims by certain pundits opposed to any exploration initiative 
that a new heavy lift booster would cost tens of billions to develop 
can thus readily be shown to have no basis in fact. Such heavy lift 
vehicles would also have many applications outside of the human 
exploration program.
ISRU
    Both lunar bases and Mars expeditions are strongly benefited 
through the use of in-situ resource utilization (ISRU) techniques for 
the production of return propellant, human consumables, and vehicle 
fuels and oxygen for use in extended missions on a planetary surface. 
The mission mass savings for either lunar bases or Mars missions 
resulting from ISRU has been demonstrated in numerous studies, and 
significantly exceeds that offered by advanced propulsion concepts with 
much higher development and recurring system costs.
    Effective ISRU require both chemical processing systems and 
reliable sources of power, for which space nuclear systems offer the 
greatest promise. We therefore strongly commend the administration for 
its Prometheus project to create such space nuclear systems. However we 
note that up until now, the sole applications considered by NASA for 
its space nuclear power systems have been spacecraft power and nuclear 
electric propulsion (NEP). Without dismissing the important value ofNEP 
for outer solar system robotic missions and other missions involving 
large velocity changes undertaken across extended time frames, we note 
that the size ofNEP units required to supply propulsion for human 
exploration missions are on the order of 10,000 kilowatts. In contrast, 
when used to produce chemical propellants on planetary surfaces, the 
required reactor size to support human exploration is reduced to about 
100 kilowatts. This is because a much smaller reactor stationed on a 
planetary surface making propellant can emit energy over a long period 
of time prior to flight, store it as chemical propellant, which then 
can release the energy as fast as it is needed under flight conditions. 
The mission mass leverages achieved by such ISRU supported chemical 
propulsion options are greater than those offered by NEP, while for 
inner solar system missions, the flight times are less (two orders of 
magnitude less for Lunar applications). In addition, the ISRU-supported 
chemical systems can be used not only for orbital transfer, but for 
planetary ascent.
    Thus while space nuclear power is enabling for ISRU, it is ISRU 
that greatly reduces the cost, and increases the value of space nuclear 
power in supporting human exploration. The two technologies should thus 
be pursued in parallel, and an appropriate fraction of the Prometheus 
budget applied towards bringing ISRU applications of space nuclear 
power to flight status, and to support robotic missions demonstrating 
such technology on the Moon and Mars.
    Furthermore, requirements should be written into the Prometheus 
program to insure that the power systems developed are compatible for 
operation on the surface of the Moon and Mars, since their use on the 
planetary surface to produce propellants and consumables represents by 
far the most advantageous method of employing them to support near-term 
human space exploration, and their power is needed on the surface to 
support base operations in any case.
    Both ISRU technology and heavy lift booster development should thus 
be central priorities of the Code T effort over the immediate period.
    Other systems should be developed with similar concern for maximum 
commonality of hardware and technology across lunar and Mars mission 
applications.
Political Implications
    The train of events set in motion by the new space policy will 
create a decision point circa 2009 that will offer three alternatives 
for future action. These are;

  (a) The 2009 administration could choose to abort the Moon/Mars 
        program altogether, and simply use the Crew Exploration Vehicle 
        (CEV) as a capsule launched atop expendables as a way of 
        continuing to visit the ISS. This would lead to a Mir-type 
        extended ISS program, conducted at lower cost than possible 
        using Shuttle launches, but with no discernable purpose. This 
        would result in stagnation in space for however long such a 
        programmatic decision prevailed, and probable retrogression on 
        heavy lift, ISRU, and other programs necessary for human 
        exploration.

  (b) The 2009 administration could decide to proceed in accordance 
        with idea of building a lunar base, starting 2020, without 
        concern for the Mars mission except to make claims that lunar 
        experience will no doubt be useful later when others 
        contemplate going to Mars. This would result in the development 
        of mostly incompatible lunar program hardware (except the 
        booster), making it necessary to start developing an entire new 
        hardware set circa 2030, or possibly 2040, given the budgetary 
        entanglements such a stand-alone lunar program would create, 
        making it likely that the first Mars landing would not occur 
        before the middle of the 21st Century. Alternatively, given the 
        limited interest provided by repeated dead-end Lunar 
        expeditions, the program could simply expire.

  (c) The 2009 administration could decide to launch a humans to Mars 
        program, with the objective of reaching Mars within ten years, 
        with expeditions to the Moon using a modified subset of the 
        Mars flight hardware beginning around program year 7. Because 
        only one hardware set would need to be developed instead of 
        two, and because in aerospace cost equals people times time, 
        this represents a much lower cost approach to achieving the 
        goals set forth in the new space policy than alternative (b). 
        Moreover, it is the only approach that will result in human 
        explorers walking on Mars within the working lifetime of any 
        adult today.

    It is therefore imperative that everyone who wishes to see the 
human exploration of Mars become a reality do everything he or she can 
to fight for the bold course represented by option C. In the labs and 
engineering organizations, in the press, in the classroom and the 
committee room, in the Arctic and in the desert, in the halls of 
congress, and in every venue of public opinion ranging from books and 
technical papers to Internet newsgroups and late night talk radio, each 
will need to play their part.
    A door has been opened, and a battle of ideas that will determine 
the shape of the human future for many years to come has now been truly 
joined. Where it will lead is up to us. Contending visions that two 
weeks ago were mere hypothetical debates among space activists have now 
entered the center of political discourse. We welcome the challenge. 
For as reason is our witness and courage is our guide, we shall 
prevail.
                                 ______
                                 
                     A Renewed Spirit of Discovery
           The President's Vision for U.S. Space Exploration
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  ______
                                 
             Remarks by the President on U.S. Space Policy

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
               Strategy Based on Long-Term Affordability
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                                  
                               __________

                          Don't Desert Hubble

                    Robert Zubrin--January 27, 2004

    Last week, NASA Administrator Sean O'Keefe announced that he had 
decided to cancel all future Space Shuttle missions to the Hubble Space 
Telescope, including SM4, the nearly-ready-to-go flight that would have 
installed the new Cosmic Origins Spectrograph and Widefield Camera 3 
instruments. This decision was announced in conjunction with an overall 
policy shift by the Bush administration to phase out the Shuttle and 
International Space Station (ISS) commitments by 2010, thereby clearing 
the way to redeploy their budgets towards supporting human exploration 
of the Moon and Mars. While the general redirection of NASA's human 
spaceflight program from Earth orbital activities towards planetary 
exploration was a valuable and long-overdue step, canceling the Hubble 
upgrade mission was a huge mistake.
    The Hubble Space Telescope has been the most scientifically 
productive spacecraft in history. Through Hubble, we have observed 
directly the planetary cometary impacts that drive the evolution of 
life, witnessed the birth of stars that make all life possible, and 
measured the size and age of the universe itself. The astronaut 
missions that have made this possible stand as epic achievements in the 
chronicles of humanity's search for truth.
    Now we have a chance to push further. The Cosmic Origins 
Spectrograph and Widefield Camera 3 designed to bring the Hubble to its 
full potential have already been built and tested at a cost of $167 
million, and promise an enormous scientific return upon delivery to 
orbit. With the help of these instruments, Hubble would be able probe 
deeper into space and time, helping to reveal the processes that 
governed the origin of the universe and that will determine its 
ultimate fate. How can the decision abort such a program possibly be 
justified?
    Certainly not on the basis of cost. If the Bush plan were to stand 
down the Shuttle immediately, and save the $24 billion required to 
operate it through 2010 so as to initiate the Moon/Mars program this 
year with substantial funding, that would be one thing. But given the 
decision to return the Shuttle to flight, canceling the Hubble upgrade 
would only save a pittance. It takes about $4 billion per year to 
maintain the standing army of engineers and technicians that support 
the Shuttle program, but it only costs an additional $100 million or so 
to fly five Shuttles in a given year instead of four. Thus the 
additional cost to the taxpayer to fly both SM4 and a subsequent flight 
a few years later to replace the Hubble's batteries and gyros and 
reboost it to a higher orbit where it could be functional well into the 
next decade would only be about $200 million, or less than one percent 
of the Shuttle program's budget over its remaining life. From a 
financial point of view, the decision to abandon the Hubble upgrade 
while continuing Shuttle flights amounts to throwing out the baby while 
keeping the bathwater.
    Safety arguments won't wash either; if the Shuttle is safe enough 
to fly to the ISS, it is safe enough to perform its mission to Hubble. 
It is true then when flying to the ISS, the crew has a safe-haven on 
orbit, which is not available to Hubble flights. However Hubble 
missions leave the Cape flying east-southeast, while launches to ISS go 
northeast. Thus in the event of a launch abort, Hubble missions can 
ditch in warm tropical waters while ISS flights must come down in the 
frigid North Atlantic, where the crew's chances for survival would be 
much less. Thus, while no true quantitative engineering analysis has 
been done to establish whether and to what extent Shuttle flights to 
ISS are more or less risky than Hubble missions, there is good reason 
to believe that, if anything, it is the latter that offer greater 
safety.
    Furthermore, consider this: Under the new space policy, the 
President intends to ask Congress to spend billions of dollars to 
develop technology to enable human Moon and Mars missions. Yet Congress 
has just spent $167 million to develop the instruments for SM4, only to 
be told by the NASA Administrator that he is now afraid to fly the 
Shuttle to deliver them. If such behavior is accepted, what guarantee 
can lawmakers have that after they spend billions to develop manned 
Moon or Mars exploration hardware, a future NASA administrator might 
not also get cold feet? It is difficult to understand how an agency 
which is too risk-adverse to undertake a Shuttle mission to Hubble 
could possibly be serious in considering a piloted mission to the Moon 
or Mars.
    The decision to cancel the Hubble mission thus completely 
undermines the President's call for human planetary exploration. Unless 
we are willing to accept risks equal to, and in fact significantly 
greater, than those required to upgrade the space telescope, human 
explorers are not going to the Moon, Mars, or anywhere else. And if we 
are not going to engage in human interplanetary travel, then the 
primary rationale for the Space Station program--learning about the 
effects of long-duration spaceflight on human physiology must be 
brought into question as well.
    The desertion of Hubble is an offense against science and 
civilization. It represents a departure from the pioneer spirit, and 
its ratification as policy would preclude any possibility of a human 
future in space. It is an inexcusable decision, and it needs to be 
reversed.
    Dr. Robert Zubrin is President of the Mars Society and author of 
the books The Case for Mars (1996), Entering Space (1999), and Mars on 
Earth (2003).
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                           Hon. Sean O'Keefe
    Question 1. President Bush announced the establishment of the 
Commission on the Implementation of U.S. Space Exploration Policy to 
advise NASA on the long-term implementation of his plan. The President 
stated that the Commission would consist of ``public and private sector 
experts.''
    Can you elaborate on the role that Mr. Pete Aldridge, who, as I 
noted in my opening statement, sits on the Board of Lockheed Martin, 
will have as Chairman of the Commission in determining private sector 
involvement, including that of Lockheed Martin, in the implementation 
of the President's proposal?
    Answer. The Commission's charter and membership were established by 
the President by means of an Executive Order, and the Commission will 
report to the President. NASA's role is limited to providing 
administrative support and expert advice as requested by the 
Commission. Questions on the role of specific Commissioners would be 
appropriate for the White House or the Commission itself.

    Question 2. The amount that the President proposes be spent over 
the next five years on his new space initiative is $12 billion, with $1 
billion in new spending and $11 billion to come from reallocating funds 
from existing programs. What criteria will be used to determine the 
programs that will be cut, and the amounts of these cuts?
    Answer. The new Vision for Space Exploration is designed to fund a 
robust program of space exploration while maintaining fiscal 
responsibility, consistent with the Administration's goal of cutting 
the budget deficit in half within the next five years. NASA's FY 2005 
Budget will increase by $1 billion over five years when compared with 
the President's 2004 plan. In addition to the new funding, the vision 
will be supported by $11 billion in reprogrammed funds over the next 
five years.
    The majority of the $11 billion reallocation, $8 billion over five 
years, comes from human space flight-related programs. These include:

        Discontinue Space Launch Initiative ($5.9 billion over five 
        years)--The vision puts emphasis on enabling the exploration of 
        other worlds, including necessary transportation systems. The 
        vehicles that would have been developed under the Space Launch 
        Initiative were focused on improving the transport of crew and 
        cargo to and from the Space Station. These activities are 
        discontinued in favor of Project Constellation, which will 
        develop a crew exploration vehicle to enable human exploration 
        missions beyond low Earth orbit.

        Space Shuttle Retirement ($1.5 billion over five years)--The 
        vision sets a goal of completing Space Station deployment, 
        planned for the end of the decade. With its Space Station 
        deployment job finished, NASA will retire the Space Shuttle to 
        enable safer approaches to crew transport and to redirect 
        resources towards exploration goals. The five-year projection 
        in the FY 2005 budget assumes savings from Space Shuttle 
        retirement beginning in FY 2008.

        Space Station Research Redirection ($1.2 billion over five 
        years)--The vision refocuses the Space Station on research to 
        enable human exploration of other worlds. NASA has set a goal 
        of finishing this research by 2016. The budget eliminates some 
        Space Station research not tied to exploration needs and 
        redirects resources towards research areas required for 
        exploration.

    Other reductions ($3 billion over five years) come from lower 
priority programs that are not elements of the vision. These include:

        New Start Deferrals and Level Spending ($2.7 billion over five 
        years)--The FY 2005 budget defers the start of new flight 
        projects, such as the Global Precipitation Mission, Solar 
        Terrestrial Probes, and Beyond Einstein, by one or two years. 
        The budget also sustains spending levels at current rates in 
        related Earth Science and Space Science program areas.

        Reduce Space Technology and Defer New Facilities ($300 million 
        over five years)--The budget adjusts space technology funding, 
        aligns remaining space technology activities with exploration 
        needs, and defers construction starts of new facilities until 
        exploration needs can be incorporated in facilities planning.

    The table below summarizes the reductions that make up the $11 
billion redirection.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 2a. How will NASA ensure that these funding cuts will not 
adversely impact NASA's overall mission, including the safety of the 
shuttles and the International Space Station?
    Answer. The FY 2005 budget and associated five-year budget 
projection help ensure Space Station and Space Shuttle safety and 
mission success while also planning for Space Shuttle retirement when 
its role in Space Station deployment is complete, planned for the end 
of the decade.
    The FY 2005 budget provides $4.3 billion for the Space Shuttle, a 9 
percent increase above FY 2004. The budget also provides an increase of 
$700 million for the Space Shuttle through FY 2007, including $200 
million in FY 2005 for return-to-flight activities. The budget assumes 
savings from Space Shuttle only when Shuttle retirement draws near and 
Shuttle activities would begin to phase out, beginning in FY 2008.
    The FY 2005 budget provides $1.9 billion for the Space Station, a 
24 percent increase above FY 2004, primarily due to $140 million for 
new Station crew and cargo services, and $100 million for forward 
funding of Station reserves to compensate for a $200 million 
appropriations cut in FY 2004.

    Question 3. The General Accounting Office (GAO) recently reported 
that NASA is having difficulty meeting its own financial management 
goals. In light of GAO's findings regarding financial management 
controls at NASA, should we be concerned about NASA's ability to manage 
new programs?
    Answer. Improving NASA's financial management is a high priority. A 
major part of this undertaking was the implementation of an agency-wide 
Integrated Financial Management system, and the retiring of 72 
disparate and incompatible accounting systems. We now have financial 
visibility across the agency with the push of a button. This effort was 
necessary to better manage our existing programs, and will help us 
manage and meet the New Vision for Space Exploration.
Background
    GAO and OMB have called for agencies to improve their financial 
management in part by using integrated off-the-shelf enterprise 
software. The deployment of our new integrated financial management 
system is proceeding on schedule, as well as within scope and cost 
parameters described in our April 2003 report to Congress on the 
Integrated Financial Management system. We have been careful to 
incorporate the most recent recommendations from the GAO, and have been 
fully operational agency-wide on the new system since the beginning of 
the current fiscal year (October 2003).
    NASA faced the extraordinary challenge of bringing this new system 
online while attempting to meet an accelerated timeline in producing 
its annual financial statements. When considering the alternative 
implementation strategies, we considered two basic options: (1) bring 
on the new system and produce our financial statements using the old 
legacy systems, or (2) bring on the new system in time to have it 
produce the statements. The first approach required two Herculean 
efforts, while the second required one. Since producing financial 
statements under the disparate legacy systems was already a challenge 
that relied a great deal on painstaking manual reconciliations, we 
decided on the latter strategy, which was admittedly aggressive. In the 
end, it proved to be too much to accomplish in a single year. 
Nevertheless, we are online with a unified system and are in a better 
position not only to meet the new requirements to produce quarterly 
statements, but also meet the challenges set forth by the President.
    Our delay in delivering this information resulted in a disclaimer 
from our auditors for FY 2003. Frankly, this disclaimed opinion 
accurately reflected the sheer magnitude and complexity of the agency-
wide conversion process to our new financial system. For example, the 
phased conversion process required the audit to be performed on both 
the legacy systems and the new system using a ``cross walk'' for 
reconciliations. This complexity and the volume of accounting data that 
had to be converted created a significant delay in delivering our 
financial statements and related financial information to our auditors 
(they were delivered on December 10).
    By June 2003, we had deployed this single integrated system in all 
of our Centers, allowing us to retire approximately 72 separate and 
incompatible accounting systems across the Agency and ``clean'' up 
about 12 years of financial data (several million entries). Our focus 
now is on stabilizing this new system under full operational 
conditions, learning how to optimize it capabilities, perfecting the 
training of our several thousand users, and fixing remaining ``bugs'' 
which could only be identified under fully operational conditions.
    For 2004, given the recent conversion to our new system, we are 
managing our audit as a full-blown project rather than as a regular 
process, assigning to the task to a dedicated team of both accountants 
and system experts reporting directly to the Deputy Administrator and 
the Agency CFO. Additionally, we have converted the entire agency to a 
full cost accounting environment to better track and analyze the costs 
of individual projects and programs. This innovation led to NASA 
receiving an honorable mention at the President's Quality Award 
ceremony recognizing best practices in budget and performance 
integration.

    Question 4. As part of the Administration's roll out of the new 
program, Senate staffers were briefed on the plan by staff from the 
National Security Council. Are there any national security or military 
components to the new space program?
    Answer. The fundamental goal of the Vision for Space Exploration is 
``to advance U.S. scientific, security, and economic interests through 
a robust space exploration program.'' The vision does not have any 
specific national security or military components, and the President's 
budget submission for NASA for FY05 does not contain any such new 
vision-related initiatives. NASA and the Department of Defense 
routinely consult at senior levels and cooperate to meet common 
requirements, and these practices will continue as we implement the 
Vision for Space Exploration.

    Question 4a. If so, will the Department of Defense contribute 
funding to this new program?
    Answer. No DoD contributions to the Vision for Space Exploration 
have been identified or sought. DoD and the commercial sector may 
develop future Earth-to-orbit launch systems, with NASA as a capability 
purchaser rather than a developer, unless NASA has a unique requirement 
that cannot be satisfied by those sources.

    Question 5. In your written testimony you state, ``the budget 
strategy will not require large balloon payments by future Congresses 
and Administrations.'' Considering our experience with the 
International Space Station, what assurances can you give us that 
enormous cost overruns that require these balloon-type payments won't 
happen again?
    Answer. The pacing and phasing of the activities laid out in the 
NASA budget strategy are fiscally responsible and, by design, will not 
require any large balloon payments. With regard to past ISS overruns, 
we have instituted many management reforms that have worked well to get 
spending under control. We will apply these lessons learned to future 
activities encompassed by the Vision for Space Exploration.
    NASA is adopting an approach to vehicle and systems development 
based on the Defense Department's ``spiral development'' model. This 
approach emphasizes the use of existing technologies and the 
incremental demonstration of performance. By focusing research and test 
programs on rapid deployment of technologies that can be evolved, NASA 
will ensure that it is focused on the capabilities that are most 
critical to exploration. NASA's exploration programs will also employ 
management techniques such as earned value management, which will 
ensure that costs are allocated based on strict planning geared towards 
the President's priorities. Through the combination of these techniques 
and a commitment to managing requirements within budget guidelines, 
NASA will make the hard choices needed to realize the Vision for Space 
Exploration without the need for large balloon-type payments.

    Question 6. The President's space proposal calls for completing the 
International Space Station (ISS) by 2010 and terminating Shuttle 
operation in 2010. What are NASA's plans for servicing the ISS 
operations after 2010 and before 2014 when the President proposes to 
have the Crew Exploration Vehicle available?
    Answer. Based upon President Bush's directive to phase out the 
Shuttle once the ISS assembly is complete, planned for the end of the 
decade, NASA is re-assessing the ISS final configuration, logistics, 
maintenance, and utilization upmass and downmass requirements in 
coordination with the International Partners. This re-assessment 
includes both pressurized and unpressurized cargo and will revisit 
research requirements in light of the Vision for Space Exploration. The 
ISS Program, with the International Partners, will develop a plan for 
meeting the revised cargo requirements through existing vehicles, those 
approved for development by our Partners, and through the potential 
purchase of commercial supply and return services. Current and planned 
international partner vehicles include Russian Soyuz and Progress 
vehicles, the European Automated Transfer Vehicle, and the Japanese H-
II Transfer Vehicle. Commercial cargo transport services will also be 
considered. Use of the new Crew Exploration Vehicle may also be 
examined.

    Question 7. The overall projected budget for the new space proposal 
is $12 billion for the next five years, which includes the design, 
development and operation of the Crew Exploration Vehicle. The total 
cost for the Orbital Space Plane (OSP) now on the drawing boards had 
been estimated at more than $15 billion. Can you explain how NASA can 
afford to implement a comprehensive Moon-Mars space program for less 
than the cost of the OSP--a vehicle intended exclusively to service the 
International Space Station?
    Answer. Implementing the Vision for Space Exploration is a multi-
decade endeavor. Where the OSP had been proposed to be completing 
development within the horizon of the President's budget, only the 
first five years of the exploration vision are covered by the budget. 
In order to leverage its investment in the OSP Program, NASA will 
conduct a full review of OSP's management and technology with an eye 
towards applying the past work of the Orbital Space Plane Program to 
Crew Exploration Vehicle (CEV) development. The CEV will be designed 
for simplicity and robustness. NASA has made great strides in bringing 
its programs' costs under control. The International Space Station, for 
example, has implemented management reforms that have moved the program 
onto sound financial footing. The CEV will be developed at a deliberate 
pace, one step at a time, learning and improving with a first test 
flight before the end of the decade and the first crewed mission 
targeted for 2014. Most of the large-scale development for the CEV will 
be conducted using funding freed up by the retirement of the Shuttle, 
planned for the end of the decade.
    For the CEV and other exploration systems, NASA is adopting an 
approach to vehicle and systems development based on the Defense 
Department's ``spiral development'' model. This approach emphasizes the 
use of existing technologies and the incremental demonstration of 
performance. By focusing research and test programs on rapid deployment 
of technologies that can be evolved, NASA will ensure that it is 
focused on the capabilities that are most critical to exploration. 
NASA's exploration programs will also employ management techniques such 
as earned value management, which will ensure that costs are allocated 
based on strict planning geared towards the President's priorities.

    Question 8. The most recent Interim Report of the Return to Flight 
Task Group states that ``Detailed plans for many of the recommendations 
have not been forthcoming. NASA has not been timely in some of their 
responses to Task Group requests for information.'' Given the need for 
a safe and timely return to flight, such reports of questionable 
cooperation from NASA are disconcerting.
    Please comment on NASA's cooperation with information requests from 
the Return to Flight Task Group.
    Answer. NASA intends to cooperate fully and openly with the Return 
to Flight Task Group. Nearly all of the technical information requests 
from the Return to Flight Task Group have been fulfilled. Many requests 
for information were in the areas of management, organizational, and 
cultural changes. These critical areas under consideration by NASA have 
been deliberately debated and scrutinized within NASA to make certain 
that there are no unintended consequences of our proposed actions.
    NASA officials met with members of the Task Group during a fact-
finding meeting in late February. During the meeting, NASA provided 
updates on several products and responded to many of the Task Group's 
actions. Public discussion and recommendations are expected during the 
Task Group's upcoming plenary meeting on April 24-25.

    Question 9. Could you please explain your rationale for canceling 
the servicing mission for the Hubble Space Telescope:
    Answer. The difficult decision to forego a Space Shuttle mission 
dedicated to the fifth on-orbit servicing of the Hubble Space Telescope 
(HST) was arrived at only after a thorough consideration of the report 
from the Columbia Accident Investigation Board, potential risks and 
safety concerns for the astronauts, and the current and expected health 
of the telescope. The primary driver for this decision was safety, not 
budget.
    If NASA had decided to pursue the fifth servicing mission, at a 
minimum our plan to satisfy CAIB recommendation 6.4-1 (regarding TPS 
Inspection and Repair Capabilities) would require:

  <bullet> Development of an autonomous repair capability (i.e., one 
        independent of the International Space Station) using an 
        instrumented boom ``carried'' by the Shuttle Remote Manipulator 
        System to inspect for damage on flight day two to the Thermal 
        Protection System and Reinforced Carbon-Carbon wing leading 
        edge.

  <bullet> A second orbiter and crew ready, on the launch pad, in the 
        event of a problem preventing the safe return of the SM 4 
        orbiter.

  <bullet> A rescue capability requiring the free-flight exchange of 
        personnel between the two orbital vehicles and an understanding 
        of the problems on the first vehicle such that risking 
        additional personnel on the rescue vehicle would be justified.

    In addition, the new inspection and ``second Shuttle'' technologies 
and procedures would be developed for a one-time use for HST servicing. 
This is because Hubble's unique orbital inclination (28 degrees) is not 
compatible with that of the International Space Station (ISS, which 
orbits at a 51-degree inclination); the new launch/mission safety 
procedures assume Shuttle access to ISS.
    The return-to-flight manifest has not been firmly established yet; 
however, for planning purposes, it was decided that the earliest SM-4 
could be manifested was mid-2006; 2007 represented a more likely 
scenario.
    HST is operating normally and will continue to function until age 
and natural wear take their inevitable toll on its components; current 
predictions estimate that the observatory will continue to operate 
until 2007-08. Since the likely launch date and the predicted end of 
HST science operations are so close, there is a significant possibility 
that the observatory will no longer be operational at the time of the 
mission.
    NASA is aggressively looking for innovative ways to extend the 
science lifetime of Hubble as far as possible. There is enough HST data 
(already existing and yet to come) to keep researchers busy for years 
to come. We are planning a robotic mission to de-orbit the observatory 
safely once it can no longer conduct world-class science.

    Question 10. Your testimony claims that $4 billion will be freed up 
for the President's new space initiative by retiring the Space Shuttle. 
Based on the CAIB report's description of how previous transfers from 
the Space Shuttle account led to cost pressures that contributed to the 
Columbia accident, how do you intend to ensure the shuttles' safety 
while making these cuts?
    Answer. We are applying the lessons learned from the CAIB into the 
return to flight plan for the Space Shuttle and are committed to flying 
safely until the Shuttle is retired. The FY 2005 President's request 
adds approximately $690 million more to the Space Shuttle budget 
through FY 2007 compared to the FY 2004 President's budget request and 
covers the critical years of the International Space Station assembly. 
Reductions in the Shuttle budget start only in FY 2008, as hardware 
production is phased-down.

    Question 11. Public response to the President's announcement has 
been lukewarm. A Time/CNN poll reports that about 62 percent of 
Americans disapprove of the President's plan. The Associated Press poll 
reports that 55 percent say they would prefer spending funds on other 
programs. Why do you think the public has not been more enthusiastic?
    Answer. Polling data over time indicate broad public support for 
space exploration. Given the recent timing of the President's 
announcement, many mistaken notions about the cost and goals of the 
program are still widespread. The extraordinary public fascination with 
the results of the current Mars Exploration Rover missions attests 
that, when results are visible and long-range plans become present 
realities of discovery and exploration, the public is enthusiastic, 
supportive, and inspired.

    Question 12. The Orbital Space Plane (OSP) was intended to serve as 
a ``lifeboat'' for astronauts, and be attached to the International 
Space Station (ISS). The President has proposed that the Crew 
Exploration Vehicle (CEV) be able to transport crew to the ISS.

    (a) Will the CEV also have the capacity to serve as a ``lifeboat'' 
for astronauts?
    Answer. The CEV program is a new initiative focused on a different 
set of requirements than the OSP program. The CEV will be developed for 
missions beyond low Earth orbit. It may be able to perform some crew 
transfer functions that the OSP would have performed, but the emphasis 
in CEV design will be centered on exploration. Decisions will be made 
so that the CEV design assures the safety of human crews and the 
sustainability of future exploration.

    Question 12b. Will NASA initiate a new procurement process for the 
CEV or will NASA continue with a revised OSP process?
    Answer. NASA will initiate a new procurement process. NASA is 
committed to making full and open competition a hallmark of the CEV 
program. By the end of the summer of 2004, the Office of Exploration 
Systems will define Level 1 requirements for the CEV program in 
preparation for the issuance of an RFP for concept development in the 
fall of 2004.

    Question 13. Part of the President's plan called for going to the 
Moon. We landed on the Moon 35 years ago. How much of the technology 
that was used during the Apollo missions will be used for the return 
mission?
    Answer. We will seek to use all past exploration experience as we 
move forward to implement the new Vision for Space Exploration. There 
has been significant technology development since we first landed on 
the Moon 35 years ago. However, at this early stage of program 
development it is too early to quantify what, if any, of the past 
technologies used during the Apollo missions would be used for future 
missions.

    Question 14. You have chosen retired U.S. Navy Rear Admiral Craig 
Steidle to head the new Exploration Systems Enterprise. RADM Steidle 
was the former manager of the Defense Department's Joint Strike Fighter 
program. Do you envision that the CEV will be developed using the 
competitive prototype approach used to award a contract for the Joint 
Strike Fighter?
    Answer. NASA's Office of Exploration Systems will utilize a number 
of the best practices that were developed in the Joint Strike Fighter 
program as well as other Defense Department initiatives. Among those 
are the spiral development approach to program phasing, which 
emphasizes incremental evolution based on demonstrated systems 
performance, and the formulation of acquisition strategies that 
maximize full and open competition between private sector teams.

    Question 15. In your written testimony, you have stated that NASA 
``will be making decisions on how to best implement new programs,'' 
some of which ``will not be easy.'' Could you please describe what some 
of these decisions are?
    Answer. To implement the new exploration vision, a number of key 
NASA program and institutional realignments will have to be undertaken. 
Examples include:

  <bullet> Space Station Research--Refocusing plans for research aboard 
        the Space Station, as well as other Biological and Physical 
        Research, to understand factors affecting astronaut health on 
        long-duration voyages into deep space and to other worlds and 
        develop appropriate countermeasures, life support, and other 
        systems.

  <bullet> Space Transportation--Transitioning from the Orbital Space 
        Plane (OSP) and Next Generation Launch Technology (NGLT) 
        programs to the Crew Exploration Vehicle (Project 
        Constellation).

  <bullet> Space Technology Research--Realigning technology development 
        in the Mission and Science Measurement program theme to support 
        future exploration system needs.

    Question 16. The James Webb Space Telescope (JWST) is a proposed 
orbiting infrared observatory that is expected to replace the Hubble 
Space Telescope (HST) at the end of the decade. How will the 
President's new space agenda affect plans to develop the James Webb 
Space Telescope?
    Answer. The James Webb Space Telescope continues to be a priority 
for NASA, and it dovetails well with the President's new space agenda. 
As the cornerstone mission for NASA's Astronomical Search for Origins 
science theme in the next decade, JWST will search for extrasolar 
planets, some of which may boast habitable environments. This effort 
supports the Renewed Spirit of Discovery: The President's Vision for 
U.S. Space Exploration, which calls for the implementation of a human 
and robotic program to explore the solar system and beyond. JWST is 
also the number one priority for the astronomical community, as noted 
in the National Academy of Sciences' Decadal Survey released last year.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           Hon. Sean O'Keefe
    Question 1. You mentioned in your testimony that NASA will comply 
with the Columbia Accident Investigation Board's recommendations prior 
to returning to flight. Does NASA have a plan for complying with all of 
the CAIB's recommendations? If so, how long will it take to implement, 
and at what cost?
    Answer. On September 8, 2003, NASA submitted to the Committee a 
copy of the Agency's preliminary Implementation Plan for Return to 
Flight and beyond. Updates to the Plan have been provided to the 
Committee on October 15, 2003, November 20, 2003, and most recently on 
January 30, 2004. This Plan addresses NASA implementation strategy for 
complying with each of the 29 CAIB recommendations and will be 
periodically updated as progress is made or as issues arise. All 
updates to the Plan are provided to the Committee.
    The plan lists preliminary schedule and cost estimates for 
implementing each CAIB recommendation. These estimates will be revised 
as NASA refines all of the activities necessary to respond to the 
recommendations. Because these activities are in various stages of 
maturity, cost estimates represent only those activities that have been 
approved for implementation and funded by the Space Shuttle Program. 
NASA intends to implement all of the recommendations categorized as 
``Return to Flight'' prior to resuming operations of the Space Shuttle.

    Question 2. Did the Administration consult with space officials 
from foreign governments before developing the new space proposal? Did 
you meet with any representatives from China, the European Space 
Commission, Japan, or any other country with a developed space program 
or our foreign partners for the purpose of gaining assistance with 
developing the President's proposal?
    Answer. Key foreign governments with space programs, including the 
International Space Station partners, China, and India, as well as 
close allies such as Australia, the United Kingdom, and Israel, were 
notified in advance of the President's announcement. NASA maintains 
extensive contacts with foreign space agencies and has followed up the 
President's announcement with additional briefings. The vision 
specifies a role for international cooperation in exploration, which 
NASA will pursue.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                           Dr. Louis Friedman
    Question 1. In your written testimony, you expressed great much 
enthusiasm about the potential benefits that could be achieved from 
having an outpost on Mars.

    (a) What benefits do believe can be achieved from an outpost on 
Mars?
    Answer. A Mars Outpost can be a meaningful goal for robotic 
exploration--a focus for disparate scientific and technical objectives. 
Geologic, geochemical, atmospheric, environmental measurements, in-situ 
resource utilization pilot development, navigation aids (beacons) and 
communications infrastructure can all be set up as part of the Mars 
Outpost. The robotic program is served by each of these, and 
preparations are begun for the humans.
    It would be a publicly exciting project-development and monitoring 
of the martian outpost. People, especially children, around the world 
could watch (and ultimately even interact on computers with) the 
landing site development on Mars-from a few simple robots to a base for 
human operations.
    Human mission costs would be lowered and more reliable because of 
the infrastructure and robotic preparations. By the time humans 
actually landed there a lot of the cost and support would be borne.

    (b) Does this enthusiasm extend to an outpost on the Moon as 
proposed by the President?
    Answer. The Moon has been explored a lot, with robot spacecraft and 
with humans, and there is no compelling question for humans there (the 
questions of life, or of our evolution as a multi planet species). A 
lunar outpost as an goal might be seen publicly as for dubious or 
trivial purpose. The image of playing golf on the Moon might be what it 
recreates. That is one reason the Apollo program ended. However if an 
outpost on the Moon was a prototype or preparation for the Martian 
outpost, a temporary practice area, that might be valid, both 
technically and with the public, because it would be an engineering 
step-as was Gemini to Apollo.

    Question 2. It has been reported that the President's proposal will 
cost between $170 billion and $600 billion. Yet the President has only 
proposed providing $12 billion over the next 5 years.

    (a) Do you agree with the reported cost estimates?
    Answer. I have little basis for an independent cost estimate. I do 
not know where this range has come from, or what assumptions went into 
it. The President's proposal is in one sense open-ended; even though it 
has specific objectives along the way, which can be costed. But, 
extending human presence into the solar system is not something that 
admits a total cost estimate. I agree that the five year cost estimate 
should include only those specific programs that have been approved for 
starting down the path of sending humans to Mars--and have no reason to 
disagree with the $12 billion estimate for that. Later programs, 
including the sending of humans to the Moon and Mars will be costed by 
building on the experience and accomplishments of the earlier steps. As 
a guess, I would say the incremental decision necessary by the Congress 
for sending humans to Mars should be in the range of $50 billion to 
within a factor of two ($25-95 billion.)

    (b) Do you believe that $12 billion is sufficient funding to start 
the new programs proposed by the President and still meet the goals he 
has laid out for travel to the Moon and Mars?
    Answer. Again, I have no basis for independent cost analysis. But, 
I believe it is reasonable, and the proper way to begin. The five-year 
programs involve a major redirection for NASA; it is better to do that 
with a limited budget, than with an open-ended one. That will help 
force the changes. Hopefully, after that the experience and 
accomplishments will make the next steps affordable.

    (c) Are you aware on any factors that could significantly increase 
the cost of this proposal that are not currently being considered?
    Answer. There are many. Chief among them are bad management, lack 
of focus on the goal of sending humans to Mars and/or introduction of 
spurious additional objectives that detour the program. This can happen 
for example when the program is made to serve scientific, technological 
or geographical or other political constituencies with new objectives 
not otherwise serving the main goal. Others have said that the current 
NASA organization is not up to this task and will inflate the costs 
either to increase funding or to resist changes. I agree that changes 
in NASA will have to be made but I would not assert that they cannot be 
made.

    Question 3. Can you expand on your written statements regarding the 
ways international collaboration on the Moon-Mars mission may benefit 
the United States space exploration program?

    (a) What lessons should we apply from on our experience with the 
International Space Station to an international partnership for our 
further exploration of space?
    Answer. The space station was enabled and saved by international 
cooperation. Until 1994 (when at that point despite a decade of program 
existence it was still only a paper concept) it had neither the 
political support or technical robustness to be developed. When the 
Russians were brought in, hardware and accomplishments in the program 
began to proceed rapidly--even with some enormous practical problems. 
Currently we rely on international cooperation for maintenance and 
access to the space station.
    International cooperation increase the political base of big 
projects and provides a wider range of assets for their success. It can 
reduce costs, although in some cases that is offset by increased 
complexity. The main benefit is being able to achieve more, and provide 
more options for the success of complex projects.
    In the case of the new space policy other countries might be able 
to do particular precursor missions, add to technical developments and 
contribute specific systems and sub-systems for the many parts of the 
Moon and Mars programs. Additionally a broad international public 
interest will provide resiliency to the program as well as expanding 
the public educational and scientific benefits.

    Question 4. You have advocated the establishment of robotic Mars 
outposts as a strategy for avoiding the personnel risk and increased 
costs associated with human exploration of Mars.

    (a) How will these robotic outposts on Mars reduce cost?
    Answer. Robotic Mars Outposts will set up infrastructure like 
navigation beacons, communications systems, and in-situ resource 
utilization for future human missions. They will also provide extensive 
surveys of the eventual landing areas for humans, preparing them and 
making the exploration tasks more efficient.

    (b) Do you think the establishment of outposts on the Moon is an 
essential step to a successful mission to Mars?
    Answer. No, I do not think a lunar outpost is necessary for a 
successful Mars mission. The moon is very different, and has few of the 
characteristics that can really help prepare for Mars missions. One 
important exception that might mitigate this assertion is the value of 
practicing various engineering and human work activities at a closer 
location. I have always thought this could be done more cheaply on 
Earth, but I admit that there may be some argument for doing such 
practice activity on the Moon. NASA should study it, but they should 
consider the cost and the effect on the overall Mars mission plans when 
they do so. If lunar activities do make sense, it certainly would not 
be in the form of permanent presence on the Moon--that would bog us 
down on the Moon and delay any Mars mission planning.
    If we conduct Moon missions as a preparation for Mars missions, 
they should be temporary and limited.

    Question 5. At a hearing last year on Lunar Exploration, the 
Committee heard testimony that the Moon could be used as a resource for 
solar power, or for mining the isotope Helium-3. What are your thoughts 
on these proposals?
    Answer. The answer has three parts: (1) resources for Earthly use, 
(2) resources for lunar use and (3) resources for Martian use. But even 
before considering those separately, let us note that solar power has 
been found to very uneconomical on Earth. Imagine the lunar cost-it 
would be enormous. And, fusion power has not even be invented yet for 
Earthly applications, so finding a fuel source for it (even if were 
cheap) is no basis for a program decision.
    I cannot imagine a day when lunar resources would have any Earthly 
use as an energy source. Costs of transporting things to the Moon to 
create incredibly hard-to-manufacture devices there to then transport 
as energy back to the Earth seems obviously much more expensive 
compared to finding Earthly alternatives.
    Making energy on the Moon for lunar use might be economically 
feasible depending on what the economic justification is for having 
power on the Moon in the first place. Science fiction scenarios of 
lunar cities could economically employ lunar power sources, I suppose; 
but what economic rationale would there be for the lunar city? For all 
applications I can conceive it would be far more economical to bring a 
few nuclear reactors to the Moon, than to try to bring the material 
necessary to make a lunar manufacturing plant.
    Using lunar resources for Martian exploration is as impractical as 
using it for Earthly applications. In addition to having to bring 
everything to the Moon to extract and then manufacture resources, you 
now would have to bring it out of the lunar gravity to send it to Mars. 
Mars has easily accessible oxygen and other molecules for fuel 
production--the Moon does not. Mars, with high likelihood, has water 
that is reasonably accessible. The Moon does not (any isolated patches 
of ice will certainly be located in hard to reach places, and of very 
low density of water molecules). So it will always be easier to solve 
Martian resource use with a combination of Earth and Mars resources 
than trying to extract anything out of the Moon.

    Question 6. In your written testimony, you state that a permanent 
lunar base could make the Martian exploration program ``prohibitively'' 
more expensive. Yet as proposed by the President, a going back to the 
lunar surface is integral step to the to development and testing of new 
approaches, systems, and technologies for Mars exploration. What are 
your thoughts on the cost versus the benefits of going back to the 
lunar surface?
    Answer. Cost vs. benefit should certainly be studied. I stated in 
answers to earlier questions my concerns and skepticism about lunar 
activities in support of Mars missions. While some lunar activities 
might help, constructing a permanent lunar presence or developing a 
lunar outpost for hypothetical use of lunar resources would add 
enormous additional and unnecessary costs and schedule to sending 
humans to Mars.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                               Neal Lane
    Question 1. In your testimony, you outline the many contributions 
to space science made by NASA. In particular, you highlight the value 
of NASA's space-based astronomical telescopes. There have been reports 
of NASA discontinuing service missions to and phasing out the Hubble 
Space Telescope to preserve funds for the new Moon-Mars mission. What 
do you think is the long-term impact of such funding strategies on 
space science?
    Answer. There are many important scientific facilities and robotic 
missions already planned and others not yet conceived. These unmanned 
missions are by far the most cost effective way to do science. My 
concern is not only that money needed for human space exploration would 
erode the science budgets, especially given the need for substantial 
reallocations of money within the NASA budget, but also the fact that 
science and exploration are easily confused in most people's minds. It 
is disappointing that a decision has been made to terminate the 
enormously successful Hubble Space Telescope, and a planned servicing 
mission has been cancelled. NASA's space science can not only provide 
the information needed for missions proposed in the next few decade, 
but it also can be a valuable source of information to help lead the 
country and the world into new ventures in the future. Canceling highly 
successful programs, such as the Hubble Space Telescope, might seem to 
help with current budget problems, but in the long run, NASA and the 
astronomy community will miss out on important scientific discoveries. 
It is precisely this kind of tradeoff between science and human 
spaceflight that I warned the Committee about in my testimony. The 
decision does not bode well for the future of NASA and the space 
program.

    Question 2. How do you think universities will be impacted by the 
shift in funding priorities at NASA in order to cover the costs of the 
Moon-Mars mission? Will it lead to an increase in Congressional 
earmarking as universities fight over a smaller pot of money?
    Answer. I believe that NASA has been given an ambitious spaceflight 
agenda and high expectations without the necessary commitment to fund 
it. Recognizing that science has been the heart and soul of NASA, I am 
confident that the agency will attempt to protect science while moving 
forward with this bold plan, but science should be enhanced not 
protected. Moreover, as realistic cost estimates are developed and 
corresponding budget requests made to the Administration and Congress, 
NASA science will suffer. Science will not be able to compete with the 
momentum of an ambitious human spaceflight agenda that will demand that 
schedules are met and contracts honored. There will be new 
opportunities for research related to the goals of the human 
spaceflight program, in particular the long-term effects of zero-
gravity and other conditions of living in space on human beings. 
However, most NASA-supported researchers do not work in the area of 
human physiology and psychology. There will also be important work to 
be done in engineering and technological development.
    With regard to earmarking, the trend already is toward more, not 
less. As funds get tight and NASA begins to reallocate funds among 
fields, cutting some programs expanding others, more earmarking is 
inevitable. I stated in my testimony that in order for NASA to stand 
any chance of being successful with the new goals the President has 
outlined, the Administrator must be given the opportunity to truly 
manage the agency, look for efficiencies, streamline programs and 
responsibilities, and fund those projects that enhance its mission--
science, human spaceflight, and aeronautics--without having the 
constraints of excessive earmarked spending and interference with 
administrative decisions.

    Question 3. In your testimony, you stated ``Any considerations of a 
change in national space policy should insure the continued health of 
NASA's space science programs.'' Do you think the Moon-Mars mission as 
currently presented accomplishes this goal?
    Answer. The Moon-Mars mission, as proposed by President Bush, 
continues many of NASA's successful scientific endeavors including its 
robotic exploration and research, research in human physiology in a 
space environment, and the development of newer, more sophisticated 
nuclear power and propulsion systems. NASA has always supported a broad 
spectrum of fundamental space-related science activities. That has 
contributed to the international reputation for high standards of 
scientific excellence that NASA has garnered throughout its history. 
Its science programs have not only been the foundation of the agency--
its solid underpinning--they have also contributed to its human 
spaceflight programs by providing knowledge that makes going into space 
rewarding and the technology that makes human spaceflight possible. In 
order for NASA to continue to be successful, science should be included 
among the highest-priority goals of the agency. Otherwise, science 
falls in the category of ``to be protected'' rather than ``to be 
enhanced''. Science is the heart and soul of NASA. If NASA science is 
allowed to weaken, then the agency is weakened as well.

    Question 4. You discussed the importance of the United States 
achieving a balance between promoting international collaboration in 
space exploration and protecting U.S. citizens against terrorist 
activities.

    (a) What do you see as potential threats of international 
collaboration in space exploration?
    Answer. As with every other activity, of course it is important to 
assure that those who visit our country and with whom we collaborate on 
space research, developing new technologies, and conducting spaceflight 
are friends, not enemies, but I would emphasize that scientists have 
had a long successful history of international collaborations. During 
WWII, the U.S. brought the best and brightest minds together, 
regardless of their nationalities, to help develop technology needed to 
win the war. During the cold war, Russian scientists were invited to 
visit this country and our scientists visited the Soviet Union. 
Continuing this openness to people of all nations who wish to come to 
the U.S. to study and work, has allowed this country to become the 
technological and economic giant of the world. Promoting a free 
international exchange between researchers and technical professionals 
can only improve the work done by NASA and U.S. scientists and 
engineers. Had we not chosen to involve Russia on the critical path in 
the construction of the International Space Station, we would not have 
been able to continue to support the Station following the Columbia 
tragedy. Many of the brightest and most capable scientists and 
engineers are born in other countries, obtain their degrees in foreign 
institutions, even make their discoveries outside our borders. 
Moreover, the U.S. does not make all the important technological 
breakthroughs. The cumbersome process used by the State Department to 
license the export of space technologies has seriously damaged the 
ability of our space industry (particularly the satellite industry) to 
compete. This export control process will make cooperation in space 
very difficult in the future. We harm ourselves by isolating America 
from this international pool of talent, ideas, and technological 
capability. Following 9/11, the fear of terrorism is understandable and 
caution is warranted. However, allowing fear to shut down much of our 
space industry and cut off interactions between scientists, engineers 
and other talented individuals will seriously damage our nation--in 
space and in everything else we believe is important to our future.

    (b) How do you think the U.S. can simultaneously guard against 
these threats while encouraging maximum collaboration with other 
nations?
    Answer. The U.S. can encourage maximal international collaborations 
by keeping open and honest relationships between researchers and by 
allowing scientists to interact on a regular basis. NASA and other 
agencies involved in scientific research can work with the State 
Department to help streamline the visa process. The U.S. isn't the only 
nation interested in the exploring the universe and capable of 
performing the research and developing the necessary technologies. By 
opening up to ideas from other nations in the pursuit of these goals, 
we can achieve them faster and cheaper. When we isolate ourselves we 
become a target, but when we include other nations together we promote 
a spirit of cooperation and leave terrorists without a message.

    Question 5. How will this new mission affect NASA programs not 
directly related to space exploration, such as Earth Science and 
Aeronautics enterprises?
    Answer. With NASA focusing on space exploration and related 
research, many of its important astronomy and earth science research 
will find themselves crippled with cutbacks necessary to fund human 
space exploration. Already, NASA has announced plans to discontinue 
servicing the Hubble Space Telescope, which in its 14 years of 
existence, has expanded our understanding of star birth, star death, 
and galaxy evolution, and has helped move black holes from theory to 
fact. Other programs, such as NASA's Earth Science Enterprise, that 
provides important data on aspects of the earth's atmosphere, oceans, 
and land, could also be in jeopardy. These successful programs are 
vital not only to the future direction of space exploration and 
research, but programs like the Earth Science Enterprise is key to 
helping understand climate change and weather prediction two problems 
we have here on planet Earth. Although I am excited about the 
implementation of a direction for NASA's human space flight, I'm also 
concerned that it might harm these and other research project, which 
are also worthwhile. NASA science must be one of its highest-priority 
goals. Otherwise it is always in jeopardy of being cut when the budget 
gets tight. When the President of the United States leaves science out 
of his new vision, the message is ``do the science on the side!'' That 
would be very damaging to NASA and the U.S. space program.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                         Dr. Howard E. McCurdy
    Question 1. In your written testimony, you reference the cost 
overruns for the development and operation of the International Space 
Station.

    (a) Do you see the possibility of similar cost overruns in the new 
space proposal?
    Answer. Without a fundamental change in the way the human space 
flight program is managed, the cost of the new space endeavor could be 
astronomical. The Apollo flights to the moon, in today's dollars, cost 
$150 billion. The moon-Mars initiative is far more ambitious. Yet it 
need not cost a great deal. Administration officials have set the 
incremental cost of undertaking the initiative over the next sixteen 
years at $42 billion (in real year dollars)--the difference between the 
overall NASA budget with the new initiative and the budget without it. 
Sixteen years is sufficient time for NASA officials to develop low-cost 
methods and technologies--or discover that they cannot do so.
    The last two human space flight initiatives--the space shuttle and 
International Space Station--began as cost-reduction efforts. The space 
shuttle was conceived as a means to cut the cost of space access ``by a 
factor of ten.'' Yet the people who actually built the space shuttle 
received so many conflicting objectives that they could securely ignore 
the cost reduction goal. The people who conceived the original space 
station deliberately set its price low in an effort to impost cost 
discipline on NASA field centers and their contractors. In the internal 
struggle that followed, officials at NASA headquarters lost control of 
the project to people who ran the program in the traditional, high-cost 
way. Without substantial changes in the human flight program, that 
history will occur again.

    (b) Do you have any recommendations on how such cost overruns could 
be avoided in the future?
    Answer. NASA executives have achieved substantial cost savings 
without overruns in their robotic space activities. They have done this 
by setting firm (and realistic) cost goals and communicating the 
importance of those goals to project workers. Those workers in turn 
have elevated the importance of meeting cost targets to a level 
commensurate with scientific objectives. Workers who fail to meet cost 
targets have seen their projects terminated. The overall result has 
been a firm commitment to the technologies and management improvements 
necessary to complete cost-controlled undertakings.
    To repeat this process on the moon-Mars initiative, Congress would 
need to set firm cost targets for elements within the endeavor, such as 
the development of the crew exploration vehicle. Congress might also 
encourage NASA to use an important technique from the robotic science 
effort. Project advocates are forced to compete to get their projects 
approved--and there are far more losers than winners. Competition 
between robotic and human elements might spur innovation in both. It 
would be a radical move, but Congress might consider combining robotic 
and human projects at one center. Before President Kennedy launched the 
moon race, Congress had intended to merge robotic and human flight 
efforts at what became the Goddard Space Flight Center in Maryland. 
Together, competition and firm cost targets would give the United 
States a fighting chance to carry out the new proposal at a reasonable 
cost.

    Question 2. While Administrator O'Keefe has done much to refocus on 
safety at NASA, it is clear that much remains to be done to change the 
institutional thinking and culture at NASA in order to continue its 
current missions, more or less, take on new ones.

    (a) Have you seen any significant evidence of this much needed 
change at NASA?
    Answer. Cultural change is a long-term process that requires top-
level leadership, new symbols and language, the recruitment of new 
personnel, extensive training, and fresh programmatic challenges. 
Administrator O'Keefe recognizes the need for cultural change in the 
human space flight program and has begun the process. While I have not 
studied the reforms in sufficient detail to render a specific judgment, 
I can assure you that cultural change in the human space flight program 
is unlikely without a fresh programmatic challenge such as that offered 
by the moon-Mars initiative.

    (b) What recommendations would you make regarding such change?
    Answer. One of the best reasons for undertaking the moon-Mars 
initiative is that it promises to transform NASA.

    Question 3. In your written testimony, you stated that ``NASA has 
lost too much of its in-house technical capacity.'' How do you think 
this loss will impact NASA's ability to produce a successful Moon-Mars 
mission? What should NASA do to increase its ``in-house technical 
capacity?''
    Answer. The history of recent Mars exploration, from Pathfinder 
(built in-house) to Mars Climate Orbiter (contractor controlled), 
supports the importance of strong in-house technical capability. Hollow 
government organizations, without substantial in-house expertise, 
typically lack the technical authority necessary to restrain cost 
growth and promote innovation. The best way to enhance NASA's in-house 
technical capability would be to insist that major systems, such as the 
crew exploration vehicle, be assembled and tested in-house at NASA 
facilities. Contractors will continue to make substantial contributions 
as suppliers of scientific instruments and subsystems, but the assembly 
and testing process should be done under the direction of small, 
cohesive, technically-competent NASA teams. The only exception to this 
rule would be a case in which a contractor received the whole 
responsibility for a particular mission, as occurred in the development 
of the Near Earth Asteroid Rendezvous (NEAR) spacecraft, which was 
build at and flown from the Applied Physics Laboratory in Laurel, 
Maryland. In general, excessive distribution of work to contractors 
increases overall costs and creates a hollow NASA that lacks the 
capacity for smart technical work.

    Question 4. What are your thoughts on the American public's 
lukewarm reaction to the President's proposal?
    Answer. Public interest in the Spirit and Opportunity landings was 
exceptionally high. The Spirit landing was the top news story that week 
(exceeding public interest in Brittany Spear's wedding which was number 
two!). Future interest in robotic and human exploration of the inner 
solar system will be similarly intense, if accompanied by the same 
technological advances and cost improvements that have characterized 
robotic flight. Public apprehension arises from the recent history of 
human space flight and the understandable fear that human elements will 
cost too much. Informed people rightly suspect that the tradition of 
cost largess will overwhelm the promise of low-cost innovation.

    Question 5. In your written testimony you explain how both the 
Shuttle and the ISS programs could not meet requirements because they 
were designed to be all things to all people. How do we prevent 
missions, such as a lunar outpost or robotic explorers on Mars, from 
being overburdened with too many requirements and suffering from a lack 
of focus?
    Answer. In the first space exploration initiative (1989), the goal 
of a lunar base was offered as an objective co-equal to the exploration 
of Mars. Elaborate lunar facilities, such as the proposal for a lunar 
construction crane, helped drive cost estimates for the overall program 
past the $400 billion mark. A similar result might be avoided by 
keeping the focus on Mars, with the moon serving only as a test bed or 
proving ground on an as-needed basis.

    Question 6. NASA has announced a new Exploration Systems 
Enterprise. Do you think this is a step in the right direction for 
transforming NASA to meet its new mission?
    Answer. The creation of a strong systems engineering group at NASA 
headquarters during the 1960s helped the first Americans reach the 
moon. Space historian Stephen B. Johnson called the Apollo systems 
engineering group under the leadership of General Samuel C. Phillips 
the ``secret of Apollo.'' The Exploration Systems Enterprise is an 
essential first step for the new endeavor. However, it is equally 
important that NASA improve upon traditional systems management 
techniques in order to restrain spending. The Apollo systems 
engineering group coordinated the very large number of subsystems 
managers and contractors whose presence made the lunar expeditions 
possible, but those same participants made the overall program 
extraordinarily complex and expensive. The Exploration Systems 
Enterprise for the moon-Mars initiative faces a different challenge--
keeping program relationships simple and costs low.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                         Dr. Howard E. McCurdy
    Question. How much do you believe the President's proposal will 
ultimately cost the American taxpayers? Is this a realistic estimate?
    Answer. I estimate that the president's proposal will cost $42 
billion over what the government would otherwise spend on NASA space 
activities if the proposal was not approved. That covers Fiscal Years 
2005 through 2020 and includes adjustments for inflation. (In constant 
2005 dollars the sum would be about $36 billion.)
    By 2015 or thereabouts, we should know whether we will be able to 
undertake the next steps in the exploration agenda at a realistic and 
reasonable cost. I do not think those steps can be accomplished using 
Apollo-style technology or management. Project Apollo, in today's 
dollars, cost about $150 billion. Accomplishment of the new vision will 
require technological and managerial innovations that depart 
significantly from the practices used during the Apollo years.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
